<html>
<title> - S. Hrg. 108-643 AFGHANISTAN: CONTINUING CHALLENGES</title>
<body><pre>[Senate Hearing 108-643]
[From the U.S. Government Printing Office]



 
                                                        S. Hrg. 108-643

                   AFGHANISTAN: CONTINUING CHALLENGES

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                      ONE HUNDRED EIGHTH CONGRESS



                             SECOND SESSION



                               __________

                              MAY 12, 2004

                               __________



       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate




                 U.S. GOVERNMENT PRINTING OFFICE

95-973                 WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN D. CHAFEE, Rhode Island      PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Witnesses

Gouttierre, Dr. Thomas, dean of international studies and 
  programs and director of The Center for Afghanistan Studies, 
  University of Nebraska at Omaha, Omaha, Nebraska...............     3

Isby, David, foreign and defense policy analyst, Washington, D.C.    23
    Prepared statement...........................................    24

Perito, Robert, senior fellow and special advisor, Rule of Law 
  Program, United States Institute of Peace, Washington, D.C.....    19

Schneider, Mark, senior vice president, International Crisis 
  Group, Washington, D.C.........................................    11
    Prepared statement...........................................    15

Map of Afghanistan...............................................    48

                                Appendix

Additional Material Submitted by the International Crisis Group

    Elections and Security in Afghanistan........................    49

Additional Material Submitted by the United States Institute of 
  Peace

    Establishing the Rule of Law in Afghanistan..................    58

                                 (iii)

  


                   AFGHANISTAN: CONTINUING CHALLENGES

                              ----------                              


                        Wednesday, May 12, 2004

                              United States Senate,
                            Committee on Foreign Relations,
                                                   Washington, D.C.
    The committee met at 9:35 a.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Richard G. Lugar, chairman of the 
committee, presiding.
    Present: Senators Lugar, Biden, and Feingold.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    Today the committee again meets to examine the challenges 
in Afghanistan. Despite many successes on the ground, the 
prospect that we could fail in Afghanistan is still very real. 
Congress and the administration must soberly assess the state 
of political and economic reconstruction efforts in Afghanistan 
and devise adjustments to the current plan where necessary.
    The same sources of conflict and instability that allowed 
the Taliban to seize power and fueled the growth of Al Qaeda's 
terrorist network continue to threaten the future of 
Afghanistan. Conflicts among heavily-armed militias controlled 
by warlords, pervasive poverty, systemic corruption, and an 
increasingly entrenched narco-economy threaten to undermine 
reconstruction activities. Despite coalition efforts to 
establish security, disarm the warlords and strengthen the 
central government of President Karzai, the situation sometimes 
appears to be getting worse, not better.
    Too little assistance to Afghanistan has been provided, and 
often it has come too late to address the daunting needs of 
that country. The lack of security and continuing attacks on 
aid workers, particularly in southern Afghanistan, have delayed 
or prevented aid deliveries. In 2003, Congress appropriated 
funding to speed up the training of Afghan security forces, 
including the Afghan National Army, police, and border guards. 
The security force has increased to about 20,000 Afghanis, but 
this is a fraction of what is needed across the country.
    Many of the same warlords who helped the coalition oust the 
Taliban are fighting each other, instilling fear in the 
population, and frustrating rebuilding efforts. These warlords 
control vast regions of Afghanistan. Reports by the UN Special 
Representative for Afghanistan, Jean Arnault, indicate that 
efforts to disarm the clashing Afghan militia factions have 
barely begun.
    NATO decided last December to expand the International 
Security Assistance Force, ISAF, outside of Kabul, but the 
number of NATO forces has increased only from about 5,000 to 
6,500. NATO allies promised to provide increased equipment and 
personnel support, but thus far the NATO effort has been 
tentative and incremental. Given the extreme challenges in 
Afghanistan, NATO must step forward with a much bolder 
commitment.
    The Provincial Reconstruction Teams, the PRTs, units that 
concentrate military and civilian capabilities in critical 
locations, have been successful in establishing islands of 
security. The intended purpose of the 13 PRTs is to jump-start 
reconstruction outside Kabul. But this relative success has 
been hampered by a lack of resources, equipment, common 
doctrine, coordination, and training. Without a substantial 
expansion of resources and commitment, the PRTs will not 
succeed as a platform for reconstruction.
    The failure of efforts to stem poppy production and provide 
alternative sources of income undermines every aspect of 
reconstruction in Afghanistan. The warlords are financing 
themselves through the illegal opium trade, valued at close to 
$2.3 billion last year. If this estimate is accurate, it would 
account for more than 50 percent of Afghanistan's gross 
domestic product. This drug trade also is funding resurgent 
Taliban units, Al Qaeda, and other criminal and terrorist 
elements.
    As we tackle these security problems, the administration 
and the Congress must ensure that prisoners of war in 
Afghanistan are not being abused and that vigorous 
investigations occur into any wrongdoing. The revelations about 
prisoner abuse in Iraq have repulsed Americans and hurt our 
reputation in the international community. We need to establish 
absolute accountability and stay true to our principles and 
values without reducing our efforts to overcome terrorism.
    The President and Congress have made clear our long-term 
commitment to a free and stable Afghanistan. Last fall, 
Congress strongly supported more resources in the Emergency 
Supplemental, bringing U.S. aid to Afghanistan to $3.7 billion 
since 2001. Our hope was that security enhancements and other 
improvements would lead to successful elections, now scheduled 
for next September. The UN has reported that nearly 2 million 
of the 10 million eligible Afghanis have been registered to 
vote thus far. Of those already registered, an estimated 29 
percent are women. As September approaches, we must either 
register voters far more efficiently or develop alternatives to 
traditional registration that will allow elections to proceed.
    This year's budget request includes $1.2 billion for 
Afghanistan. The administration recently announced it will seek 
an additional $25 billion contingency fund for Iraq and 
Afghanistan. Congress must carefully review these requests, 
assess how these funds are to be used, and ensure that they are 
managed properly.
    We have asked a distinguished panel of experts to testify 
today about the priorities and the prospects for redevelopment 
in Afghanistan. Which elements of the reconstruction effort are 
succeeding and which are failing? What adjustments can be made 
now to improve the prospects for long-term success?
    We are pleased to welcome Dr. Thomas Gouttierre, Mr. Mark 
Schneider, Mr. Robert Perito, and Mr. David Isby. I would point 
out that Dr. Gouttierre is Dean of International Studies and 
Director of the Center for Afghanistan Studies at the 
University of Nebraska, Omaha. Mr. Schneider is Senior Vice 
President of the International Crisis Group. Mr. Perito is 
Senior Fellow and Special Advisor for the Rule of Law Program 
at the United States Institute of Peace, and Mr. David Isby is 
author of several books on Afghanistan and a foreign aid and 
defense policy analyst.
    We look forward to your insights, and we look forward to 
the opportunity to question you. We thank you for coming to the 
hearing this morning. I would like for you to testify in the 
order that I mentioned. That would be Dr. Gouttierre to begin 
with.
    Let me indicate that all of your prepared statements will 
be made a part of the record in full. We would ask, just for 
the sake of moving on in the hearing, that you either give your 
statement or summarize in about 10 minutes or so. In the event 
that it moves it beyond that, the chair will be liberal, 
because the purpose is to hear you today, and to make certain 
that we encompass the ideas that you bring to us. Thank you for 
coming and would you please proceed, Doctor.

   STATEMENT OF DR. THOMAS GOUTTIERRE, DEAN OF INTERNATIONAL 
STUDIES AND PROGRAMS AND DIRECTOR OF THE CENTER FOR AFGHANISTAN 
   STUDIES, UNIVERSITY OF NEBRASKA AT OMAHA, OMAHA, NEBRASKA

    Dr. Gouttierre.  Thank you, Senator Lugar. I am pleased to 
mention that I'm an IU graduate, and I remember seeing you on 
campus when you were mayor of Indianapolis. So that puts both 
of us back quite a number of years, as you well know.
    The Chairman. An excellent qualification for testifying 
today.
    Dr. Gouttierre.  Well, I think it is as well.
    I am pleased to be able to come here, and I know the other 
panelists are as well because the issue of Afghanistan is still 
a very important one. I think in many ways, though it is often 
obfuscated by the news that we see daily coming from Iraq, it 
offers to the United States a greater opportunity for success 
and a greater opportunity for us to take the type of advantage 
we have been seeking in the Middle East with fewer challenges 
if we do it correctly. So thank you and the committee for 
having this hearing. I appreciate the fact that it is being 
done. It is good for U.S. interests. It is very important for 
Afghanistan.
    In the nearly 30 years of war and instability which 
preceded the swearing-in of the Karzai government, nearly every 
element of Afghanistan's infrastructure, human and material, 
was significantly destroyed or displaced. Most of those 
services and resources upon which Afghans had come to rely in 
the years leading up to that tragic period are still not 
available to Afghans.
    And yet, there can be no denying that many positive 
developments, some of which I observed in my most recent trip 
to Afghanistan a month ago, are also occurring. There are also 
many challenges, and I will try to address the primary ones of 
both the positive developments and the challenges.
    The thing that stood out most to me was the fact that the 
population and commercial centers of Afghanistan are truly 
being resuscitated. The bazaars of Kabul, Kandahar, Herat, and 
Mazar-i-Sharif are well stocked with food, essential goods, and 
an amazing array of commodities. The people are in the streets 
in colorful clothing like they were in years past. They bargain 
for their purchases, shouting above the cacophony and gridlock 
created by the four-wheel vehicles of donor nations and 
organizations, the other means of transport drawn by humans and 
animals, and the ubiquitous music blaring from loudspeakers in 
the bazaars.
    Most noticeable is the look of hope and anticipation in the 
eyes of a nation where none existed 3 years ago. There is a 
building and rebuilding boom in these centers, a demonstration 
of confidence that perhaps the long national nightmare of 
Afghanistan is coming to an end.
    This expression of confidence is further fueled by a number 
of other demonstrable developments in several key sectors of 
Afghan society. I'm just going to mention these briefly.
    Education is one with which our Center for Afghanistan 
Studies is intimately involved, and we've been pleased to be 
involved with USAID and the Bureau of Education and Cultural 
Affairs and the Afghan Ministry in a number of programs over 
the last couple of years. Right now, education is being pursued 
by Afghans with a vengeance. This follows, of course, nearly 30 
years of little or no access. More Afghan school children 
today, over 4 million, are in school than at any other time in 
Afghan history. Education is the only national effort currently 
reaching into all the provinces and districts of Afghanistan.
    I first went to Afghanistan 40 years ago as a Peace Corps 
volunteer. I lived there for 10 years, and I have been working 
since then at the Center for Afghanistan Studies, so I'm able 
to offer a perspective on education. I've never seen an 
interest in education in Afghanistan at the level that there is 
today.
    The reconstruction of Afghanistan's ground transport 
infrastructure is improving access of Afghans to their 
government and regional commercial centers. Afghanistan's so-
called ``Ring Road'' is being rebuilt. The Kabul-Kandahar 
corridor is reopened, reducing travel time from nearly 2 days 
to 5 hours. The Salang Tunnel through the Hindu Kush mountains 
is repaired and reopened, again reducing travel time from Kabul 
to the north from several days to 5 or 6 hours. Donors have 
been identified for each of the remaining sectors of this 
``Ring Road.''
    This road reconstruction also plays an important role in 
the improvement of Afghanistan's economy and its ability to 
play an integral role in the trade between South and Central 
Asian nations. When asked why Afghanistan is important to 
regional and U.S. interests, I always like to answer what real 
estate agents always recite in their mantra: ``location, 
location, location!''
    Astride the arteries of the Silk and Spice roads, 
Afghanistan is already profiting as a transit sector for 
commercial traffic between its neighbors in South and Central 
Asia and from Iran to South Asia as well. Should a natural gas 
pipeline be built from Turkmenistan to Pakistan, it will likely 
travel a route above the Herat-Kandahar sector of the ``Ring 
Road.'' In essence, Afghanistan has begun the process of 
rejoining the world economy.
    The economy of Afghanistan, according to a recent statement 
by U.S. Ambassador Zalmay Khalilzad, grew by 29 percent in 
2003. The traditional exports of Afghanistan, fruits, nuts, 
textiles and carpets, jewelry and precious stones, are once 
again being shipped abroad. In 2003, America bought over 14,000 
square meters of handwoven carpets, 13 tons of dried and fresh 
fruit, and almost 600 tons of licorice root, an amazing kind of 
ad there.
    Unlike Iraqis and many others in the Muslim world, Afghans 
have previous history with constitutional democratic process. 
During the decade under the Constitution of 1964, Afghans 
elected national officials and governments and turned them out 
with votes of no confidence. Afghans retain this democratic 
experiment, as it is often called, in their collective memory. 
Many believe that a democratic process is their legacy and 
their right.
    After years of being a stateless nation, a system of 
governance is being rebuilt. In a series of efforts, beginning 
with the Bonn process in December 2001, Afghans have taken 
several steps towards reconstituting a national government. The 
constitution approved in January of this year is regarded by 
many observers as among the most progressive and enlightened in 
the Muslim world. It mandates a strong central government and 
presidency, with a two-house national assembly and independent 
judiciary. National presidential and parliamentary elections 
are scheduled for this September.
    These positive developments have been obtained despite what 
most analysts characterized as a slow, distracted, and 
sometimes inept start on the part of U.S. and Coalition forces. 
The donor conference approach has proven to be disjointed, 
inconsistent, and largely unmanageable. Pledges are late in 
coming; some do not come at all. U.S. leadership in the process 
has often been solicitous rather than forthright. In the face 
of U.S. involvement in Iraq, Afghans have questioned whether 
the U.S. is committed, over the long haul, to reconstruction of 
their country.
    A number of recent developments, however, have helped to 
assuage these concerns of Afghans. The first is the arrival of 
Zalmay Khalilzad as U.S. Ambassador. In my opinion, he is the 
best person for this job at this critical juncture. He knows 
most of the Afghans in national and regional leadership roles. 
He is considered credible and tough by those who share U.S. and 
Afghan aspirations for a stable Afghanistan. Needless to say, 
these favorable opinions are not shared by terrorists, 
warlords, and drug lords.
    Khalilzad can speak to leaders and common citizens 
effectively. He is fluent in Dari and Pashto. He has good 
connections to the White House and with Congress. His relations 
with Hamid Karzai and other key Afghan leaders are 
constructive.
    Another positive development centers around the growing 
number and effectiveness of the Provincial Reconstruction Teams 
(PRTs) as you indicated earlier. Lieutenant General David 
Barno's vision for the PRT process is solid, anchored in 
community-based reconstruction. Members of the Center for 
Afghanistan Studies have observed particularly successful PRT 
efforts led by New Zealand forces in Bamiyan and British forces 
in Mazar-i-Sharif.
    The new, imposing American embassy and adjoining 
residential and office buildings are nearing completion. They 
have gone up in a remarkably short time. Afghans note that the 
investment required to construct these buildings suggest the 
Americans are, indeed, in it for the long haul. This builds 
confidence.
    The continuing security, political, and economic challenges 
to the reconstruction of Afghanistan remain formidable. The 
most critical is security. It negatively affects all other 
factors. The lack of security is perhaps the only factor that 
might ensure a return of a stateless society to Afghanistan.
    The three primary security threats are terrorists, drug 
lords, and warlords. These are holdovers, sometimes 
protagonists, other times allies, from the period of protracted 
civil war in Afghanistan. Though routed out of their 
strongholds and camps after 9/11, replenished and reorganized 
elements of Al Qaeda and the Taliban remain at large and 
constitute a threat, both real and symbolic, to the overall 
reconstruction effort. They gain financial support from drug 
interests.
    These elements threaten Afghan teachers, students, election 
workers, and other government workers, even shop owners and 
farmers. They threaten them with death or other bodily harm if 
they teach, go to school, register to vote or assist in the 
election process, or appear to side with the government. 
International assistance workers and military forces are also 
threatened; some have been killed. The continuing capacity of 
these terrorists to intimidate slows and even terminates 
certain reconstruction efforts.
    I have some recommendations on how these might be 
addressed.
    First, increase the military capacity to provide security 
in the rural areas of Afghanistan through expanding the PRT 
program.
    Second, go after Osama bin Laden, Aiman Zawahiri, Mullah 
Muhammad Umar, and Gulbudeen Hikmatyar with a ``deck-of-cards'' 
intensity. They remain the real and symbolic leaders of the 
terrorist networks and organizations whose activities are the 
cause of the periodic alerts in the U.S. and around the world, 
not those adversaries in Iraq. The fact that they remain at 
large undermines the confidence in U.S. policy among Afghans, 
reduces the credibility of the Afghan government and 
international reconstruction efforts, and sends the wrong 
message to Afghan and Pakistani tribes in their respective 
border areas.
    Third, the pace and financial support for the creation of 
adequate Afghan security forces should be increased.
    The U.S. Government should intensify pressure on 
Afghanistan's neighbors and Persian Gulf nations not to aid and 
support forces connected to the security threats to 
Afghanistan.
    Afghan Vice President Hidayatullah Aminarsalah has 
suggested that instead of going after terrorists, warlords, and 
drug lords in sequential fashion, a concerted effort be made. 
His argument is that a sequential approach permits those 
sectors not targeted to aid those that are. His idea of 
following a more concerted approach against these threats I 
believe has merit.
    Relating to education and the challenges there, although 
there is an unprecedented number of Afghan school children in 
school, there still are many, many challenges.
    More teachers are needed. This should be a priority of the 
Afghan government and donors.
    More in-service teacher training is necessary to bring some 
standard to education throughout the country. Many current 
teachers do not possess any manner of formal training.
    The delivery of textbooks and teachers' kits is still 
flawed. Though millions of textbooks have been produced, many 
classrooms remain without books.
    Vocational education is essential for the unemployed and 
the under-employed. The Afghan government has set a target to 
demilitarize 60,000 Afghan men from militia forces in the near 
term. What will they do for employment? They are not likely to 
go back to primary school, if they ever were in school, or to 
secondary schools. Many of them are illiterate. Vocational 
education in the basic construction and office management 
skills would attract large numbers. This need is severe. 
Currently, there are thousands of foreign workers in 
Afghanistan, primarily in Kabul and Kandahar, due to the lack 
of trained Afghans, taking places that many Afghans might 
occupy were they trained. For many, vocational literacy will 
also be essential.
    The pace of the physical reconstruction of schools has also 
been slow. Many schools are still without water and sanitation.
    Security threats continue to impede the attendance of girls 
in schools and intimidate female teachers.
    Finally in this area, higher education, an area in which 
the U.S. was the leading donor prior to the Soviet invasion, 
remains neglected. Few laboratory resources remain at Kabul 
University. This sector within education is kind of a stepchild 
without the priority accorded the primary and secondary 
education sectors by the Afghan government and donor nations.
    Health care is in even a worse state. Most Afghans do not 
have access to reliable health care. This is particularly 
critical for mothers and children. Afghan infant and maternal 
mortality rates are the highest and second highest in the 
world, respectively. There is no plan for comprehensive 
training of Afghans to take over their own medical health needs 
currently on the boards, primarily because Afghanistan's 
colleges of medicine, which were located at Kabul University 
and Nangrahar University, have not yet been reconstructed. The 
only type of education going on there is through lecture. There 
is no laboratory, no practical clinical experience. Most of 
Afghanistan's trained medical personnel left during the war 
years. So the situation in the medical profession and the 
medical treatment in Afghanistan still remains very woeful. 
Most of all of the medical attention that any Afghans get is 
delivered by international support and organizations.
    Rural reconstruction lags far behind that of the 
reconstruction moving forward in the population centers, which 
I mentioned briefly earlier. This greatly enhances the power of 
warlords and handicaps the reach and influence of the central 
government. The crowding of Afghans into population centers, 
coupled with the inflationary presence of international 
organizations, leaves many Afghans without any real option. 
They cannot stay in the neglected rural areas and cannot afford 
to relocate in the centers where services are available. The 
men, in particular, are vulnerable to those who would employ 
them away from the process of reconstruction into the militias 
of warlords and the cultivation of poppies. Until the central 
government is able to provide the carrots and sticks that 
outnumber those of the warlords, the warlords are going to 
continue to be able to hold sway in their regions.
    I would like to conclude with just a few comments about 
what I feel still remain the windows of opportunity for the 
United States to help the Afghans, and some of the assets that 
we have. I am certain the other members of the panel will focus 
on these particular comments that I have made in greater 
detail.
    On balance, in spite of a slow and inconsistent start, the 
window of opportunity for all involved in the reconstruction of 
Afghanistan remains open. There are many factors which 
constitute significant assets in this.
    One, a credible political process has been launched without 
the uncertainties that plague Iraq. The Afghan government is 
gaining capacity. It is true that its reach is often limited to 
Kabul and, tenuously, to other population centers. At the same 
time, it must be noted that almost all members of the 
government had little or no experience in the governance 
process before their current assignments. They literally had to 
learn on the job. There are legitimate complaints stimulated by 
evidence and rumors of corruption and incompetence. Yet, some 
in this new cadre of Afghan civil servants are learning well 
and have helped to restore a measure of credibility in the 
restoration of Afghan state.
    The leadership of this government has been identified and 
confirmed by a national assembly. President Hamid Karzai, 
though not without detractors, and even implacable enemies 
among Afghans, is largely well-known and well-regarded and is 
popular. He understands and is a believer in human rights. He 
pursues consensus, perhaps to a fault. He learned this skill 
from his late father, a highly regarded tribal khan. His likely 
reelection in September should enhance stability and provide 
continuity to a delicate process.
    Afghans are very clear about the way they feel about 
Americans. They want them in Afghanistan. They want American 
leadership and assistance in the reconstruction process. There 
are no armed insurrections in the towns and villages, no 
demonstrations. Afghans have never regarded Americans as their 
enemies. To the contrary, they appreciated our development 
assistance in the 50s, 60s, and 70s. They appreciated American 
support in their war against the Soviet Union and in the war, 
though belated, against terrorists. They now see us as their 
primary allies in the reconstruction of their country.
    I have attached to my statement a copy of my favorite Dari 
poem, ``Rose and Clay,'' which Afghans often use in describing 
to me how they feel about Americans. I am going to subject you 
to a reading of that because I always believe it is important 
to point out the cultural aspects of Afghan society, something 
that gets left behind when we talk about these issues and 
urgencies and emergencies in the country.

        One day at bath a piece of perfumed clay was passed to 
        me

                from the hand of a friend.

        I asked the clay, are you musk or ambergris?

                because your delightful scent intoxicates me.

        It answered--I am but a worthless piece of clay that 
        has

                sat for a period with a rose.

        The perfection of that companion left its traces on me

                who remains that same piece of earth that I 
                was.

    The whole world, especially the Muslim world, is watching 
what is going on in Afghanistan today. If we do not try to do 
Afghanistan on the cheap and in piecemeal fashion, we can work 
with the Afghans in this cooperative venture. We will acquit 
ourselves admirably in our own eyes, in the eyes of Afghans, 
and in the eyes of others around the world.
    If we muddle through, we will probably still prevent 
Afghanistan from returning to its status as a haven for 
terrorist camps. It will cost us more, take a longer period, 
and not really gain the credit we would deserve by doing it 
right. We might also lose an already unstable Pakistan in the 
process.
    Much effort has been expended. We have learned much in the 
process. Assets are available. The Afghans are allies. They are 
in place. We can do this right. The window is open. I think the 
choice is ours. I think we are on the right track. I hope we 
really go at this with all the resources that we are able to 
bring to bear in this effort.
    Thank you.
    The Chairman. Well, thank you very much, Doctor, for a 
very, very compelling piece of testimony. We appreciate your 
coming and all that you have brought to the hearing.
    I would now like to recognize the distinguished ranking 
member of the committee, Senator Biden, for his opening 
statement.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    Senator Biden.  Well, thank you very much, Mr. Chairman. I 
am anxious to hear the witnesses. I will forgo my opening 
statement.
    Just by way of explanation, I have been very involved as 
the author of the Violence Against Women Act years ago. There 
is a conference that was taking place downtown this morning 
that I had to--not had to--I was invited to attend, and it ran 
a little bit longer, and I apologize for my tardiness. But I am 
anxious to hear the rest of you.
    I ask unanimous consent that my statement be placed in the 
record.
    The Chairman. It will be placed in the record and published 
in full.

    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, I commend you for calling this hearing. Although our 
attention is focused on Iraq these days, we must never let ourselves be 
distracted from the urgent challenges in Afghanistan.
    For the past two years, many of us on this Committee have been 
making the same basic points about Afghanistan:
    First, the reconstruction and stabilization of Afghanistan is a 
vital national security imperative of the United States. We cannot 
permit this country to again become a haven for terrorists.
    Second, the reconstruction of Afghanistan will require a very 
significant investment of American capital, both financial and 
diplomatic. We can't do this on the cheap.
    Third, without bringing security to Afghanistan, nothing else is 
possible. Unless we are able establish stability and basic order 
throughout the country, any reconstruction will be built on a 
foundation of sand.
    Three simple points. And it would be tough to dispute any of them. 
But, looking at the administration's performance since the fall of the 
Taliban, one has to wonder whether the White House has received the 
message.
    On the issue of security, vast areas of Afghanistan are still 
disputed territory, with the resurgent Taliban launching attacks 
throughout the south and southeast. The movement is stronger now than 
it was two years ago.
    Most of the rest of Afghanistan is only nominally under the control 
of the central government. Instead, it is brutal warlords who wield 
real power.
    The Afghan Ministry of Defense has promised to disarm 40,000 of the 
nation?s 100,000 warlord militiamen by June 30. According to the UN, as 
of last week, the number who had been disarmed was exactly zero. [AP 
report, May 6]
    The administration has put forward the idea of training the Afghan 
National Army to combat the warlord militias--and someday this force 
will indeed be able to shoulder the burden. But today the ANA has an 
operational strength of just over 8,000--and few of these troops, if 
any, have the training or experience necessary for serious combat.
    The warlord armies support themselves through the illicit profits 
of the drug trade. As several of our witnesses will describe in greater 
detail, this trade risks turning Afghanistan into a full-blown narco-
state.
    Under the administration's watch, Afghanistan has firmly entrenched 
itself as the world's number-one supplier of opium and heroin. The 
opium crop of 2003 was up 7 percent from the previous year, to a near-
record 3600 tons. The crop for this year is expected to increase 
another six percent. The drug profits amount to $2.3 billion annually--
five times the entire budget of the Afghan government.
    On the issue of reconstruction, the administration has failed to 
make good on the President's pledge of a Marshall Plan for Afghanistan.
    According to the assessment of the World Bank and other 
authorities, Afghan reconstruction will require at least $28 billion 
over the next 7 years. How do the commitments thus far add up?
    To date, the world community has disbursed only $3.7 billion in 
nonmilitary aid, with $1.4 billion of this sum coming from the United 
States.
    What's more, the vast majority of this aid has gone for 
humanitarian relief, not for long-term reconstruction. Relief aid is 
necessary to stave off immediate disaster, but it is not the basis on 
which to build a stable nation.
    Looking to the future, there seems to be little encouragement in 
sight. Total pledges from all sources, ever since 2001, add up to less 
than $10 billion, of which about one-third are American. And here the 
administration's lack of long-term vision is apparent.
    In the current fiscal year, the administration proposes a marked 
increase in reconstruction funding--to $2.2 billion, compared with a 
mere $900 million for the past two years combined. This would be 
encouraging if it were the beginning of a program--but it seems, 
instead, to represent the end of the administration's stepped-up 
commitment.
    The administration's request for fiscal year 2005 is barely half 
the rate for this year. [$1.2 billion, 54% of FY 04]. That is not the 
kind of sustained commitment that Afghanistan needs.
    Mr. Chairman, I look forward to asking questions about Afghan 
policy to witnesses from the administration. I am concerned, too, that 
the prisoner abuse scandal we've been contending with in Iraq could 
also touch Afghanistan--I very much hope the Administration will get 
all the facts out as quickly as possible and make clear what steps have 
been taken to prevent this from happening again. Mr. Chairman, I 
understand that you are planning to schedule a hearing, before the 
summer recess, at which we will be able to get answers on Afghanistan 
policy from top-ranking administration officials. I look forward to 
that hearing, because this issue is too important to be put off any 
longer.
    Today's hearing, however, will be informative and valuable. Our 
privatewitnesses bring a varied range of experiences and perspective to 
the discussion, from security to narcotics to nation-building. Let me 
also welcome the first Afghan graduates from a journalist-training 
program established by Radio Free Europe/Radio Liberty at my urging, 
with the strong support of Congress. Your work will be vital to 
building a free and open society in Afghanistan.
    I welcome all of our witnesses.

    Senator Biden.  Thank you.
    The Chairman. I thank the Senator.
    Mr. Schneider.

      STATEMENT OF MARK SCHNEIDER, SENIOR VICE PRESIDENT, 
          INTERNATIONAL CRISIS GROUP, WASHINGTON, D.C.

    Mr. Schneider.  Thank you very much, Mr. Chairman, Senator 
Biden. Let me thank the committee, the Chairman and the 
leadership for holding this hearing on the continuing 
challenges facing the Afghan people, the United States, and the 
international community.
    The International Crisis Group is deeply concerned that the 
effort to assist Afghanistan in building democracy and 
rebuilding its shattered economy may fail. As you said in your 
opening statement, Mr. Chairman, it may fail because there has 
been a failure to recognize the magnitude of the threats that 
face Afghanistan, and we believe as well to direct sufficient 
political, military, and financial resources to overcome those 
threats. We also believe there have been several policy 
mistakes, a few of which have yet to be corrected.
    This does not mean that we do not recognize positive 
progress that has been made from the Kandahar Road, to the 
constitution, to immunizing children, and to ridding the 
country of the Taliban repression.
    However, after more than nearly 2 and a half decades of 
war, Afghanistan is second to last in the indicators of human 
development of the United Nations Development Programme (UNDP).
    There are still 2 million refugees in Pakistan and Iran, 
300,000 displaced persons inside Afghanistan.
    The country's first and, therefore, most important 
transition election has yet to be held. The date already has 
been postponed from June to September. We believe that those 
elections must be fair, free, credible, and legitimate. Yet, 
registration is barely at 20 percent of eligible voters. The 
electoral law has not yet been decreed. A smattering of 
political parties has been registered. No one yet knows where 
the voting sites will be or who will protect them, and the 
decision of how the votes will be counted is still to be 
determined.
    Opium, as you've noted, has been allowed to expand now to 
28 of 34 provinces. Its cultivation, transformation into 
heroin, and trafficking across borders now accounts for $2.3 
billion of a $4.5 billion to $5 billion economy. Afghanistan is 
in clear and present danger of descending from a narco-economy 
into a narco-state.
    My colleague noted that Afghanistan has begun to reenter 
the world economy. With respect to drugs, it has reentered, 
fully. Warlords siphon off customs revenues that the central 
government needs badly to address its needs. They also 
increasingly use their drug-financed militias to intimidate and 
to challenge President Hamid Karzai.
    As you noted, the central government barely has some 8,000 
newly minted ANA soldiers who show up for roll call, barely 
another 10,000 new police, and it faces several times that 
number, solely in terms of the militia forces, that are 
responding to regional and local commanders. And the Taliban 
and Al Qaeda continue to pose a significant military threat to 
security, and it is very important, a significant political 
threat to the transition itself. Their attacks on the United 
Nations NGOs and Afghan government officials have nearly 
doubled over the past 4 months compared to last year. More NGO 
staff were killed in these first 4 months of the year than all 
of 2003.
    When I stayed overnight in Gardez in November behind the 
barbed wire encampment of the UN, I was really stunned at the 
level of security that was viewed as necessary. It hit me a few 
days later as to why when a young UNHCR field worker was 
murdered in Ghazni.
    Closing the security gap--and I think you will hear that 
from all of us--is absolutely crucial to the success of the 
transition in Afghanistan. In many ways, we believe that the 
extension and expansion of NATO/ISAF beyond Kabul is the 
linchpin to greater progress on many of these issues, with 
respect to peace, political transformation, relief, and 
reconstruction. ICG has been working in Afghanistan now since 
2001, just prior to the Bonn conference. We have offices in 
Kabul and Islamabad, and our field-based people really allow us 
to try and understand the real-time dynamics of what is 
occurring.
    Let me just mention, as you did at the outset, that we also 
are concerned about the issue of human rights and the issue 
about how prisoners are being dealt within the prisons; there 
is a New York Times story today. A month ago, though, Human 
Rights Watch put out a report that contained information 
detailing mistreatment of detainees. They raised questions 
about the different areas in the country, where prisoners are 
being held and who controlled them. Some of the same issues 
about control, the lack of the application of the Geneva 
Convention were raised in that report. I think it is an issue 
of concern because, obviously, it can undermine our role, our 
presence, and the values that we all believe are important to 
convey.
    With respect to Al Qaeda and the Taliban, the recent 
Pakistani offensive, together with the U.S., in south 
Waziristan should not have been something so new. It should 
have been going on from the start. Taliban political leaders 
still appear to move with relative ease in many of the 
Pakistani cities. Pakistan has just announced an amnesty 
proposal for foreign fighters in that region, and that proposal 
also needs to be scrutinized very closely. With respect to Al 
Qaeda, it should be cut off and terminated.
    The Taliban and other Islamic extremists are still 
recruiting in Pakistan's madrasas, and they are seeking through 
intimidation and violence to rebuild their power base in 
Afghanistan. So in terms of policy, there needs to be greater 
pressure on Pakistan to go after both Taliban political and 
military leadership on a continuing and unyielding basis, not 
just going after Al Qaeda.
    Second--and here I would agree with my colleague, Dr. 
Goutierre--there has been a recent increase of U.S. forces as 
part of the coalition to some 15,500. That should not be 
reversed. If anything, it should be increased. Really, no 
significant reduction should be considered until the full task 
of security has been taken over by the new indigenous Afghan 
forces when they are prepared.
    A year ago, Secretary Rumsfeld spoke of having U.S. troops 
leaving Afghanistan by June of this year. That was simply not 
realistic, and it sent the wrong signals. Achieving real 
security on the ground is the only way to pave the way for a 
successful exit strategy.
    With respect to disarmament and demobilization, President 
Karzai emphasized at the time of the Berlin conference some 6 
weeks ago, that the DDR program, which began last November, 
would produce a 40 percent reduction in militias and cantonment 
of 100 percent of their heavy weapons by the end of June. We 
are not even close to meeting that goal. As you heard--you 
mentioned yourself--the UN raised that issue last week and is 
very concerned.
    The key policy change needed for the demobilization program 
to be effective is a shift in focus from disarming and 
demobilizing individual soldiers to the complete removal of 
militia units, including those still under the control of the 
minister of defense. Until that happens, the credibility of the 
entire program is in question.
    There is something else that I would call to the 
committee's attention, which is the worrisome proposal to 
create a new paramilitary force called the Afghan Guard Force. 
They would operate in combat alongside U.S. Special Forces 
units. Partisan and poorly trained, coming from the militias--
to have the U.S. identified with those paramilitary forces is 
really a bad idea. They say it is a stopgap until ANA troops 
are produced in greater numbers. The answer is to increase the 
pay, increase the incentive structure, offer long-term career 
guarantees, and put more resources into developing trained 
Afghan National Army to do the job.
    Another part of the answer is to rapidly obtain a major 
expansion of NATO/ISAF. I know that this committee has 
supported that, and I know that you, Mr. Chairman, and Senator 
Biden have spoken out for it. Unfortunately, even after the 
agreement by NATO last October to expand those forces, as you 
said, barely 1,500 additional troops have been added, nothing 
like the three battalions that have been requested to be 
deployed across northern Afghanistan. NATO/ISAF has chapter VII 
authority and could provide the mailed fist behind the 
demobilization program, help prevent local conflicts, and 
ensure greater confidence in the election process. We need to 
double or triple the size of NATO/ISAF.
    Just a few weeks ago, the Deputy Commander of the Canadian 
Army who used to be the Deputy Commander of NATO/ISAF spoke 
specifically to that. They need at least to double, another 
5,000 and probably an additional 10,000, and spread around the 
country, including the PRT in every province, but the 
additional forces should focus on security. We would urge you 
to urge your North Atlantic Assembly colleagues at the North 
Atlantic Assembly at the end of this month to pressure their 
governments to make commitments at the Istanbul Summit that 
would permit this to take place in time to have the ability to 
put a security mantel out there for the elections.
    Let me talk briefly about drugs. Last year 1.7 million 
people, about 260,000 farm families, were engaged in producing 
3,600 metric tons of opium, three-quarters of the world's 
illicit production. There was a recent survey of farmers' 
intentions and there's an expectation now, as a result of that 
survey, that the farmers are going to increase their production 
of opium this year. We are now in the beginning of the harvest. 
It is likely that we are going to find that it is going to go 
well over the 4,000 mark in terms of tons produced, and it 
probably will reach the largest ever amount of hectares under 
cultivation. In 1999, 91,000 hectares were under cultivation; 
it will probably go well over 100,000 this year.
    It is important to understand that this is directly linked 
to the warlords. The local commanders are among the ones, as in 
Colombia, in terms of illegally armed groups--they provide 
protection for the drug traffickers. They tax their produce. 
Sometimes they help with transportation, and if Colombia is any 
example, in a very short time, they will begin acquiring the 
land, forcing farmers off the land. They will combat each other 
for the routes, and they will become the drug traffickers.
    The response we all know has to be law enforcement, 
alternative development, and political leadership. Within the 
enforcement category, there is an argument now about 
eradication between the British and the United States. I can go 
into that later, but essentially right now we think the focus 
on law enforcement has to be interdiction on the roads and on 
the border and the destruction of laboratories and warehouses 
to go after not the small farmer but the traffickers and the 
warlords who are running the trade. We happen to be in the best 
position because we have more international forces in 
Afghanistan that anyone could ever imagine in a similar 
situation.
    But three policy decisions are crucial.
    First, the rules of engagement and mission of the expanded 
NATO/ISAF have to clearly state that one of their missions is 
counter-narcotics and helping the Afghan government destroy 
that network.
    The second is that the United States, DOD, and our other 
coalition forces also have to amend their rules of engagement 
to include counter-narcotics within their mandate. They have 
shifted now from a ``don't look/don't tell'' stance with 
respect to drugs that they find, to one where, if they run 
across them, they will destroy them when they find them. But 
that is really not good enough. Actively disrupting and 
destroying the opium network should be within their mandate.
    Finally, of course, expanded resources in training police 
and building a justice system are crucial.
    With respect to elections that are upcoming--supposedly in 
September--I know the bells, and so I will close quickly by 
just simply saying that with respect to elections, there are 
many things that need to be done. It is not clear it is going 
to happen. They need to be credible first rather than held 
without the level of security and the level of participation 
that are needed. There are things that can be done we believe.
    Finally, with respect to reconstruction, I will simply say 
that we have not put sufficient resources into Afghanistan. The 
international community now is putting about one-fourth the 
level per capita that it did in Bosnia and East Timor and El 
Salvador. We need to do better. And I would urge the committee 
in that regard to authorize a full 7-year commitment that 
matches the needs assessment defined in the recent Berlin 
conference in terms of external support from the United States 
that would provide somewhere between 25 and 40 percent of the 
external aid required, which would replicate, generally, what 
we have done in other situations. I would urge the committee to 
consider doing that. It would be the best way to attract others 
as well to make the same kind of commitment.
    Finally, Mr. Chairman, I will simply say that making that 
kind of commitment and helping Afghanistan complete its 
transition is the most cost effective way of avoiding a 
recurrence of the conflicts that have virtually destroyed the 
country and whose consequences have reached out to cause 
enormous suffering in our own country and elsewhere.
    Thank you.

    [The prepared statement of Mr. Schneider follows:]

              Prepared Statement of Mark L. Schneider, Sr.

    I want to thank Chairman Lugar and the ranking member, Senator 
Biden, for holding this hearing on the continuing challenges facing the 
Afghan people, the United States and the international community in 
Afghanistan. The Taliban regime was repressive and a willing ally of 
al-Qaeda in its terrorist endeavors. The allied effort to removing the 
Taliban reflected an international consensus, backed by UN 
authorization, to defeat and destroy al-Qaeda and to assist Afghanistan 
in building democracy and rebuilding its shattered economy.
    This effort may fail. It will not fail because of a lack of desire, 
a lack of commitment by millions of Afghans, or a lack of bravery and 
determination among U.S., British and other coalition soldiers, 
diplomats, development professionals and relief workers. Instead, it 
may fail because the administration has been unwilling to recognize the 
magnitude of the threats which we face and to direct sufficient 
political, military and financial resources to overcome them. In Kabul, 
Kandahar and Gardez, bombs and mines have not disappeared, and killings 
take place on a regular basis. Afghanistan remains second to last in 
the world in the human development rankings of UNDP. Warlords continue 
to siphon off customs revenues that should go to the national 
government, and nearly half of Afghanistan's $4.5 billion economy comes 
from drug trafficking. There still are more than 2 million Afghan 
refugees in neighboring countries and some 300,000 internally displaced 
persons within Afghanistan.
    The International Crisis Group has been working in Afghanistan 
since 2001, just prior to the Bonn Conference. Our offices in Kabul and 
Islamabad allow us to conduct intensive field research in developing 
our analysis and recommendations. When I drove with our team from Kabul 
to Gardez last November and visited local Afghan offices, the United 
Nations Assistance Mission in Afghanistan (UNAMA), the United Nations 
High Commissioner for Refugees (UNHCR) and a U.S. Provincial 
Reconstruction Team (PRT), I saw the sacrifice and courage that they 
all were making. It was even more poignantly conveyed to me again a few 
days later when a young French field officer for UNHCR in Ghazni was 
killed. While I will touch on the major issues of security, elections, 
drugs and economic reconstruction, I want to be clear that expanding 
NATO/ISAF remains the lynchpin to greater progress on peace, political 
transformation, relief and reconstruction.
Security
    Security affects everything from elections to reconstruction, and 
it is vital to understand that this is not a post conflict situation--
an unrelenting battle continues in Afghanistan. The Taliban government 
and al-Qaeda bases were quickly dispatched by coalition forces barely 
two months after 9/11. That is the good news because it opened the 
window for fundamental change. But many of the Taliban and al-Qaeda 
simply took refuge across the border in Pakistan, and for many, many 
months, little pressure was placed on Pakistan to deny them sanctuary. 
Taliban political and military leadership moved with relative ease. The 
just announced Pakistani proposal to provide amnesty to foreign forces 
in South Waziristan, bordering on Afghanistan, presumably including al-
Qaeda, in return for pledges of ``good behavior,'' is particularly 
disturbing. The Taliban and other Islamic extremists are still 
recruiting and have built up their strength. If anything, the capacity 
of Taliban and al-Qaeda today to maintain a deadly insurgency across 
the south and southwest of the country appears to be increasing. Within 
Afghanistan, there has also been an unwillingness to take on the hard 
work of disarming and demobilizing regional warlords and militias, 
despite its crucial linkage to political stability and to controlling 
the drug trade.
    Al-Qaeda and Taliban attacks on UN, NGOs and Afghan government 
officials have nearly doubled over the past four months compared to 
last year. More NGO staff were killed in these first four months than 
all of 2003. Two schools recently rebuilt with international aid were 
burned down in a village south of Kandahar and a senior Muslim cleric 
critical of the Taliban was assassinated in Kandahar city. And it is 
not limited to the south and southeast. Only last week, two British 
private security contractors and an Afghan elections worker were killed 
in the north eastern province of Nuristan.
    A year ago, Secretary Rumsfeld spoke of having U.S. troops leaving 
Afghanistan by June of this year. There needs to be a clearer 
understanding that achieving real security on the ground is the only 
way to pave the way for a successful exit strategy. We were pleased to 
note that last month there was an increase of some 2,000 U.S. Marines, 
bringing U.S. forces up to 15,500. These troops need to be there--and 
maybe even more troops need to be there until Afghan security forces 
are capable of defending the country against whatever remains of an 
armed al-Qaeda and Taliban military forces.
    Getting the security services up and running has moved in fits and 
starts. The U.S. has bolstered the German-led coordinated training of 
Afghanistan police, with some 20,000 police slated to be trained, 
equipped and on the ground by the end of June, in time for the coming 
elections. UNAMA has estimated that between 29,000 to 38,000 police 
will be required for polling places. But the pressures to get more 
people through the training pipeline have resulted in shorter and 
shorter training sessions and more questions about vetting. More than 
one quarter of the 10,000 Afghan National Army (ANA) troops trained 
have disappeared, presumably deciding that either the risks or the 
money did not match the competing offers. There needs to be a re-
thinking of strategy to ensure that this kind of attrition does not 
continue.
    Disarmament and demobilization: The failure to disarm and 
demobilize individual warlords and factional militias has sharply 
undercut progress on a number of fronts. UN Special Representative 
Lakhtar Brahimi and his successor, Jean Arnault, have criticized 
sharply the weakness of the demobilization program. While some militias 
appear willing to identify their futures with a new national Afghan 
government; most have simply claimed land, resources and power and used 
their armed militias to maintain those claims. The militias continue to 
engage in bitter factional infighting, retain ties to organized crime 
and drug trafficking and have not been particularly helpful in 
combating terrorism.
    President Karzai emphasized at the time of the Berlin conference 
six weeks ago that the demobilization program, which began last 
November with three pilot efforts, would produce a 40% reduction in the 
militias and cantonment of 100 per cent of their heavy weapons by the 
end of June. Not only has this effort not produced any results, since 
Berlin this accelerated phase of the Afghan New Beginning Programme has 
not even begun. The initial weapons turned in included a collector's 
treasure of 19th century Lee Enfield rifles and World War I artillery.
    The demobilization program will not be effective until it shifts 
from a focus on disarming and demobilizing individual soldiers to the 
complete removal of militia units. Some 6,225 militia members have been 
demobilized thus far nationwide. The militia universe initially was 
claimed to be 100,000, but it is probably even lower than the 45,000 to 
60,000 that international observers cite. The units that are presently 
based in Kabul, including at least three that are directly accountable 
to the Minister of Defense remain in place two and a half years after 
the Bonn Agreement called for their withdrawal. Unless they are 
decommissioned, the credibility of the demobilization process itself 
will be undermined. Worse, until the bulk of the militias are 
decommissioned, there is a grave risk that the coming elections will be 
determined by those who control the guns.
    The Afghan Defense Ministry also recently adopted a Coalition plan 
to fold 2,000 members of existing militias into a new Afghan Guard 
Force (AGF). Without real training, but under Special Forces 
supervision, they would be operating in combat alongside U.S. Special 
Forces units in the east and southeast. This would essentially be a 
national paramilitary force, with enormously dangerous political 
implications. Its formation serves as a disincentive to the national 
disarmament and demobilization effort. The potential, as we have seen 
in country after country, of such a partisan and poorly trained force, 
for abuse of civilians, is enormous. To identify the U.S. with such 
forces seems particularly unwise.
    NATO/ISAF One of the most effective forces in providing security in 
Kabul and in Konduz has been NATO/ISAF. Fortunately, the U.S. 
government removed its objection to the expansion of NATO/ISAF outside 
Kabul last August, a step widely called for. In October 2003, NATO and 
then the Security Council authorized that expansion, but to date, 
barely a few hundred more troops beyond the 5,000 previously authorized 
for Kabul are in place, far fewer than the three battalions requested 
to be deployed across northern Afghanistan. Nor has there been a great 
deal of movement toward the concept of a PRT in every province. At this 
point there are 13 on the ground, with only two operating under NATO 
authorship--Konduz and Faizabad. The window is closing on the 
opportunity to create the security environment needed for elections and 
reconstruction. NATO/ISAF has chapter VII authority and could provide 
the potential mailed fist behind the demobilization program, help 
prevent local conflicts and back up legitimate local and national 
government decisions. It also could ensure greater confidence in the 
election process by deploying rapid reaction forces from forward bases.
    NATO member countries have not responded adequately to the call. 
ICG has joined with other organizations including IRC, CARE and Mercy 
Corps, in appearing before the North Atlantic Council in an unusual 
effort to emphasize the strong link between NATO expansion and the 
entire reconstruction effort. Time is running out in Afghanistan. The 
frustration is building. A robust NATO/ISAF expansion beyond Kabul 
should take place immediately. The deputy commander of the Canadian 
Army and the former deputy ISAF commander, Gen. Andrew Leslie, said 
doubling NATO/ISAF forces nationwide to 10,000 or more is essential. 
The Istanbul NATO Summit really is the final opportunity for pledges to 
meet NATO/ISAF needs before for expansion before the proposed elections 
and then there has to be the earliest possible deployment. ICG also 
would hope that NATO parliamentary members of the North Atlantic 
Assembly would press their governments toward objective.
    The new Secretary General of NATO Jaap de Hoop Scheffer has said, 
``We cannot afford to fail . . . if we do not meet our commitments to 
the people of that country to help them build a better future--then who 
will have confidence in us again?''
Drugs
    Last year in Afghanistan, according to the UN Office of Drugs and 
Crime, (UNODC), 1.7 million people were directly engaged in producing 
more than 3,600 metric tons of opium three quarters of the world's 
illicit opium production. In a UNODC survey, 69% of last year's poppy 
farmers stated that they intend to increase their production, and 43% 
of those who have not been growing will start cultivating in 2004. 
Afghanistan is in clear and present danger of descending from a narco-
economy into a narco-state.
    Local commanders, many in the areas controlled by President 
Karzai's allies, others by political opponents, are providing 
protection for the drug traffickers, taxing their produce, and 
sometimes helping with transportation. Opium poppy cultivation has 
expanded to 28 of the country's 32 provinces from a handful, and the 
illegal armed groups are financing themselves and seeking to use the 
political process to insure they keep those streams of financing 
flowing. If Colombia is any example, it will not be long before local 
commanders begin to acquire the land; combat each other for the routes 
and become the drug traffickers themselves. The good news is that 
President Karzai has been ahead of the curve in terms of knowing that 
his international colleagues were letting the drug market get out of 
hand.
    While everyone now asserts that they recognize the seriousness of 
the drug trafficking threat to political stability, more needs to be 
done. The common elements of the international approach appear to be: 
Eradication, Law Enforcement--including interdiction and destruction of 
laboratories, Alternative Development and political leadership. 
However, the UK and the U.S. disagree on eradication. The British, 
particularly in the prelude to elections, argue against forced 
eradication of a small impoverished farmer's crop when there is nothing 
to offer in return. Not surprisingly, they believe it will antagonize 
those farmers and make them far more likely to sympathize with 
opposition forces. The U.S. position is to move forward on eradication 
under any circumstances--whether there is replacement income or not.
    The compromise reached at a recent conference papers over the 
differences but does not resolve them. The British moving in Phase I, 
will fund governors who pay the ANA to go out and eradicate in Helmand, 
Kandahar and Nangarhar provinces where there are DFID and other 
externally financed alternative development projects. The U.S. has a 
centrally directed $40 million Phase II program in which a U.S. 
contractor finances an Afghan eradication force comprised of 
individuals chosen by the Ministry of Interior to actually pull out the 
poppy plants. It started Monday, according to the State Department, in 
one province. That eradication force will be protected by a U.S. 
contractor-financed private foreign security force. This again raises 
additional questions about who is responsible for security in 
Afghanistan and the standards which apply to a U.S. financed private 
military force.
    The primary focus should be on a broad rural development strategy 
that provides rural credit to small farmers, alternative crops and 
alternative income generating opportunities, and investment in a 
community's schools, clinics and infrastructure. In addition, community 
elders and figures of authority, and after the September polls, elected 
representatives, should be enlisted to argue against planting opium 
poppies. At the same time, interdiction, by both Afghan and 
international security forces, on the roads and at the border is 
essential.
    Three policy decisions are crucial to taking advantage of the 
unique presence of international troops:

  <bullet> The rules of engagement and mission of NATO/ISAF need to 
        state clearly that one of its missions is counternarcotics and 
        helping Afghan government agencies to destroy the Afghan drug 
        trafficking network.

  <bullet> Coalition forces also must amend their rules of engagement 
        to incorporate an offensive command to go after drug 
        traffickers. While they have shifted from don't look, don't 
        tell when encountering drug traffickers to being able to 
        destroy what they find when pursing other objectives, it is not 
        good enough. Actively disrupting and destroying the opium 
        network should be within their mandate.

  <bullet> Building an effective police and judicial system also has to 
        be part of the counterdrug efforts as well. While the British 
        are training an Afghan interdiction force, right now it will 
        only be 200 strong. It needs to be expanded. Similarly the U.S. 
        is working on producing more police fast and INL has $160 
        million to help train and equip those police over time. The 
        judicial side of the house is moving even more slowly.

Elections
    The forthcoming presidential and parliamentary elections are vital. 
Originally scheduled for June, they were postponed until September by 
President Karzai, and with good reason. Security conditions have 
impeded the registration process, and would not permit open campaigning 
by candidates. And there is a question whether citizens would be able 
to vote in confidence and safety. The fundamental question now is 
whether adequate conditions will exist to permit both elections to be 
held in September--and it is ICG's view that every effort should be 
made to hold those elections together--and not merely because of the 
cost savings involved. Having the assembly in session will permit the 
critical institutions of government to be in place. Without a 
legislative body, Afghanistan would begin its democratic life with a 
serious lack of accountability and challenges to the central 
government's legitimacy.
    But even more questionable is the level of registration. Barely 20 
percent of Afghan voters have been registered, 2,033,568, 30% of them 
women, out of an estimated 10.5 million Afghans eligible to vote. There 
are some 275 registration sites and plans to increase those to a number 
equal to the 2,600 sites where ultimately voting would take place. At 
this point, results of the registration drive are tilted toward the 
center of the country because it has been too dangerous to reach 
potential voters in the south and southeast. However, all of this 
should have taken place weeks ago. The delay will make it increasingly 
difficult for the 70% registration figure to be reached that was among 
the benchmarks cited as essential in holding a credible election. 
Finally, the contours of the electoral law are still in question, and 
there are serious concerns about the absence of a centrality for 
political parties in the law. The electoral law supposedly to be 
promulgated before the Berlin conference was still in debate this 
Monday within the Karzai cabinet. Political party registration, despite 
USAID and NDI efforts, has been slow. To date only five parties have 
been registered. There have been threats directed at the Justice 
Minister by some parties anxious to by-pass serious inquiry into 
whether they have armed forces. The process for nominating candidates 
has not yet defined nor the forms prepared, nor has agreement been 
reached on what procedures will be followed for counting the ballots, 
nor have security arrangements been finalized.
    New provinces also seem to be springing up as negotiations over 
electoral constituencies remains unresolved. Two new provinces, Dai 
Kundi in the central highlands and Panjshir in the northeast, have been 
announced.
    It is difficult to see how the September date can be met for the 
combination of presidential and parliamentary elections since the 
electoral law has not even been approved and some significant issues 
remain to be resolved. However, if elections are to be postponed, the 
reasons for yet another delay in transferring power to a truly 
representative government should be conveyed; a definite date announced 
for presidential and parliamentary polls; and all possible steps taken 
to ensure that there is no need for yet another postponement.
Reconstruction
    Afghanistan's reconstruction is a case of starting from zero. Few 
other countries are trying to build roads, schools, agriculture, and 
public infrastructure nearly from scratch after 23 years of war, a four 
year drought and a continuing insurgency. There has been a reasonable 
level of planning for the mid and long-term rather than the short-term 
alone. The World Bank, ADB, UNDP and others have engaged the government 
in a coherent strategy for development that has an initial, post 
humanitarian relief phase of seven years. During that period there is a 
$27.5 billion shortfall in financing. The international community took 
the first step toward meeting that request with commitments of some 
$7.2 billion at the Berlin conference. While most were not for the full 
seven years, there were a good number, including the U.S. that at least 
set out a multi-year pledge.
    There are some significant steps to show progress already, from the 
first stage of the Kandahar-Kabul road being completed, to a nationwide 
polio immunization campaign, to irrigation projects. However these 
actions pale alongside the need and the willingness of the U.S., as 
well as other donors, to meet that need. Security also impedes the 
recovery process in a host of ways, most clearly by restricting access. 
A USAID official lamented the inability to visit the NGOs the U.S. is 
funding. To drive outside the city there would be a need for two extra 
escort teams ``of protective shooters in the front and the same in the 
rear.''
    There also is a particular need for the focus to be on rural 
poverty and rapid evidence of the impact of those programs. For 
Afghanistan to succeed in reaching even the minimum levels of 
development that President Karzai has described--achieving $500 per 
capital annual income in 10 years, the legitimate economy must grow at 
an annual rate of 9 percent. Alongside the growth of the private Afghan 
economy there will need to be a state whose institutions can alleviate 
the social deficit facing some four million vulnerable members of 
Afghan society, and provide an opportunity for broad active 
participation in national life by all of its diverse ethnic groups and 
by women.
    For the international community, there must be at least a 10 year 
commitment at an even higher level of support than currently is the 
case. One of the strongest arguments for doing so is that it is the 
most cost effective way of avoiding a recurrence of the conflicts that 
have virtually destroyed the country and whose consequences reached out 
to cause enormous suffering in our own country and elsewhere.

    [A report by the International Crisis Group, ``Elections and 
Security in Afghanistan,'' appears in the appendix to this hearing.]

    The Chairman. Well, thank you very much, Mr. Schneider, for 
that very helpful and comprehensive statement. We will look 
forward to asking questions of you and the other witnesses.
    Mr. Perito.

STATEMENT OF ROBERT PERITO, SENIOR FELLOW AND SPECIAL ADVISOR, 
    RULE OF LAW PROGRAM, UNITED STATES INSTITUTE OF PEACE, 
                        WASHINGTON, D.C.

    Mr. Perito.  Good morning, Mr. Chairman, and thank you for 
the opportunity to appear here this morning. I would like to 
thank you and Senator Biden for your interest in this very 
important topic.
    Mr. Chairman, my oral statement this morning is a summary 
of a report entitled ``Establishing the Rule of Law in 
Afghanistan,'' which I co-authored; I ask your permission to 
have the report entered in the record.
    The Chairman. It will be placed in the record.
    Mr. Perito.  Thank you, sir.
    Mr. Chairman, two-and-a-half years after the defeat of the 
Taliban, security remains the primary concern in Afghanistan. 
During 24 years of war, the rule of the gun long ago replaced 
the rule of law. Today Afghanistan faces a combined threat of 
resurgent terrorism, fractional conflict and dependence on 
narcotics.
    In the south, U.S.-led coalition forces are engaged in a 
running fight with resurgent Taliban and Al Qaeda. In the 
north, warlords and militia commanders maintain private armies 
and engage in armed clashes over territory, border crossings, 
and transportation routes. They use intimidation and violence 
to control the local population, and they rely on narcotics 
trafficking and extortion to finance their operations.
    The U.S. provided money to the northern warlords in 2001 
and continues to work with them in the fight against Al Qaeda 
and the Taliban. Some of the most powerful warlords hold 
positions as provincial governors but ignore the central 
government and refuse to turn over tax revenue. Other warlords 
hold key positions in the central government. Mohammed Fahim, 
an ethnic Tajik leader with a strong northern power base, 
serves as the Vice President and the Defense Minister.
    More than terrorists and warlords, however, the growing 
dependence on narcotics poses the greatest threat to 
Afghanistan's future. Since the fall of the Taliban, there has 
been an explosion in poppy cultivation, opium production, and 
narcotics trafficking. According to the annual report of the 
United Nations Office of Drugs and Crime, opium production has 
spread from the traditional growing areas in the south of the 
country to 28 of the country's 32 provinces. Today Afghanistan 
is the world's largest producer of opium.
    In 2003, Afghans earned $2.3 billion from opium production. 
This amount was equal to half the country's legitimate gross 
domestic product and five times the government's annual budget. 
According to the UN, the international trade in Afghan opiates 
generates a worldwide turnover of some $30 billion.
    In Afghanistan, the narcotics problem is exacerbated by the 
fact that growers, brokers, and traffickers enjoy the 
protection of police chiefs, militia commanders, provincial 
governors, and even cabinet ministers. These officials use the 
proceeds from drugs to fund personal armies and to maintain 
their independence from the central government. Profits from 
narcotics trafficking also find their way through supporters to 
the Taliban and Al Qaeda that are used to finance local and 
international terrorism.
    In a situation where there are few disincentives and no 
equally lucrative alternatives, the country's rural population 
has turned to opium production. Afghanistan's renowned orchards 
and vineyards were sown with land mines and withered during the 
conflict. In contrast, opium grows very well in barren and arid 
terrain.
    Opium brokers and traffickers provide a kind of highly 
organized agricultural extension service. Farmers are provided 
with seed, fertilizer, advance payments, technical training, 
and an assured market for their product. Opium is easy to 
package, store, and transport, and it does not spoil. Growing 
poppies enables farmers to earn 10 times the amount that they 
would earn from other crops, and opium production is 
particularly attractive to returning refugees who find ready 
work and good pay helping farmers grow poppies.
    With the assistance of the UN and Britain, the Afghan 
government has put in place the institutional framework to 
begin a counter-narcotics program. Afghanistan now has a 
Counter-Narcotics Directorate, a national drug control 
strategy, and a modern narcotics control law. The Karzai 
government, however, is incapable of implementing its own 
counter-narcotics program. Afghanistan does not have a national 
police force. There are some 50,000 men in Afghanistan who work 
as police, but they are generally untrained, ill-equipped, 
poorly paid, if paid, and loyal to warlords or local 
commanders.
    International efforts to create a national police force, 
including the drug enforcement capacity, are just beginning. 
The U.S. is spending $110 million to provide training to 50,000 
currently serving police. This training is taking place in 
Kabul and at seven regional training centers co-located with 
provincial reconstruction teams. The initial training is 
focused on basic skills and election security, however. It will 
take time before a newly trained police force can be counted on 
for effective law enforcement.
    Germany, which is the lead donor nation for police 
training, has spent some $70 million on new equipment and 
rebuilt the police academy in Kabul. But under the German 
program, 1,500 new police officers and 1,000 non-commissioned 
officers are enrolled in a 5-year work/study program. The 
Germans are also working to create a 12,000-member border guard 
force. This effort is well intentioned, but the benefits are 
years in the future.
    The UK, which is the lead donor nation for counter-
narcotics programs, will spend $12 million over the next 3 
years to create an anti-narcotics task force to conduct 
eradication. The UK has also promoted crop substitution and 
alternative livelihood programs for Afghan farmers, but again, 
the benefits are not going to be felt for some time.
    Once trained, Afghan police will be ineffective, however, 
if there is no functioning criminal justice system to support 
them. Unfortunately, little has been done to aid courts and 
prisons. There is no master strategy or even consensus on 
priorities for judicial reform. Italy, the lead donor nation, 
has failed to promote cooperation among the relevant Afghan 
institutions. There is a critical shortage of trained 
personnel, buildings, equipment, and financial resources. 
International funding for judicial projects has been very 
limited.
    There is also an ongoing debate within the country about 
which law to enforce and about what the role of religion should 
be in the legal process. The new constitution concentrates the 
power to appoint judges in the hands of the Chief Justice of 
the Supreme Court, but the current Chief Justice, a 
conservative cleric, has packed the court system with mullahs 
with no legal education.
    In the critical area of corrections, jails and prisons, 
there has been almost no effort made. Prison conditions in 
Afghanistan are routinely described as inhumane, lacking 
adequate food, sanitation, trained personnel, and space. 
Outside of Kabul, warlords control detention facilities and 
conditions are even more deplorable.
    International assistance for corrections has been severely 
limited. Other than a few NGO projects, the UN is working alone 
on jail and prison improvement. Currently the UN is spending 
only $2 million over 2 years on very basic renovation of a 
detention center in Kabul and three cellblocks of the infamous 
Pul-e-Charki prison. The UN is also providing some limited 
training to administrative staff.
    The interrelated problems of terrorism, warlords, and 
narcotics are extremely serious, but many Afghans, particularly 
Afghans that we spoke with when we visited there, think the 
situation may still be reversible. Afghan farmers are reluctant 
to engage in illegal activities, especially those that are 
viewed as immoral by Islam. Any hopeful scenario, however, 
involves a race against time. The UN has warned that 
Afghanistan is in critical danger of becoming a narco-state and 
a haven for narco-terrorists.
    To prevent this from happening, the United States should 
make counter-narcotics its top priority. Curtailing the 
narcotics trade will deny terrorists and warlords the funds 
they use to recruit followers and conduct operations. The U.S. 
is currently training four teams of Afghan police in crop 
eradication, but this and other law enforcement programs must 
be coupled with effective projects for creating alternative 
livelihoods and imaginative programs for crop substitution. 
Thanks to your leadership, Mr. Chairman, the United States now 
has the financial resources it needs. The emphasis must now be 
placed on vigorous implementation.
    The U.S.-led coalition and the International Security 
Assistance Force (ISAF) must now join in the fight against 
narcotics. Military forces must begin to proactively perform at 
least a limited number of counter-narcotics mission. These 
would include intelligence sharing, destruction of drug 
warehouses and heroin laboratories, and drug seizures. At 
present U.S. military forces only seize drugs if they encounter 
them in the course of their routine operations.
    The U.S. must make good on Secretary Powell's recent 
statement that warlords have no place in Afghanistan and 
private armies must be disbanded. Warlords and militia 
commanders are a source of insecurity and a threat to the 
central government. U.S. military payments to what are called 
regional influentials conflict with our overall policy of 
promoting national unity. Stopping payments would correct the 
impression that many Afghans have, that the U.S. military 
condones the warlords' participation in the drug trade.
    There must also be a vigorous effort to curtail corruption. 
We should assist the Afghan government to pay adequate salaries 
to police, judges, and prison personnel. It is impossible to 
have judicial reform when judges earn only $36 a month and 
policemen earn only $15 a month and then are not paid.
    The U.S. should ensure that equal attention and resources 
are paid to police, the judicial system, and prisons. Emphasis 
on police training at the expense of the other parts of the 
justice triad will produce the kind of results that we saw in 
Haiti and in Iraq. Without effective courts and humane prisons, 
there can be no rule of law. As events in Iraq demonstrate, we 
cannot allow ourselves to ignore conditions and practices in 
Afghan detention facilities.
    At this point, the U.S. should not be constrained by the 
lead donor nation approach and should do what is needed to 
provide training and technical assistance. The effort to 
promote burden sharing has not worked well and the U.S. can no 
longer wait for other donors to take effective action. The 
United States has both the most experience and the most at 
stake.
    The missing ingredient in international assistance to 
Afghanistan has been leadership. The so-called ``light 
footprint'' approach has left the Afghans adrift. Afghans 
realize they need help. Afghans look to Americans for guidance. 
We need to move quickly, however, Mr. Chairman, before it is 
too late.
    Thank you.

    [The report to which Mr. Perito referred, ``Establishing 
the Rule of Law in Afghanistan,'' appears in the appendix to 
this hearing.]

    The Chairman. Thank you very much, Mr. Perito.
    Mr. Isby.

          STATEMENT OF DAVID ISBY, FOREIGN AND DEFENSE
                POLICY ANALYST, WASHINGTON, D.C.

    Mr. Isby.  I would like to thank the chair and the 
distinguished members of this panel for the opportunity to talk 
here about Afghanistan.
    There have been a number of successes affecting Afghanistan 
in recent months, including the donor conference in Berlin. But 
new challenges to Afghanistan's security are emerging. These 
include the effects of the elections called for under the new 
constitution. The revival of often divisive politics inside 
Afghanistan has led to largely cross-border violence aimed at 
preventing electoral participation. Reconstruction has been 
limited in the south and east by the same violence. Narcotics 
cultivation and trafficking have been revived. Disarmament has 
stalled. The Afghan security situation is more difficult and 
complex than it was a few months ago.
    To prevent a challenging situation becoming a deteriorating 
one, the United States and its international partners must 
shift their Afghanistan priorities. Long-term security 
commitments should match the aid commitments made at Berlin. 
These should include a sustained, enhanced U.S. presence, 
ideally matching ISAF expansion. But regardless of NATO 
actions, there is no substitute for the perceptions of 
commitment to both security and reconstruction created by 
deployed U.S. forces, especially in areas where the UN and NGOs 
have been deterred from operating.
    An enhanced U.S. security commitment to south and east 
Afghanistan could take the form of a near-term surge deployment 
to secure the elections, attack Taliban and Al Qaeda remnants, 
build intelligence networks, and revive reconstruction. 
Military units committed to reconstruction can provide their 
own security while training Afghans to take over their tasks. A 
longer-term U.S. security commitment can take the form of 
expanding the successful provincial reconstruction teams.
    Such an enhanced commitment needs to be reconciled with 
admittedly over-stretched U.S. capabilities in force structure 
and integrated with those forces already operating in 
Afghanistan. The commitment needs to be implemented in a way 
that at the grassroots level will enhance security rather than 
focus Afghan resentment.
    The most important U.S. contribution to security in 
Afghanistan, however, is through engaging with regional 
countries. One of the functions of a long-term U.S. security 
commitment to Afghanistan is to show these countries that they 
are more likely to realize their own security goals by 
cooperating with the international community and Kabul. Since 
2001, Pakistan has cooperated in anti-Taliban activities and 
anti-terrorist activities. Yet, the Taliban culture that exists 
in Pakistan provides support for terror and violence inside 
Afghanistan. U.S. engagement with Pakistan needs to encourage 
them both to crack down on the roots of violence in the Taliban 
culture and to improve their cooperation with Kabul.
    Outside funding and support coming into Afghanistan, often 
through religious channels, is another security challenge. This 
can affect the upcoming elections, especially those for 
parliament. However, effective reconstruction must include an 
Islamic dimension amongst its objectives.
    Assessing U.S. policy success in Afghanistan is more 
complex than simply counting troops deployed or dollars spent. 
We need to avoid the entanglement of Afghan politics. We must 
not treat the Afghan government as just another faction, but we 
must also avoid an embrace of them that will make them appear 
as a United States creation. We must not act as Kabul's 
enforcer, carrying out politically costly tasks.
    Today our most important security contribution to 
Afghanistan is to prevent outside spoilers. We need more U.S. 
boots on the ground in the near term because of the election. 
We need to jump start reconstruction in the south and east and 
we need to address disarmament and narcotics issues. Together, 
these actions will demonstrate U.S. commitment to Afghans and 
regional countries alike.
    The best hope for Afghanistan is the Afghans. If the United 
States and the international community can enable them to 
decide their own future and prevent outside spoilers, there is 
cause for guarded optimism about the future of Afghanistan.
    Thank you.

    [The prepared statement of Mr. Isby follows:]

                  Prepared Statement of David C. Isby

    I would like to thank the Chair and the distinguished members of 
this panel for the opportunity to talk here about Afghanistan.
    There have been a number of successes in Afghanistan recent months. 
The new constitution has been generally accepted. Increased United 
States government efforts have resulted in $1.2 million Emergency 
Supplemental assistance programs under the ``Accelerating Success in 
Afghanistan'' strategy. The initial stages of the Kabul-Kandahar 
highway reconstruction have been completed. A new ``South and Southeast 
Strategy'' has provided resources to combat hostile activities and 
enhance lagging reconstruction. At the recent donor's conference in 
Berlin, the Afghan government presented a request for aid commitments 
based on what it had determined would be required to re-create a 
functioning national economy and saw those commitments, reflecting the 
priorities of Kabul rather than the donors, largely met.
    The war against Taliban and Al Qaida needs to continue. The 
national security of the United States is served by defeating these 
forces in detail. Key leadership figures remain to be captured. While 
they present only a limited military challenge, their campaign of 
violence and terror is preventing reconstruction and political 
participation in areas in the south and east.
    The national security of the United States is also served by 
effectively implementing our commitment to assist in the international 
community's efforts to rebuild Afghanistan, to prevent it ever again 
being a base of terrorism and extremism that threatens other countries. 
Afghanistan still has a need for humanitarian assistance and, 
increasingly, reconstruction throughout all the country. Such 
activities also contribute to security. They demonstrate to the Afghan 
grass roots that their lives are being made better. Functioning 
government outside Kabul and a viable national economy are both 
evolving slowly despite many setbacks.
    Through its continuing commitment to Afghanistan, the United States 
can demonstrate that they can help a people that suffered from Taliban 
and Al Qaida oppression, terrorism, and warfare. In Afghanistan in 
2001, the U.S. demonstrated the power of even a relative small part of 
its armed forces in helping their Afghan allies militarily defeat the 
Taliban and Al Qaida on the battlefield. In 2001, the world saw the 
jubilation of Afghans as the Taliban and Al Qaida were driven from 
Kabul, including the joyful re-openings of the long-shuttered movie 
theaters. Now the U.S. is faced with the opportunity to help bring 
about a third success, making possible the rebuilding of Afghanistan. I 
believe that the United States needs to do more to meet emerging 
challenges to this last--and most critical--of our national security 
goals in Afghanistan.
    Conflict in Afghanistan tends to be about legitimacy. To win the 
current conflict, the government in Kabul needs to continue to increase 
its legitimacy, building on continued commitment to the Bonn process 
and the desire for peace of the vast majority of the Afghan people. I 
believe that the U.S. and the world community need to do more. Success 
in Afghanistan requires effective diplomatic activity to prevent 
outside forces from acting as spoilers, both a near-term surge and a 
long-term security commitment of troops on the ground, and more 
resources available for addressing emerging new challenges.
    The military elements of U.S. policy in Afghanistan since 2001 have 
been, in many ways, the most successful. Yet the U.S. must use military 
force with care, avoid the pitfalls of resurgent Afghan politics and 
avoid involvement in implementing policies of the Kabul government that 
would make it appear an outside creation. In some cases, international 
security cooperation cannot serve as a substitute for U.S. action. 
Perception of a long-term U.S. security commitment is crucial.
    Afghanistan's new challenges come from diverse sources. The 
requirement, under the new constitution, for presidential and 
parliamentary (both houses) elections has led to critical security 
concerns. It has presented a target for the forces that are using 
terror and violence against the Kabul government and its international 
supporters and so must be considered the most significant security 
threat in Afghanistan. The Taliban and Al Qaida are making a strong 
attempt to limit voter registration in a number of areas in the south 
and east of Afghanistan.
    The upcoming presidential election itself marks the formal return 
of Afghan politics. The wars of 1978-2001 polarized Afghans, not only 
along the ethno-linguistic divisions but also those of economic 
interest, religious practice and philosophy, class and locality, and 
other complex factors. Recently, these tensions have undercut ambitious 
internationally-supported programs aimed at disarmament. A revival in 
narcotics cultivation and traffic presents an international threat and 
provide a source of funding for those opposed to the Kabul government.
    With the benefit of hindsight, it is possible to identify many 
missed opportunities in Afghanistan since 2001. The prompt and skillful 
military action that enabled and empowered our Afghan allies to 
liberate their own country from the Taliban and Al Qaida was not 
matched by comparable decisive action, unity of command, and 
application of resources in other areas. Too often, opportunities to 
build on momentum were not taken. The U.S. now has enough experience 
and knowledge to learn from mistakes.
    Yet I believe the bottom line is guardedly optimistic. Afghanistan 
is neither the former Yugoslavia nor Iraq. The Afghan people, resilient 
though destitute and war-weary, have demonstrated they are willing and 
able to deal with the deep and fundamental issues that divide them. The 
U.S. needs to give them the tools to make this possible and help stop 
those that aim, for their own ends, to blight Afghan hopes.
What Should We Be Doing?
    The current U.S. commitment to security, reconstruction and 
developmental aid to Afghan government is vital. The Afghan government 
has had an increasing role in decisions to allocate this aid, 
demonstrating competence and legitimacy both internationally--as seen 
at the Berlin conference--and domestically, where it allows the 
government to find sources of revenue outside of aid, build patronage 
and demonstrate its relevance.
    The U.S. needs to support implementation in Afghanistan that will 
avoid what Ambassador Peter Thomsen has termed ``the briar patch of 
Afghan politics.'' The United States must not treat the Afghan 
government as just another faction. Yet it must also avoid too close an 
embrace that will make that government appear as a creation of the U.S. 
Nor must the U.S. act as the Afghan government's ``enforcer,'' 
implementing policies that Kabul lacks the political or military 
strength to carry out. The elections, the conflict with the Taliban and 
Al Qaida, disarmament, corruption, narcotics, human rights abuses, the 
lack of economic development and many other critical problems can block 
progress. These issues are now firmly enmeshed in Afghan politics. 
Afghans are increasingly accusing their political opponents of these 
(and other) problems and insisting that justice requires that foreign 
influence (or force) be used to put them (and their friends) into 
power.
    What the U.S. should aim for as a priority of a strengthened 
commitment to Afghanistan is not implementing specific solutions 
devised by the Kabul government of the U.N., but rather to continue to 
enable and empower Afghans to work together, to build confidence is 
each other, and to identify steps that will lead to an emergence of a 
more mature political culture in a society that has been mobilized by 
war throughout the 1978-2001 period by using every possible claim and 
rationale to get Afghans to fight others, usually other Afghans.
    It is vital that the U.S. not be seen as being politically 
manipulated in policy implementation in Afghanistan, especially with 
the elections likely to hold center stage for the immediate future. 
While the U.S. is rightly engaged primarily with the Kabul government, 
it also needs to engage with regional leaders (including some of those 
lumped together pejoratively as ``warlords'' by their political 
opponents) and, through mechanisms such as the PRTs and cooperation 
with NGOs, the grass roots.
    The Afghan government will have in effect, to repeat the state-
building process that took place in the generation before 1978 while 
avoiding the mistakes in that process that led directly to the tragic 
events that followed. It is a difficult task. There are many places in 
Afghanistan where nothing good came from Kabul in 1978-2001. Legitimacy 
and a presumption of competence and even-handedness must be rebuilt 
from less than zero in 2001.
    Indeed, there are still many Afghans--in and out of government and 
of many different political alignments--that, like the post-
revolutionary Bourbons, appear to have both learned nothing and 
forgotten nothing. Urban Kabulis with Pushtun roots want Dari-speaking 
rural Panjsheris disarmed and out of their city. Those that 
collaborated with the Soviets during the occupation or are returning 
from exile demand criminalization of the ``jihadis'' that fought the 
Soviet invaders and took part in the civil wars of 1992-2001; they, in 
turn, disparage the ``washers of dogs and cats'' returning from exile 
that, without their record of being able to get things done on the 
ground (made possible by their appropriation of income, patronage 
networks and their Kalashnikovs), have to rely on foreign support. All 
will try their best to secure U.S. support in the emerging world of 
Afghan politics.
Regional Security Issues
    The most important U.S. contribution to Afghanistan's security is 
through interaction with the regional actors. In 1992-2001, it was the 
willingness of those actors--especially but not exclusively neighbors--
to back opposing sides in Afghanistan's civil wars that kept the 
conflicts going.
    If the neighbors believe the U.S. security commitment to 
Afghanistan be a long-lasting one, they will be more likely to 
permanently turn away from their 1990s policies and seek to accommodate 
their security interests through cooperation with the internationally-
recognized government in Kabul and not by backing Afghan regional 
military commanders to oppose it. If the neighbors believe the U.S. 
presence and interest in Afghanistan are transitory and that the U.S. 
is, despite its rhetoric, looking for an exit strategy, then they will 
hedge their bets in their relations with Afghanistan. U.S. long-term 
security commitments are going to be stronger than any coming from 
elsewhere in the international community, including NATO.
    Effective U.S. interaction with Pakistan is most important thing we 
do for security in Afghanistan. Pakistan's involvement with Afghanistan 
has been, in recent decades, an order or magnitude greater than any 
other neighbor. The conflict currently going on in Afghanistan by 
Taliban and Al Qaida is a cross-border insurgency mounted from 
Pakistan. It is not a grass-roots insurgency by Afghans aggrieved at 
the slow rate of reconstruction or that members of other ethnic groups 
hold ministerial positions in Kabul. Even though the Taliban may have 
sympathy in some areas in Afghanistan on ethno-linguistic, local, or 
religious grounds, it they are no longer a viable political movement 
inside Afghanistan. However, in Pakistan, the ``Taliban culture'' 
remains, including a network of internationally linked fundamentalist 
groups, madrassas and Pakistani religious parties that support the 
conflict in Afghanistan.
    Challenging this culture is politically costly for any Pakistani 
government. In the longer term, however, it is likely to prove critical 
not only for Afghanistan but for the future nature of state and civil 
society in Pakistan. Yet as long as the Taliban culture remains strong 
across the Durand line, achieving peace in Afghanistan will be 
problematic, regardless of how many resources are committed by the 
international community, including the U.S., to Afghanistan.
    The current U.S. engagement has been met with increased Pakistani 
willingness to address the threat to achieving peace and security in 
Afghanistan that is coming from Pakistan. This was demonstrated in 
recent Pakistani military operations in South Waziristan. It has also 
been seen in President Musharref's address to parliament earlier this 
year and in a range of other actions dating back to his 14 January 2002 
speech and before. Pakistani cooperation in arresting foreign 
terrorists has included a number of significant successes. These 
actions have been recognized by the recent U.S. designation of Pakistan 
as a major non-NATO ally.
    Yet problems remain. Taliban leaders--not limited to 
``moderates''--live openly in Quetta. The Pakistani intelligence 
services and elements of the military have not turned away from the 
policies that brought Afghanistan to the disastrous situation of 2001. 
In recent weeks, statements of concern about Pakistani policies from 
U.S. Ambassador to Afghanistan, Dr. Zalmay Khalilzad and the commander 
of Combined Forces Command, U.S. Lieutenant General David Barno, have 
been matched by statements from the Afghan government.
    The upcoming Afghan election is vulnerable to a broad range of 
action by its opponents. While the Taliban and Al Qaida must be 
considered the most important threat, they are not the only one. 
Throughout Afghanistan, regional and local leaders--who tend to 
perceive no viable alternative to themselves--are likely to use all the 
power at their disposal, from the use of patronage to armed 
intimidation, to see that the elections do not overturn their power. 
However, in these cases, U.S. and international community interaction 
with these leaders are important to try and minimize their effect. The 
security situation is most important in those areas in the south and 
east where the threats to the election include terrorist violence. Nor 
is reducing participation to reduce legitimacy the only threat goal. 
Reports at the time of loya jirga delegate selection from the south 
have told of convoys of ``voters'' being trucked from Pakistan.
Regional Security is Linked to Reconstruction
    The importance of reconstruction aid is that it allows the U.S. to 
have an impact that will increase stability while not becoming hostage 
to Afghan politics. For example, gender issues are likely to remain 
politically polarizing for the immediate future. They may be used as a 
shorthand to rally opposition to the current government on a range of 
issues. Yet by backing programs that make Afghans lives better at the 
grass roots by rebuilding schools or microcredit schemes that put 
sewing machines in villages, the U.S. can hope to avoid its policies 
being perceived as contributing to the continued divisions and 
polarization that marks Afghan politics.
    No one is likely to be against schools and sewing machines. If the 
Taliban and Al Qaida come with guns to burn them, they need to be 
detected and defeated. If mullahs--supported with rupees from 
Pakistan's ``Taliban culture'' or from foreign radical Islam--preach 
against them and demand the schools and sewing machines be burned, then 
there needs to be a countervailing support for traditional Afghan 
Islam, which has long demonstrated that piety can lead to resistance to 
fundamentalism and oppression.
    It has been a long time since anyone has funded traditional Afghan 
religious practices and leaders, while those attacking them have 
enjoyed extensive foreign support. While this may be an uncomfortable 
issue for the U.S., it remains that a purely secular conception of 
reconstruction will be inadequate to deal with Afghanistan and the role 
of Islam in its politics and life. Reconstruction has to include not 
only government, infrastructure and economy, but Afghan Islam as well. 
If this is not an area where the U.S. is competent or comfortable in 
acting, then by all means let us engage with international partners to 
deal with this issue, as so long as they do not have their own agendas. 
If there is a vacuum in funding and support here, it will be filled by 
men from outside Afghanistan with evil ideas and suitcases full of 
dollars.
    This is a necessary part of security making possible 
reconstruction--blocking the outside spoilers. The religious element is 
more difficult than interacting with the regional players, for most of 
the action here involves sub-national actors and many of these have 
committed Afghan political allies. Addressing this problem in a way 
that will not be perceived as an attempt to criminalize opposition 
politics by the Kabul government is a challenge.
Security Forces in Afghanistan
    The national security interests of the United States in making 
Afghanistan secure are likely to mandate the presence of military 
forces there for at least the next five to ten years. Currently, there 
are three distinct foreign security forces in Afghanistan. In Kabul is 
the International Security Assistance Force (ISAF), currently under 
NATO. There are the coalition forces taking part in the war on terror, 
often with the support of aircraft and assets based outside 
Afghanistan. U.S. and coalition provincial reconstruction teams (PRTs) 
(plus an ISAF German effort in Konduz) carry out high-value relief 
programs while being able to provide for their own security. They bring 
an outside presence and token of commitment to grass-roots Afghanistan.
    ISAF expansion remains problematic despite the 2003 commitment to 
its expansion. While there are places in the north and west where such 
forces could be useful--Herat, Konduz, areas of tension in the 
northwest--they would best be employed in the south and east, to 
counter Taliban and Al Qaida terror and help make possible humanitarian 
aid and reconstruction. While NATO is making good current commitments 
and has offered to deploy an additional five PRTs in north Afghanistan 
(where there is largely not a security threat) lack of long-term 
security commitments to match the aid commitments made at Berlin 
earlier this year is disconcerting.
    In reality, it has been difficult to sustain the force at its 
current level. While expansion of ISAF would be a good thing, it is 
hard to see how it could be carried out on a sustainable basis. NATO 
countries are finding that the Afghanistan commitment stretches their 
forces and funding even at current levels. They have cut back force 
structures and have other commitments. While expanding ISAF may be 
possible, before implementing it is necessary to recall that poorly 
trained, ill-equipped or ineffective troops are worse than no troops. 
One must be hesitant about any expansion that would bring in untrained 
or inexperienced units--in terms of the current situation rather than 
conventional operations--into Afghanistan.
    Deployment of additional U.S. forces to southern and eastern 
Afghanistan could provide security, assist with reconstruction, and 
help the campaign against Taliban and Al Qaida. There is a need a 
short-term this-year surge deployment to deal with emerging problems 
such as making possible election security, the completion of high-value 
infrastructure reconstruction, narcotics eradication, and disarmament. 
Even if the troops do not carry out these missions themselves, their 
presence and military action against the threat will help make it 
possible for Afghans to carry out these actions.
    The current force structure and resources overstretch by the U.S. 
(and any participating NATO or coalition members) means that deployment 
of such forces needs to be targeted to help provide security especially 
in areas where reconstruction efforts by the UN and NGOs being deterred 
by terrorism or, as in case of UN with election registration, have 
turned the program over to Afghans. In these areas, the U.S. and 
coalition presence is currently limited to those forces waging military 
operations against the Al Qaida and Taliban remnants and the PRTs.
    While the PRTs have done good work (despite the hostility of some 
NGOs and skepticism of some of the local population), their actions 
have not been sufficient for average Afghans in this area to see how 
their life is better. The deployment of additional PRTs should be made 
alongside the surge deployment. The PRTs can remain as a part of a 
long-term commitment to Afghan security.
    While ISAF expansion into areas in the south and east would be a 
good and important advance, NATO troops are not a substitute for U.S. 
troops in those areas of Afghanistan. Only U.S. troops are the ``boots 
on the ground'' that indicate superpower commitment and an effective 
willingness to support Afghanistan and the Kabul government against 
both Taliban and Al Qaida and the policies of regional players.
    Deployments will also have to be done to skillfully minimize 
friction (and friendly fire incidents). More garrisons in the south and 
east--unless integrated into an effective operational concept--may only 
provide targets for Taliban and Al Qaida mortars and rockets. Many 
Afghans are anxious for an outside presence to assure security, but it 
needs to be implemented to avoid the streak of xenophobia that runs 
alongside the hospitality of Afghanistan.
    An expanded U.S. security commitment should not be judged by troop 
end-strength but rather by effectiveness. It should include increased 
intelligence assets and be able to work with both grass roots Afghans 
and Kabul government forces to develop intelligence. It could include 
expanded PRTs; or units such as engineer battalions that could both 
initiate reconstruction programs and train Afghans--ideally demobilized 
fighting men paid by aid money--to take over their jobs.
    While the U.S. military should look to make clear its security 
commitment to Afghanistan is a long-term one, in carrying out 
reconstruction tasks the goal should be to train and turn over the 
tasks to Afghans as soon as possible. Infrastructure building and 
provision of security are two exceptions but those digging wells and 
carrying out other needed tasks should be Afghans.
    To meet regional goals and make Afghanistan a place that will not 
be a haven for terrorism and extremism, I believe that U.S. forces, 
concentrating on security, will need to remain in place for foreseeable 
future, five to ten years. I believe that a similar commitment of ISAF 
forces will be required if it is to remain viable. I believe that a 
near-term surge commitment of U.S. and ISAF forces to the south and 
east is required to help provide security, defeat terrorist forces, and 
help jump-start reconstruction.
DDR--Example of an Emerging Challenge
    There is no disagreement that the DDR (Disarmament, Demobilization 
and Reintegration) process is vital to the future of Afghanistan. and 
that, at some point in the future, there will be a single national army 
and police force in Afghanistan. It has also been determined by the 
Bonn process and the Afghan constitution that the armed forces that 
liberated Afghanistan in 2001 are not to enjoy the central place in 
national life that has been the case in many developing countries, most 
notably that of Pakistan. It has also been determined that the emerging 
national army and police forces are to reflect the entire country's 
ethno-linguistic makeup (especially in their commanders), which is 
frequently not the case in many developing countries, most notably 
region that of Pakistan.
    Demobilization of fighting men outside the Kabul government's army 
and police forces without jobs creates only bandits and narcotics 
cultivators. Demobilization has to be a primary aim of reconstruction 
aid. In long term, rebirth of a national economy is the only answer. 
But in the short term, the U.S. may have to look to these forces to 
assist with security.
    However, in the short term, the DDR process has led to a stand-off 
between U.N. authorities trying to implement it and defense minister 
Marshal Fahim. In the longer term, effective DDR is going to be the 
consequence of the successful assumption of legitimate and competent 
national power by the government in Kabul rather than the cause.
    Since 1978, armed power wielded by Kabul has been discredited, and 
it will require years of increasing legitimacy and competency to 
restore it. The Hazaras and the Bamiyan shura are going to have a 
different view of the DDR process than that held in Kabul by our 
friends in the government. They are going to want re-assurance that the 
emerging national army and police force and not going to be used as the 
``big stick'' of a repressive center-periphery relationship. The same 
considerations also apply to other armed forces in Afghanistan, which 
need to have their security situation considered on a case-by-case 
basis.
    The U.S. can contribute to an effective DDR process. The most 
important elements are already being carried out--the creation of a 
national army and reconstruction that can both employ and train former 
fighting men. An important challenge will be to extend the benefits of 
DDR not only to the regional commanders--they already have jobs with 
the government--but to their senior and mid-level commanders. If they 
end up as bandit chiefs or narcotics growers, then the effectiveness of 
the entire process will be undercut.
    Hindering the implementation of DDR is a widespread belief by the 
Afghans affected by it in political bias by both UN and the Kabul 
government. If the U.S. retains the confidence of the regional 
commanders, it can act as a trusted interlocutor, looking for ways to 
implement DDR. This is likely to be more effective than having U.S. 
combat units physically disarming Afghans. Effective actions in support 
of DDR can include the continued provision of U.S. Special Forces teams 
with Afghan forces. On multiple occasions, these have ``deconflicted'' 
potential problems and demonstrated earnest that the regional 
commanders should continue to support Kabul, the constitution, and the 
Bonn process rather than call up their foreign supporters and look for 
funding to start implementing their own agenda.
    The U.S. needs to work with these commanders and forces where 
appropriate. While they are ``yesterday's men'' and they know it, their 
residual power--in the terms of patronage networks and armed men--is 
significant. Demanding that they be swept away as an a priori condition 
for the elections while the central government's institutions that 
would replace them--and the legitimacy for their non-repressive use--
are both still weak is unachievable and will undercut the potential for 
limited--but still real--gains.
Conclusion
    These are just a few elements of a vast interconnected problem. 
While judging the U.S. effort by money spent or number of troops in-
country rather than their effect is dangerous, more U.S. resources 
would be good. There is a continued need for reconstruction funds. 
Money can smooth over many of the center-periphery political problems. 
There would be many fewer Afghans carrying Kalashnikovs for regional 
commanders or maintaining poppy fields if there were programs where, 
funded by aid money, they could work on rebuilding in the morning and 
be taught to read in the afternoons. When such programs have been 
offered, there have been literally hundreds of applicants for each 
place.
    But until that time, even with more U.S. troops on the ground and 
more U.S. aid over what is currently available, we will have to 
prioritize. I believe that the elections make regional security the 
highest priority. But additional resources would make it possible for 
the U.S. to have more policy options in dealing with worsening problems 
such as disarmament and narcotics. Dealing with both while avoiding 
becoming a participant in Afghan politics or making the Afghan 
government appear to be a U.S. creation will be difficult, but this 
cannot be an excuse for inaction.
    A goal of all U.S. and international action--diplomatic, security, 
reconstruction--is to ensure an Afghan government is able to make 
meeting the needs of its citizens a priority. This was not a priority 
in 1978-2001. The government needs, within the context of the 
constitution and the Bonn process, to grow revenues and patronage 
networks that can help stabilize Afghanistan. But do not expect--or try 
and fund--short-term success. While supporting the government in Kabul, 
we must help ensure tomorrow's Afghans do right what the former King 
and his governments--flush with superpower aid at the height of the 
Cold War--did terribly wrong in the decades before 1978.
    There is a desperate need for training Afghans in many fields, 
especially civil administration. The concept of effective, accountable, 
impartial administration was put aside in 1978-2001 when power and its 
possession were often the sole concerns. Between the pre-1978 heritage 
and the skills of individual Afghans, there is hope for improvement, 
but this is an area where the aid is needed.
    U.S./NATO troops are needed to make reconstruction possible in the 
south and east. But keep in mind that goal should be the minimal level 
of troop commitment consistent with effectiveness. While U.S. troops 
are a unique and important symbol of commitment, good foreign troops 
are needed to share the burden and demonstrate international security 
commitments. The wrong foreign troops need to stay home.
    The most important reconstruction aid--that only the U.S. can 
provide --is preventing regional players acting as spoilers in 
Afghanistan. This means, in the near term, undercutting support for the 
cross-border actions by the Taliban and Al Qaida. In the longer term, 
it means support for efforts that will undercut the ``Taliban culture'' 
on Pakistan's side of the Durand Line and encourage the growth of civil 
society and effective governance. Religious funding originating in the 
Kingdom of Saudi Arabia and the Gulf region will be critical if it is 
used in the election process.
    In the final analysis, Afghans are likely to work things better out 
themselves. We need to build back their infrastructure, act as 
interlocutors and mediators, prevent outsiders from acting as spoilers, 
and be guided by a goal of not doing for the Afghans what they can do 
for themselves. The U.S. and the international community--by making 
long term security commitments to match the aid commitments given 
recently at Berlin--can help the Afghans work things out themselves. If 
the U.S. and the international community can enable and empower them to 
decide their own future and can prevent outside spoilers from doing 
damage, then there is cause for guarded optimism about the future of 
Afghanistan. But as new challenges have emerged in Afghanistan--the 
need to conduct elections, the need for disarmament and narcotics 
eradication, the creation of a national economy--they require new 
responses and commitment of resources from the United States.

    The Chairman. Thank you very much, Mr. Isby.
    Let me say that we will try to have 10 minutes of 
questioning by each Senator and then maybe another round. Let 
me recognize for a moment Senator Biden. You have to leave.
    Senator Biden.  Yes. I am supposed to address a national 
police organization, but this is, quite frankly, much more 
important. I wonder if you would indulge me to ask one 
question.
    The Chairman. Please.
    Senator Biden.  I know it is not appropriate. The Chairman 
speaks first.
    Gentlemen, some of us on this committee have had a running 
and legitimate debate with people inside and outside the 
administration, from the moment the Taliban collapsed, as to 
how we should proceed. I want to make it clear that I think 
when we are talking about Afghanistan or Iraq and how we should 
have proceeded, a strong dose of humility is in order for 
anyone who has a recommendation, particularly speaking for 
myself. I am not suggesting by the question I am about to ask 
that had the prescriptions offered by the majority of this 
committee been followed, that things would be materially 
different. I think they would, but I do not know. This is not 
one of these ``we told them so and here we are and what do we 
do.''
    I want to get to the heart of what I see as a difference in 
policy prescriptions here without speaking about the details, 
the tactics, whether we are speaking about education and 
whether or not--when I was in Afghanistan, meeting with a man 
who had been in Italy for the last 24 years and came back to 
become the head of the Department of Education, in effect, he 
talked about opening up the university. I went in to see him 
and I said, basically what do you need? I thought he was going 
to tell me he needed supplies, laboratories, books, et cetera. 
He said, I need one thing. I need security on the roads. No 
student is going to show up without security on the roads. I 
said, what do you mean? He said, literally on the roads. I have 
got to be able to have a student who lives in Kandahar or lives 
in Herat or lives in Bagram to be able to think they can travel 
the road to get to the university.
    When I visited the first schools that were open, the grade 
schools, it was impressive the determination of the young girls 
in particular who had been out of school for 5 years, some of 
them 14, 15 years old going back to primary school and their 
determination to learn to read. One young woman, as I said I 
was leaving, stood up with those magnificent hazel eyes so many 
of them have and with fire in them, looked at me and said, 
``You cannot go.'' I thought she meant I could not leave the 
classroom. She said, ``America cannot go. I will never learn to 
read. I want to be a doctor like my mother.'' This was through 
a translator. Her determination was incredible.
    But again, security. Even immediately after the Taliban was 
on the run, I met with two women ministers and sublevel women 
in the government who told me that, as they took the bus to 
work, they wore their burka. They told me of examples where 
cars would drive up with four men and the men would jump out, 
throw the women against the wall, threaten them, tell them if 
they are not covered next time, they will be punished.
    So, when we tried to expand the security force--and 
Secretary Powell weighed in on this force as well--there was a 
reluctance, a judgment made at the highest levels in our 
government that that was not the way to go.
    Then in what were at the time weekly meetings with Dr. 
Rice--and I think she expresses a legitimate view, but a 
different view--I remember one day saying to her, Condy, the 
warlords are gaining power not reducing power. For a brief, 
shining moment there, they were all sort of cowed and they all 
were worried about whether benefactors would continue to 
support them, whether it be any one of the five surrounding 
countries. There was a moment there where they were ready to 
let international security forces in sort of as apartheid cops. 
They kind of viewed it as if the international security force 
was there, at least their territory would not be encroached 
upon by a competing faction.
    And Dr. Rice looked at me and she said this--I am not 
telling tales out of school--she said, ``What do you mean? What 
is the problem?'' I said well, Ismail Khan in Iraq. She said, 
``What is the problem? The Taliban is not there. Al Qaeda is 
not there. It has always been this way.''
    So I think we should level with one another here about what 
is the base, fundamental difference in approach and what we 
have to deal with here. There has been a judgment made, if not 
by direction, by indirection in a sense, that the way to 
maintain stability in Afghanistan was to try to do whatever is 
necessary within our power and divert our attention to deal 
with Al Qaeda and deal with the Taliban. Part of that seems to 
have been that the warlords are an element in that. If you have 
Khan in charge, you do not have the Taliban in charge.
    And also, this debate, Mark, about the British view and the 
American view on dealing with poppy. We met with some high 
ranking German officials who said this is not the time to crack 
down on the poppy trade because you will just cause more 
unemployment and you will have another problem. Now, maybe I 
have spent too much of my life, 23 years of the 32 I have been 
here, being chairman or ranking member of the subcommittee on 
drugs of the Judiciary Committee. This seems to me a 
prescription for disaster.
    It is a long prelude to a short question. I am not looking 
for what you think should be our policy. I want you to respond 
to what you think our policy is. Does the support or the 
failure to attempt to crack down--and we have limited capacity 
right now--on warlords have, for all the bad aspects of it, the 
positive impact at least of, other than in the south, 
curtailing the activity, growth, and influence of the Taliban 
and Al Qaeda? That is my first question. Can you just give me a 
yes or no, since we only have 10 minutes here? Does it have 
that effect? Not all the bad effects that flow from it. Does it 
have that effect of dampening the influence of the Taliban and 
Al Qaeda to the degree to which the warlords have increased 
power and do not answer to Kabul?
    Dr. Gouttierre.  Initially right after the 9/11 events, and 
as we went into Afghanistan with our own forces, I think that 
it did. I think it no longer does. I think now it has a 
negative impact on the long-term objectives that we and the 
Afghans have, and it only in a sense sustains the instability 
that permits the conditions that encourage the resuscitation of 
the Taliban and Al Qaeda and the border areas.
    Senator Biden.  Because part of what I think some view--and 
these are serious people. They suggest that our ability to 
actually devote the resources, in light of our circumstances in 
Iraq and the unwillingness of the Europeans to do even more in 
Afghanistan is that we are given one of two options. We either 
put in significantly more resources, that is, more troops, more 
money, not just ours, but the international community, and more 
direct effort to bolster Kabul.
    For example, one of the things we argued about was whether 
every single project should go through Karzai. What value is 
there if you give your money directly to Ismail Khan to build a 
road or a school? He is the one delivering it. Why call Karzai? 
Why call Kabul? If you don't have any military control over 
that part of the region because of the warlords' capacity, at 
least there has to be some reason why anyone in the provinces 
would want to deal with Kabul, and if the money is not 
controlled and the projects are not controlled from there, then 
who needs it? You become the Mayor of Kabul.
    But it seems the realists on the left and the right in our 
political spectrum are coming up with what I think will be a 
compelling argument to some, not one I agree with, which is, 
look, the resources required are significantly larger than are 
now committed. That is not going to happen. So we should at 
least decide to limit the damage and reduce the objective, the 
objective being keep the Taliban from resurging, keep Al Qaeda 
out. The only way to do that is invest, in effect, indirectly 
in the warlords.
    Mr. Schneider.  I do not think that is going to get you 
where you want to be, Senator. In fact, I think that one of the 
conclusions of the United Nations and of others is that if that 
position holds and there is a continued support for or at least 
acceptance of the warlords maintaining their power base, what 
that does in the Pashtun area is essentially allow them to 
argue that they need, in a sense, their own warlords. If this 
is the way it is going to be, then they say we have got lots of 
linkages back with the Taliban. And so you are going to see a 
greater degree of political insertion of roots in that area by 
the Taliban. What the warlords bring is essentially illegal 
activity being accepted as legitimate, and this is not going to 
be the basis for building any institutions for the future.
    But you are right. There is going to be a need for greater 
resources, both military and economic, to be devoted. I do 
think, though, that there is an opportunity to get more 
European contributions from the Spanish, from Turkey, 
particularly in terms of meeting what is now set out by NATO as 
their requirements.
    Senator Biden.  I happen to agree with you. I totally 
disagree with what I have just put forward, but I think we 
should be realistic and understand where we are.
    Mr. Schneider.  Understood. That is not acceptable any 
longer inside Afghanistan I do not think.
    Mr. Perito.  No. Senator, the realists among the Afghans 
that we talked to pointed out that the U.S. military continuing 
to provide financial resources to the warlords creates a 
duplicity in our position. It makes it look as if we are on all 
sides of the issue.
    Mr. Isby.  Can I say a good word for duplicity, sir?
    Mr. Perito.  Are you in charge of duplicity?
    Mr. Isby.  I will stand up for duplicity, sir. I think we 
need to support the people that you call warlords. I do not 
call them that. It is a pejorative term. Judge them 
individually. They are not our enemies. They are yesterday's 
men, but it is going to take many years to phase them out and 
their armies. We cannot become an arm of Kabuli power, Kabul 
has to rebuild its legitimacy and competence which was reduced 
to less than zero in 1978-2001. Marshal Fahim is not our enemy. 
The other people that are called warlords are not our enemies. 
We do need to engage them to show if you join in with this 
process, even though at the end of it, there is only an 
honorable retirement for you, it is better than getting out 
your Rolodex and calling your foreign supporters for more free 
Kalashnikovs.
    Senator Biden.  Well, let me just conclude by saying that 
as I said to you, I think this different school of thought is a 
totally legitimate argument. I am not making a moral judgment 
about it. As I said at the outset, I think I am right, but I 
acknowledge that there is another position.
    What you have said is different than what is happening, I 
think. What you said is you want to, in fact, treat them as 
friends, do it over a process, incorporate them into the 
process, and in fact, over time as Kabul grows in strength and 
they become more integrated, and end up with, down the road, a 
more coherent state.
    Mr. Isby.  That is the Bonn solution, the process 
envisioned at that conference.
    Senator Biden.  Right. No, I understand that. All I am 
suggesting to you is I am not sure that is the alternative that 
is being pursued now. It seems to me the alternative being 
pursued now is there is not much we can do about this. Period. 
And we ought to just focus on a more narrow objective.
    But again, this is a legitimate area of debate. I just 
think sometimes in this area we do not meet head on what the 
significant differences are in terms of policy proscriptions, 
and they lead to other decisions along the road.
    But I truly appreciate you all being here. I am anxious to 
follow up with you, and I really appreciate the courtesy, Mr. 
Chairman, of you allowing me to go first and apologize. It is a 
longstanding commitment I made to the International Police 
Organization to speak, and I am required to do that. So I am 
sorry.
    The Chairman. Well, thank you very much, Senator Biden.
    While you are here, I wanted to recognize the fact that 
there are nine journalists from Afghanistan in our hearing 
today. Would you please stand wherever you are?
    Senator Biden.  Welcome, gentlemen, ladies.
    The Chairman. We are delighted that you are here, and there 
are three ladies in the back. All right. There they are. Very 
good.
    I just simply wanted to mention that the program that 
sponsors you, Radio Free Europe and Radio Liberty, is one that 
we have strongly supported. Senator Biden has been a champion 
specifically of the program that has brought us all together 
today. So before you left, I wanted to recognize that.
    Senator Biden.  You were kind to mention that. Welcome to 
all of you.
    The Chairman. Let me continue the questioning by indicating 
that I was pleased with your evaluation, Dr. Gouttierre, and 
your conclusion that Afghans are very clear about the way they 
feel about Americans. They want them in Afghanistan. They want 
American leadership and assistance in the reconstruction 
process.
    Now, what is the basis for that evaluation? In other words, 
how do you know that there is that regard for the United 
States? I ask this, because very clearly the polling in Iraq is 
very different. Iraqis do not like us. We think they should. 
They have been liberated and what have you, but they do not 
like us at all. As a matter of fact, in a good number of 
countries in the area, as the Pew Foundation or others have 
gone about asking about popular opinion, we are not doing so 
well. Is this different in Afghanistan and if so, why?
    Dr. Gouttierre.  You really should not give me such an 
entree because the opportunity to take a look at this requires 
a history lesson in many ways, but I am pleased that you asked 
that question because I think it is, in many ways, the key to 
our ability to have success in Afghanistan.
    I have been involved with Afghanistan--I hate to admit it--
40 years. I hate to admit it because it confesses my age. But I 
am pleased to admit it because it has been a very pleasing 
experience in terms of dealing with the people.
    Right from the very beginning, when I went as a Peace Corps 
volunteer, 40 years ago this year, to Afghanistan, the thing 
that was very evident was that Afghans really enjoyed playing 
hosts to people from other countries if they had well-
intentioned reasons for being there.
    We have had a long and wonderful history in Afghanistan, as 
I suggested. We have been very much involved with the Afghans 
in development projects through the 1950s and 1960s and 1970s. 
Afghans remember us as helping them against the Soviets. I 
think their biggest disappointment with us was when in the 
1990s we were not there during the time when the terrorists 
hijacked the country.
    We helped to create Kabul University. We helped to build 
the Ministry of Education and set up the whole education 
process with Afghans, of course. We brought many Afghans to the 
United States.
    They have never been obsessed with this issue that the 
United States has been waging a crusade against Islam. They 
have never been focused on this particular issue that the 
United States has malevolent intentions in the Middle East. 
Probably almost every Afghan would feel that we tilt unfairly 
to Israel in the Israeli-Palestinian issue, but that has not 
overwhelmed them in their evaluation of the United States.
    I think Afghans have always felt positively about us. They 
have never been among those included in the question, ``Why do 
they hate us?'' Never. And I think our history with them has 
helped them to retain that. It has been a positive history, and 
we should be proud of that, and we should build upon it.
    I am sure each of these journalists here would agree. I did 
not read that poem in Persian because I did not think I had the 
time, but I would love to do that for them afterwards because 
this poem is very indicative of the way Afghans feel. They 
believe that they gain from the relationship. They are always a 
little apprehensive; like Senator Biden suggested, the young 
school girl was saying, do not leave or I will not get the 
future I dream of.
    I say that often the U.S. is solicitous. There has been a 
statement here that the donor process thing in Berlin was a 
success. Only if we take the right leadership, because it is 
the U.S. leadership that the Afghans are counting on, not just 
our money. They identify success that they see in Afghanistan 
with the United States. They are also going to identify 
failures with the United States.
    We are not going to have another country in any part of 
that region. Pakistanis do not feel the same way as Afghans do. 
Maybe some in Central Asia could feel that way. We know how 
Iranians and Iraqis feel, but Afghans are our best possible 
allies to do something correct in that region.
    I go to bed at night having trouble sleeping, not just 
because I am concerned about Afghans, but primarily because I 
do not want to see us blow this opportunity to deal with people 
who really do want us there, who have given every indication 
throughout a long time.
    So I said you should not have given me that entree. You are 
lucky I have not gone on and on and on with all of the history, 
which I could. I am certain others here on the panel could as 
well. But it is from 40 years of experience, and they have 
always been positive experiences in dealing personally with 
Afghans. Even with some of those who are of a questionable, 
they always were exceedingly hospitable and always solicitous 
of our interests.
    The Chairman. Well, I appreciate that testimony because 
obviously this is why we are having another hearing on 
Afghanistan, and we continually are having hearings----
    Dr. Gouttierre.  A quick interjection, Senator. Senator 
Biden said, well, you know, it has always been this way amongst 
Afghans. I just get so angry when I hear that because it has 
not always been that way. Afghans have not always been fighting 
each other, and there is this misconception because the West 
has become focused on Afghanistan only with crises and those 
crises were the Soviet invasion and this current set of 
circumstances.
    When I lived in Afghanistan, it was not a perfect place. It 
sounds like I am describing Valhalla perhaps. It was not. But 
it was a place where I did not worry about my car being 
attacked. I could go individually into the depths of the 
bazaars in any town without any concern, and Afghans were not 
killing each other. There was a reliance on a central 
government. It was growing. It was not perfect, but it was 
growing. If you took a look at Afghanistan in 1970, let us say, 
and you take a look at any other country around that part of 
the world today, Afghanistan then was light years ahead of not 
only itself but of most of the other countries surrounding it 
today. It took a very methodical, sometimes too deliberate, but 
methodical and deliberate approach to trying to bring in a 
national sensitivity, and it was working, though it was not 
perfect. But there is never a perfect democracy and they were 
trying through this democratic experiment. It was something 
anybody living there would have been tremendously pleased to be 
a part of.
    The Chairman. Let me follow on from this as the basis for 
this question. We established that Afghans like us, and we have 
some possibilities here. Now then, the question is, will they 
still like us if we do all the things that we are discussing 
today, or even some of them? How many of them should we try to 
do to at least establish a basis on which Afghans will solve 
the problem?
    For example, Senator Biden quoted the young lady who was 
very worried about her education in the event that we leave, 
probably with good reason. But this gets to the heart of a 
great cultural change. We have discussed the warlords already 
in various ways. As we Americans, along with our NATO allies, 
endeavor to establish a system of education that clearly is 
open to women--and there is no dispute about that element--and 
we somehow dispense with the warlords--some would think that is 
important, to enable the central government to work.
    Furthermore, should we do something about the poppies--
either we interdict them, start chopping them down or what have 
you--in each of these three areas. I sense that there will be 
some in Afghanistan who would say that we are overreaching. On 
the other hand, some would say perhaps that these are things 
that we can do as Afghans if you give us time and money and 
some structure and you keep the outsiders from intruding and so 
forth.
    What I want to hear from the panel is, what are the 
appropriate areas in our idealism as to what the best outcome 
for Afghans would be, if we devote the time and money? The 
committee starts with the prejudice that we ought to do more, 
and we have been on the side of always amending relevant 
pending bills to do more. You might testify that it is going to 
have to be a lot more if we really are serious about 
Afghanistan. You are also saying that we should be serious 
about Afghanistan. It would be tragic if we were not.
    Let us say that we get much more serious. We beef up the 
resources, even personnel, tough as that may be given our 
commitments elsewhere. We exhort our NATO allies successfully. 
Given the good will that we now have, what are the things that 
are reasonable to suspect that we will be able to do, or that 
we should be advocating? How can we set the stage for Afghans 
to implement reforms, which perhaps they must do if they are to 
have a cohesive, ongoing democracy?
    Mr. Schneider.  Mr. Chairman, I would begin by saying that 
the fundamental issue is our long-term engagement, that there 
has to be an awareness that whatever we do we have to be 
engaged with Afghanistan, not for the next 2 years or the next 
4 years but for the long term. That kind of engagement and that 
kind of commitment is why I suggested an authorization that 
would match the 7-year period that the Afghan government itself 
has set forth as its next planning phase. That was the basis 
for the Berlin conference and the donor discussion. It seems to 
me that that answers part of your question because the 
proposals and goals in education help reconstruction. All of 
those in a sense begin with an Afghan input, and while there 
has been support from lots of people, that does depict to some 
degree Afghan ownership.
    Whether we stay with them throughout that process is going 
to be the question, and that will determine whether or not 
there is a maintenance of the kind of sympathy for the United 
States that was described. If we pull out or if we begin to 
ramp down our involvement during this period, I suspect that it 
is going to go the other way.
    The key issue is, are we going to stay with them and create 
the kind of security environment that permits these other 
things to take place. I spoke with an aid worker, and I asked 
her about going out to some of the rural programs that the U.S. 
is funding. I said, ``How do you drive there? I drove to 
Gardez.'' She said, ``We do not go really by road. It would 
take a car full of shooters in front and a car full of shooters 
behind as an escort.''
    When you think about that kind of security obstacle to 
reconstruction, you know that the situation remains extremely 
hard, and it requires continued military engagement and, as you 
say, an expanded involvement.
    I would also note with respect to legitimacy of the 
government, the most important thing we can do, it seems to me, 
is to help ensure that parliamentary elections take place and 
represent all parts of the country in the context of security 
where there is a belief that they can be credible and they can 
be fair because they really are going to set the stage for the 
next period of development of Afghan institutions. And if they 
are not fair, we also will be blamed for it.
    The Chairman. Let me interrupt at this point because I 
wanted to recognize Senator Feingold. I will ask other members 
of the panel who might have responses to my questions to 
withhold for the moment, and we will get back to that in 
another round.
    I just wanted to comment, Mr. Schneider, as I listened to 
you, perhaps what we need--and this is never exactly the right 
metaphor, but something like the 10 Plus 10 Over 10 program 
that we have with Russian nuclear disarmament, for example. In 
other words, with the Nunn-Lugar program, we say we are going 
to go for 10 years, and therefore you in the G-8, the other 
seven, can count on that. The Russians can count on that. That 
is 10 years and $20 billion. Maybe it is that kind of 
commitment in which in fact no government, including our own, 
can appropriate in this place for years down the trail, and yet 
there is at least sufficient bipartisan support that that is in 
our national interest. It occurs to me maybe as a picture of 
what people in Afghanistan and our NATO allies need to see, 
maybe not the G-8, but in this case, whoever sort of adds in at 
least. There are additions to this program given that kind of 
context.
    Mr. Schneider.  I would agree absolutely.
    The Chairman. Senator Feingold.
    Senator Feingold.  Thank you, Mr. Chairman. I also want to 
thank Senator Biden for calling this important hearing, and I 
want to thank all the witnesses for being here.
    The last time the Senate Foreign Relations Committee held a 
hearing explicitly focused on Afghanistan was in late January 
of this year, and I remember asking Ambassador Taylor at that 
hearing about how we will define success in Afghanistan. He 
told me that our mission will be complete when a stable, 
responsible government that will never harbor terrorists is 
firmly in control of the country.
    In the months since that hearing, Americans have continued 
to fight and die in Afghanistan, and clearly insecurity 
persists in much of the country. It is unfortunate that there 
are no witnesses here today from the administration who could 
speak authoritatively to current U.S. policy and, most 
importantly, to what has changed in the last 4 months. What 
progress have we made toward overcoming the obstacles to policy 
goals? Do our goals actually remain the same? Do we believe 
that our current strategy is working, or do we need to make 
changes to achieve success?
    When we reflect on the terrible attacks of September 11th, 
2001, when we remember when and why we embarked on our current 
initiative in Afghanistan, we then recapture the sense of 
urgency and priority that I fear is sometimes missing from 
discussions of this initiative today.
    So I look forward to hearing from our witnesses even more 
in the future and also to hearing especially from the 
administration sometime soon about where this whole effort 
actually stands.
    I would like to ask the panel a follow-up on a question 
Senator Lugar asked related to the success of U.S. public 
diplomacy efforts thus far in Afghanistan. How about U.S. 
efforts to explain our policy and practices in Afghanistan to 
the rest of the world? How does the Muslim world view the 
continuing U.S. intervention in Afghanistan today? Mr. 
Schneider?
    Mr. Schneider.  It is varied. Obviously, there are those 
who are linked to the more extreme side of the Islamic world 
that criticize everything that we have done and criticize the 
international community generally, what the United Nations is 
doing.
    I think that it is important to note that we generally have 
support from many of the Islamic governments in the region, and 
after 9/11 and the adoption of the resolutions authorizing the 
United Nations Assistance Mission in Afghanistan (UNAMA) and 
authorizing the intervention in Afghanistan, I think that you 
have seen a degree of sympathy that is, unfortunately, 
obviously not there in Iraq.
    Senator Feingold.  Apart from the governments, what about 
the Muslim peoples? Do they, in your view, distinguish pretty 
clearly between what we are doing in Afghanistan and what is 
happening in Iraq, or do they see it as part of the same thing?
    Mr. Schneider.  I think it is a closer question there. The 
level of communication within the Islamic world gets to be 
biased to some degree by the kinds of messages that come, and I 
would say that it is not quite as clear. In Afghanistan, I do 
not think there is any question about the feeling of the people 
about getting rid of Al Qaeda and the Taliban and the support 
for the international effort, although with a growing degree of 
concern about where it is going.
    Senator Feingold.  How about the recent news? Has the Iraq 
prison scandal and the reports of other instances of abusive 
treatment that occurred in U.S. military prisons in Afghanistan 
and elsewhere affected international perceptions of U.S. policy 
in Afghanistan?
    Mr. Schneider.  That is going to. There was a Human Rights 
Watch report 2 months ago. I do not have any question that 
given what is going on in Iraq, that there will be--and there 
should be--a focus on allegations of mistreatment of detainees, 
on whether or not the Geneva Convention is being respected, the 
kinds of management of those facilities, and I do not have any 
question that there will be a greater negative view on the U.S. 
role. And as a result of the publicity around it, I am sure 
that there is going to be, unfortunately, a very negative 
message coming out.
    Dr. Gouttierre.  Senator Feingold, I think in Afghanistan 
right now, the people of Afghanistan, after nearly 30 years of 
instability, violence, war, they are focused on Afghanistan. I 
think the issues relating to Iraq come to their attention 
primarily in their own fear that the U.S. focus on Iraq will 
lead the U.S. from doing what they hope the U.S. will do for 
Afghanistan in its reconstruction.
    I think also the impact of what we are doing in Afghanistan 
right now is not going to register high on any country's 
citizens just because we are so shortly into the process. So 
little has been made evident that we are nearing any type of 
goal. I think that that is going to take time. I always like to 
tell people, it is going to take Afghanistan nearly a decade to 
put it back where it was in 1973 so that it can begin 
developing from there. I think it is going to take us a long, 
long time, as has been suggested by a number of comments here. 
I cannot remember who said that. I think maybe it was David, 
but if it was one of the other of you, I apologize. But we need 
to make it very clear that this is not just a 2-year, a 3-year, 
a 7-year program you mentioned, Senator. This has to be a long-
term commitment.
    I think as we have successes, if we do not muddle through 
in our approach, we will continue to sustain the respect and 
appreciation of the Afghans, and others will begin to notice. 
But we are not going to be able to use this for any spin at the 
moment. It is just going to take too much time and too much of 
an effort because there is so much left to be done.
    Senator Feingold.  Recent press reports indicate that 
Pakistan has offered amnesty to foreign militants who have been 
operating along the border with Afghanistan. What does this 
mean for our efforts to eliminate the terrorist presence in 
Afghanistan and bring stability to the country?
    Mr. Schneider.  I personally think it is a very bad idea, 
particularly as was originally put out, there was no 
distinction between which foreigners they are talking about, 
whether they are Afghans or whether they are part of Al Qaeda. 
I think that that needs to be looked at very closely, and I 
would urge the committee to, in fact, look at that very closely 
in order to make a recommendation to the administration and to 
Pakistan, with whom we obviously have a very strong 
relationship. But to provide amnesty to Al Qaeda forces seems 
to me a bad, bad idea.
    Senator Feingold.  Mr. Isby?
    Mr. Isby.  Perhaps more importantly it depends who is being 
amnestied and where. Certainly individuals carrying 
Kalashnikovs are not the issue. The problem is the Taliban 
leadership and not only the ``moderate'' Taliban who live 
openly in places such as Quetta. I am more concerned perhaps 
about madrasas and other institutions that provide money and 
funding for cross-border violence than individuals--Uzbeks or 
whatever--who may be caught as foot soldiers. So that is the 
most important thing.
    This is also vital to the focus of Pakistan. The future of 
Pakistan is not going to thrive if the people who support the 
violence in Afghanistan remain strong and to a large extent 
outside the rule of law.
    Senator Feingold.  Let me ask if the pervasive climate of 
insecurity in Afghanistan in recent months has led to increased 
popular support for a return to Taliban rule simply out of a 
desire to see some order, even if that order is unjust and 
repressive. I know that Senator Biden sort of got at this from 
a different angle. I just wonder if we could put on the record 
any responses to that.
    Mr. Perito.  Senator, I do not think that is the case. I 
think that the Taliban resurgence, thanks to the effectiveness 
of Operation Enduring Freedom, is contained along the Pakistani 
border. The greater threat to security within the country, as 
we have talked before, is the warlords. That is something which 
we now we need to begin to focus on.
    I believe the solution lies in going after the problem of 
narcotics because it is the narcotics trade that provides the 
funding to all those people who oppose our goal, which is a 
strong democratic and effective central government. Draining 
away resources through doing something about narcotics would 
begin to really affect the situation.
    There is now total impunity for the narcotics trade. The 
government has no enforcement capability. That enforcement 
capability is coming on line, but it is coming on line very 
slowly. That is where we need to place our emphasis. We need to 
begin to create disincentives at the same time we create 
alternatives.
    Mr. Isby.  Certainly there is no national economy either, 
and that is the key thing. Narcotics enforcement before a 
national economy is put in place may not be efficacious. And I 
point out this is one reason I have been talking about a long-
term commitment; many of these problems do not have short-term 
solutions. The Afghan institutions and the Afghans have to have 
ownership of the program to suppress the narcotics trade. They 
are going to take years to train, deploy, and get there which 
is going to sit poorly with Americans who want solutions now.
    Mr. Perito.  Can I take this argument on just for a second? 
There is a national economy in Afghanistan. It is an opium-
based economy. If opium was a legal commodity, Afghanistan 
would be the poster child for international development. In 
fact, it is an illegal commodity, and we have an economy which 
is based on organized criminal activity. That is our first 
challenge. We have only to look at Colombia for an example of 
what happens to a society when organized crime becomes the 
motivating factor in the economy and the driving force in the 
society. We cannot wait. We have to start doing something about 
that now.
    Senator Feingold.  Thank you for your answers.
    Dr. Gouttierre.  Senator Feingold, I want to quickly----
    Senator Feingold.  Very quickly because I have got to go.
    Dr. Gouttierre (continuing).  ----Just ask any of these 
journalists if they feel there is a sympathy in Afghanistan for 
in any way a return of the Taliban. No possibility. The 
lifestyle of the Taliban is an anathema to Afghans. When I 
lived there for 10 years in the 1960s and 1970s, it was not 
that kind. Women were not wearing veils. Women were working. 
Women were even wearing mini-skirts. There was an active, 
modern life in that country. The Taliban style of life is not, 
in the minds of the Afghan people, a desirable choice.
    Senator Feingold.  Obviously, I am very pleased to hear 
that.
    Let me just say, Mr. Chairman, I understand obviously you 
have worked hard to keep Afghanistan from slipping off the 
agenda of the Congress and the administration. I know you plan 
to hold another hearing with representation from the 
administration in the coming weeks, and I want thank you for 
your continued leadership on this, and I thank the panel for 
the answers.
    The Chairman. Well, thank you very much, Senator Feingold. 
Be assured that we will hear from the administration again. Our 
hope today, of course, was to hear from each of you, some 
independent benchmarks as to how things are going. We have not 
asked any of you to take responsibility for this, as we will do 
with future administration witnesses. It is not that they would 
have to be overly defensive, but at the same time, you do not 
have to defend anybody. You can offer your suggestions, which 
are very helpful, I think, for our consideration. As Senator 
Feingold has phrased it, I think correctly, we are attempting 
to make sure Afghanistan remains very much on the agenda, even 
in the midst of other stories currently that are also very 
important to us.
    Let me just continue the discussion of the narcotics and 
the poppies. Mention has been made, for instance, of Colombia 
and before then, Peru and the Upper Huallaga Valley. Those of 
us who have visited those areas found, just as you have pointed 
out today, that this is a daunting problem in terms of 
substitution. If you are a farmer and you are making 10 times 
as much off of poppies as you can over any visible alternative, 
this is a very tough choice in a situation in which people are 
very poor to begin with. What clearly is astonishing for most 
observers, as you have pointed out, and as I have mentioned in 
my opening statement, is that as much as half of the gross 
domestic product of the country comes from opium, from the drug 
trade. That is a formidable situation. As you pointed out, Mr. 
Isby, there has to be an economy.
    What are the possibilities for the development of an 
economy? If opium is 50 percent now, what could substitute for 
it--not just simply agricultural substitution, but what other 
industries? You mentioned trade. That opens up possibilities, 
but we have also said that the road system and security are 
currently, to say the least, pretty dicey, even for 
governmental officials now. I am just trying to get some sort 
of a road map in mind. Granted, I know that this is a long-term 
problem, or at best an intermediate problem, in terms of a 
substantial solution. What is the prognosis for some successful 
strategy?
    Mr. Schneider.  If I could just speak specifically to that.
    The Chairman. Mr. Schneider.
    Mr. Schneider.  If you look at the plan that was submitted 
by the government of Afghanistan with the support of the World 
Bank, they identify three major sectors. Actually agriculture 
is one of those where they anticipate in the short term, in 1 
to 5 years, 10 to 15 percent growth per year is possible in 
cereals, in livestock, and in other areas. Also, as you noted, 
in industry they focus on transport power as again about the 
same level of per-year growth and in services. They do, in 
fact, feel that you can have a fairly successful growth over 
the course of the next 10 years without having poppies. They 
also argue that to some degree it undermines the ability for 
the licit economy to take hold because it brings with it the 
kind of violence that undercuts the possibility for private 
investment.
    I would just add that poppy cultivation in the case of 
Afghanistan is somewhat different than the case of cocaine 
cultivation in Colombia and Peru. The recent surveys that the 
UN has done show that the Afghan poppy growers turn only about 
27 percent of their land to poppy cultivation, but the bulk of 
their land is dedicated to other crops, generally food crops. 
So there is a slight difference in the relative impact of 
eradication on farm incomes in Afghanistan contrasted to 
Colombia where the bulk of their land goes to coca or poppy 
cultivation.
    The other fact to remember is that the $2.3 billion is 
divided, a billion for farmers and $1.3 billion for the 
traffickers. So I think that one of the things that we would 
argue, at least I would argue strongly, is to go after the 
traffickers, focus on interdiction; go after warehousing, 
laboratories as a first step. Do not forget about eradication, 
but that is the one where you want to be sure that you are not 
going after the small farmer and putting him in a situation 
where he cannot survive. I think that there is a distinction 
there. In fact, you can then link that to the building up of an 
alternative rural development program, which everybody 
recognizes is necessary.
    The Chairman. Mr. Schneider, you mentioned--this I think is 
an important point--that the Afghan government itself has a 
plan. Now, a year ago roughly, in June of last year, I met with 
President Karzai, the Minister of Finance, and other ministers 
of the Afghan government at the World Economic Forum conference 
outside of Amman, Jordan. On that occasion, the Finance 
Minister, as I recall, had a 5-year plan. His plea was both for 
help from the United States, first of all, in financing what he 
hoped would be our part of it, and likewise for diplomacy with 
regard to other countries before a pledging conference that was 
due shortly thereafter, in addition to others that might come 
along.
    I thought this was very important. I contrasted this, for 
example, with the fact that in Iraq there was no 5-year plan, 
not any plan of that sort, unfortunately. So this is prior to 
the constitution's success and other things that have come 
along subsequently. I want to highlight that because there is 
within this government, if we are talking about how Afghans are 
going to try to move to govern themselves, at least this kind 
of ongoing line of thought.
    What is not clear to most of us is the contents of the 
plan. You have illuminated some of that today. This is probably 
going to be helpful not only for members of the American 
Congress and the American press and so forth, but for everybody 
who is thinking about this, who seek some idea of what Afghans 
envision, and how, if the money was provided, you would fill in 
the gaps, whether it be with the help of our country or 
internationally.
    Mr. Isby, you were wanting to comment.
    Mr. Isby.  Certainly. The plan, which Ashraf Ghani Ahmadzai 
has presented at Berlin, has received general acceptance. I 
would say, however, more important than the contents of the 
plan itself is the fact that it is a plan. We can see not just 
a request for more money, whatever the donors come up with, but 
a way to get from here to there that they hope will get them 
away from dependence on international aid.
    Now, everyone knows that economic plans, as a whole, have a 
very poor track record of implementation, but I think the most 
important thing, rather than as a road map, is as an example of 
how the Afghans can build their own future.
    I agree that looking at the things that create a national 
economy is important. Currently the Afghan economy is much 
broken into regional areas which are low-rent annexes to the 
economies of their neighbors. That is one of the reasons why 
the emergence of a national economy is going to increase 
legitimacy and competence of Kabul, when it acquires functions 
other than simply giving out aid money to regions or to other 
participants. So making Afghanistan economically viable through 
trading, extractive activities, and with the help of the Afghan 
diaspora is critical. That is a key advantage they did not have 
in the old days. Afghans from overseas have foreign business 
contacts. The micro-credit projects the Americans have stressed 
can also help there.
    The Chairman. Mr. Perito.
    Mr. Perito.  Yes. There is a difference between Afghanistan 
and Colombia that I think is worth noting. Other than three 
major provinces in the south, growing opium poppy is a new 
experience for most people in the country. This is a recent 
phenomenon, and it is one that could be rolled back. We have to 
remember that a couple of years ago when the Taliban decreed 
that all opium production must stop, it did for 1 year. There 
is a cultural impediment against growing opium, and that is the 
moral problems that exist relative to Islam. So that is 
something we need to utilize for our crusade against narcotics.
    Then there are several things that we can do, and we are 
beginning to do them. The program to begin to create 
alternative livelihoods has now been funded by Congress, and it 
is starting in Afghanistan. But this has to be sustained over 
the long term.
    Mr. Schneider.  Could I just add to that?
    The Chairman. Yes, of course.
    Mr. Schneider.  That is one of the areas where, it seems to 
me, that we made a major mistake. We had very little available 
to fund alternative development for the first several years. 
When I was in Afghanistan in November, I asked the embassy and 
was told that they had something like $17 million to $20 
million available, total, for alternative development. If you 
contrast that with the $1 billion farm gate, you can see the 
impossible situation. Even today, in terms of the funding that 
has been made available through State and INL (Bureau for 
International Narcotics and Law Enforcement Affairs), they 
essentially have about $30 million total from the FY 2002 
supplemental and this last FY 2004 supplemental for alternative 
livelihoods. The rest is focused on eradication and 
enforcement. It is just not enough.
    The Chairman. Let me ask now about Pakistan. We have 
touched upon that in several different ways, but each of you 
has mentioned that they are neighbors, and they have their 
influence in different ways. In the case of Pakistan, the 
question was raised, and you responded to Senator Biden, Mr. 
Schneider, that it was a mistake on the part of the Pakistanis 
to offer amnesty to various people.
    President Musharaf is under great pressure from people in 
his government and elsewhere. First of all, he faces pressure 
from us to pursue Al Qaeda and the Taliban. From time to time, 
there are new Pakistani efforts to do that, that have some 
vigor. Then after a few weeks, there is less vigor, and the 
situation comes to a halt until there is another round, simply 
because in that particular area of the country, as President 
Musharaf has explained to us in a couple of coffees the 
committee has had, as have other Pakistanis, there is a tenuous 
Pakistani hold. The Afghan government is not the only one that 
sometimes, in terms of its central government, has difficulty. 
Some of the territory near the border seems to be among those 
provinces that are the most tenuous, and that have the 
strangest election results when pressed by us and others to let 
democracy work. Democracy does work, but with very adverse 
consequences toward Musharaf and the central government.
    Now, on the other hand, Pakistanis strongly feel that the 
situation would be very much exacerbated by American troops 
marching in there and going after Al Qaeda or the Taliban, 
either one. At this point, Musharaf's difficulties with regard 
to his maintenance and control of the army and civil society 
really take a blow and continue taking blows so long as we are 
there rumbling about. This is bound to lead to a very 
unsatisfactory situation for a while, for those in Afghanistan 
who are nearby, because many of our troops are close by on the 
border, and sometimes they are engaged in military action. 
Sometimes tragic errors occur, and innocent Afghans are killed. 
Mistakes are made with regard to intelligence.
    So, in the same way that we were talking earlier about how 
Afghans like us, in some situations that has turned abruptly. 
Yet we would say, listen, we came over here to try to clean up 
the Al Qaeda situation and the more orthodox Taliban, and we 
are still here for that task. In a way, Afghans understand 
that. They just wish we were more fastidious in our work, more 
successful with regard to our relationship with Pakistan.
    Can any of you foresee some way to offer some blue sky in 
this situation?
    Yes, Doctor.
    Dr. Gouttierre.  I think if in the textbook on American 
foreign policy failures, the chapter on Pakistan would be the 
lead article or the lead chapter. We have not made friends and 
influenced people. We have made enemies and lost our influence 
there. And that is with a country which at one time was really 
very friendly to the United States. I do not think you can find 
a Pakistani who would use the term ``reliable'' in describing 
the United States in any form of the relationship. Every 
politically correct issue that comes before Congress is visited 
upon the Pakistanis and our relationship. We have been in and 
out, and we are back in again because it is in our interest, 
and that is what Pakistanis see.
    We have not yet, I think, convinced the Pakistanis that our 
presence back in Pakistan is in their interest, and that is 
where the blue sky has to be sought. We have had our military 
in Pakistan, as well you know. They were a charter member of 
the Baghdad Pact, as were Iraq and Iran. It is kind of a sad 
story there if you take a look at that one. There is only 
Turkey and the U.S. left of no pact.
    But in any case, I think the only way we are going to be 
able to do this is to find some way to convince the Pakistanis 
that we are there in their interest. I think Musharaf 
understands that Pakistan's interest was not being advanced by 
the influence that the fundamentalists were having upon the 
Pakistani citizenry. He came to understand that the pan-Islam 
was more important to the Pakistani than any pan-Pakistani or 
Pakistani nationalism. I think that is the element we have to 
work with.
    Pakistan needs a lot of help economically. One of the best 
things that could happen to Pakistan is to have access to 
natural gas in Turkmenistan, which will have to travel through 
Afghanistan because that is the cheapest and most direct route, 
and Pakistan has a lot of labor that can be put to work in a 
very sophisticated country in terms of certain industries.
    Mr. Isby.  One hopes the U.S. relationship with Pakistan 
will improve. I mean, unfortunately, in the case of the 
Pakistani military, even if Musharaf has been brought over to 
support our Afghanistan policy, the evidence is less clear that 
this is shared by all military. They see the ethnic, the ethno-
linguistic dimension as primary, and their goal is still an 
ethnic Pashtun government in Kabul that would follow an 
Islamist agenda comparable to what they believe in. They 
believe that this is important for Pakistani national security. 
One of the reasons that the U.S. commitment to Afghanistan is 
important is to say to the Pakistani military that, guys, this 
is not going to happen. Instead, work with us. We can deal with 
your national security concerns other ways.
    Now, it would be great if we had another carrot to offer 
the Pakistanis. It would be great if we could wave a magic wand 
and create a Northern Ireland solution in Kashmir. That is not 
going to happen anytime soon. But Musharaf needs to have things 
more concrete than the designation as a major non-NATO ally to 
show to his supporters and electorate, to say the future is 
with the Americans, not the people killing aid workers. Let us 
go with them.
    Mr. Schneider.  If I could just add one thing, Mr. 
Chairman, and that is I think one of the problems in Pakistan 
is that we have not emphasized that the government's movement 
back to democracy is an important objective in our 
relationship. I think we have issued several reports that we 
strongly argue that Musharaf in fact could take more action 
against the radical Islamist groups within Pakistan without 
endangering his political situation. The evidence that we have 
had about madrasas continuing to be the source of recruitment 
for extremists, both with respect to Kashmir, but also with 
respect to, most importantly, to Afghanistan, is clear. And the 
steps that Musharaf promised with respect to regulation, of 
financing, et cetera, of those madrasas has not taken place.
    The Chairman. Well, we could have and should have another 
hearing on Pakistan soon. I wanted to raise this because this 
is a difficult neighborhood. As all of you know, in terms of 
our foreign policy prior to 9/11, our relations with Pakistan 
were nil or barely alive. Suddenly Secretary Powell, in a 
dramatic meeting I recall somewhere, perhaps over in S. 407 of 
the Capitol Building, comes over and says to us, you have got 
to lift all of the sanctions on Pakistan, military, economic, 
and what have you, now and permanently. This is a new world, 
new business.
    Well, that was a long drink of water all in one statement. 
Many people asked, all of them? Permanently? After all, there 
has been an overthrow of democracy. They had a nuclear test, 
albeit one in India as well, but we ought to have sanctions on 
them too. Powell replied, lift all of them, at the same time on 
both.
    This is quite an evolution, in fact, almost a revolution in 
American foreign policy in the region, in a very short period 
of time. The other steps that are required to build on that 
relationship--so that both of those countries have confidence 
in us, are very important. In the meanwhile, we are discussing 
Afghanistan, which is in the midst of all of this. Iran is a 
major influence, but that is another story all by itself, as we 
try to develop American foreign policy in the region. I 
mentioned this simply because it would be helpful if we could 
just take Afghanistan in isolation, but of course that is not 
possible. We understand that, and you have illustrated that.
    Dr. Gouttierre.  That is what makes doing it right in 
Afghanistan so important.
    The Chairman. Yes.
    Dr. Gouttierre.  That is the point. Pakistan with 150 
million people compared to Afghanistan with between 15 million 
and 22 million, whatever people find--there are all kinds of 
estimates primarily generated by computer programs, not real 
counts. It is something that we can deal with, and it is in the 
middle. As I said, location, location, location. It is in the 
center of it all.
    Mr. Isby.  But truly, it is harder to deal with things with 
the Iranians where we have much less influence, if any, and 
also things like the nongovernmental money coming out of the 
Kingdom of Saudi Arabia and the Gulf. With the elections coming 
up, I suspect the candidates they are going to fund are those 
which are committed not to traditional Afghan forms of Islam 
but those who have been paid by Wahabis in the past. This is a 
time when money is going to be very key. It is also a problem 
for the Americans who see reconstruction largely as a secular 
process and are not comfortable with its Islamic dimension. We 
are going to have to deal with this because, as well as 
rebuilding the country and institutions, Afghan Islam has to be 
rebuilt because, since 1978, people have been sending money to 
Afghanistan for outside strains of Islam from Deobandis, from 
Wahabis, many different sources. Very few people have been 
helping and nurturing the Afghan practice of Islam which has 
been resistant, over 1,300 years, to terrorism and extremism.
    The Chairman. This is why I started with Dr. Gouttierre and 
his thought that we have some friends in Afghanistan. There is 
some basis, therefore, to hope that some day that will be the 
case in greater numbers in the surrounding countries as well. 
That would be very important for our foreign policy.
    Just putting on our hats as people in political life for a 
while, you go to constituents and they might well ask why in 
the world are we contributing money to the governments of 
people who dislike us? Take a look at the polls, and what they 
think of us, and so forth! Yet this is a long-term situation. 
The polls may change, but maybe not for quite a while.
    At least in Afghanistan, the case being made for doing 
more, for augmenting the appropriations the administration is 
asking for and trying to offer amendments that are constructive 
for those programs, is really a viable situation that I believe 
has political support in this country. American people want to 
see success there, and they are prepared to spend some time 
doing that. We, in our own way, have to keep underlining that.
    Well, I very much appreciate your testimony today, both 
your initial papers, which are a great contribution to our 
record, as well as your responses to our questions. We look 
forward to staying in touch with you as this progresses.
    Having said that, the hearing is adjourned.

    [Whereupon, at 11:42 a.m., the committee was adjourned.]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                              Afghanistan



                            A P P E N D I X

                              ----------                              



    Additional Material Submitted by the International Crisis Group

                                 ______
                                 
                 elections and security in afghanistan

                     Kabul/Brussels, 30 March 2004

I. OVERVIEW
    Representatives of the Afghan government, the UN and the major 
donor countries and institutions will assemble in Berlin on 31 March 
and 1 April for the first high-level diplomatic meeting on Afghanistan 
in more than two years. The principal objective is to secure 
substantial long-term aid commitments--the Afghan government seeks 
U.S.$27.6 billion over seven years. In addition to meeting this global 
figure, it will be important for donors to make multi-year pledges that 
provide a basis for predictability and to increase cash on hand for 
immediate projects over the coming year. All this is needed if 
Afghanistan's governance and security institutions are to be 
reconstructed, development goals met, and poverty alleviated.\1\
---------------------------------------------------------------------------
    \1\ The conference will be guided in part by a document, ``Securing 
Afghanistan's Future: Accomplishments and Strategic Pathway Forward,'' 
that revises cost estimates for national reconstruction. It was 
prepared by the Afghanistan Assistance Coordination Authority, headed 
by Finance Minister Ashraf Ghani, and includes several technical 
annexes produced by the United Nations Assistance Mission in 
Afghanistan (UNAMA) that assess, often frankly, the degree of progress 
made in such key areas as disarmament, demobilisation, and 
reintegration; police and national army training; and judicial and 
civil service reforms. Available at http://www.af. See also, Finance 
Ministry, ``Press Release on Berlin Conference,'' 24 March 2004.
---------------------------------------------------------------------------
    Unless conference participants also set in train discussion of the 
political framework within which aid can be effectively utilised, 
however, they will only be doing part of their job. In particular, 
there is need to:

  <bullet> discuss candidly the security failings and other internal 
        obstacles that are seriously hindering implementation of the 
        Bonn Agreement and endangering the success of the September 
        2004 presidential and parliamentary elections that are meant to 
        promote accountable, democratic government;

  <bullet> establish much more quickly the promised robust 
        international security presence beyond Kabul, which is vital to 
        the disarmament and reintegration (DR) \2\ of Afghanistan's 
        militias and in turn to fostering an environment in which a 
        culture of democratic politics can develop; and
---------------------------------------------------------------------------
    \2\ For greater simplicity and in the hope that the usage will 
become more common, ICG employs in its reporting the abbreviation DR, 
to include, as appropriate to individual situations, the concepts of 
disarmament, demobilisation, repatriation, resettlement, and 
reintegration that are elsewhere often abbreviated as DDRRR or DDR.

  <bullet> give greater attention to the legal and institutional 
---------------------------------------------------------------------------
        infrastructure required for democratic politics.

    The international community's failure thus far to extend a strong 
security umbrella beyond Kabul is perpetuating, indeed deepening, the 
political and economic power of regional commanders. Even Kabul, where 
militiamen from Panjshir and Shamali remain concentrated more than two 
years after their entry into the capital, is not yet demilitarised. 
NATO still lacks troop commitments from its member states to deploy 
additional Provincial Reconstruction Teams (PRTs) across northern 
Afghanistan by September, as its already slow plan for gradually 
extending its presence in the countryside envisages. Nor has it 
obtained a commitment of troops for forward-basing rapid reaction 
forces as originally planned.
    The new Afghan National Army (ANA) has suffered setbacks that limit 
its ability to extend the authority of the central government, 
facilitate DR, and provide security during the elections. Ministry of 
defence control of the recruitment process initially led to a 
disproportionate representation of Tajiks in the ANA, a situation that 
has prompted the U.S. to establish recruitment centres in Jalalabad, 
Kabul, Gardez and Bamiyan in an effort to encourage a more diversified 
army. The desertion rate in the ANA reached 10 per cent during the 
summer of 2003. A number of measures have been taken to address the 
desertion problem but the present strength of approximately 7,500 is 
still far short of the 40,000 projected by Coalition officers.\3\
---------------------------------------------------------------------------
    \3\ See Dr. Antonio Giustozzi and Mark Sedra, ``National Army: 
Technical Annex,'' in ``Securing Afghanistan's Future,'' op. cit.
---------------------------------------------------------------------------
    DR programs to cut down the many militias around the country are 
going slowly. The proposed establishment of new Special Forces-led 
militia units (Afghanistan Guard Forces, AGF) would cut across those 
programs, providing a disincentive to DR. There is, moreover, no 
publicly disclosed plan for the eventual disarmament and demobilisation 
of the AGF. The hazards in the AGF concept include increasing the 
authority and armament of militia commanders as well as potential 
command and control problems.
    President Hamid Karzai has yet to issue either a draft electoral 
law or a presidential decree on the provincial and district boundaries 
that would form electoral constituencies. The registration of political 
parties has proceeded very slowly, in part due to a cumbersome 
structure for registration that involves screening by six different 
government departments or ministries, but also due to political 
pressure exerted by fundamentalist leaders. Only about 1.5 million 
voters out of an estimated potential electorate of 10 million have been 
registered, and those unevenly. Registration is markedly lower in the 
south and southeast in both absolute numbers and the proportion of 
women.
    There is a real risk that elections under present conditions will 
merely confirm an undemocratic and unstable status quo. To avoid this, 
the international community needs to make serious efforts over the next 
few months to invigorate the disarmament and reintegration process, 
guarantee the independence and impartiality of electoral institutions, 
and ensure that Afghan authorities create opportunities for non-
militarised political parties and independent candidates to participate 
meaningfully in the electoral process.
II. DISARMAMENT AND REARMAMENT
    The salient feature of the UNDP-managed DR fund, known as 
Afghanistan's New Beginnings Programme (ANBP), is that it is an 
essentially voluntary process, with the ministry of defence having 
ultimate authority to identify the target personnel. The program is 
intended to cover 100,000 militiamen over three years; that figure is 
based on negotiations with the ministry not on informed estimates of 
the actual number of active-duty and reserve forces affiliated with the 
militias. The UN Assistance Mission in Afghanistan (UNAMA) estimates 
the maximum number of troops in the militias recognised by the ministry 
at 45,000.\4\ ICG's own observations at militia corps and division 
bases, coupled with interviews with Afghan professional officers, 
suggest that the number of active duty personnel is lower still. The 
elasticity of membership in militia units and the paucity of 
information about district level command structures make any projection 
of potential strength inherently speculative.\5\
---------------------------------------------------------------------------
    \4\ Ibid.
    \5\ See ICG Asia Report No. 65, Disarmament and Reintegration in 
Afghanistan, 30 September 2003.
---------------------------------------------------------------------------
    With most militia commanders maintaining only a relatively small 
number of combatants on active duty but retaining the capacity to 
mobilise many more through ``team leaders'' (sargroups) in each 
village, the scope for abuse of the process is considerable. Not 
surprisingly, the first ANBP pilot project in Kunduz--which collected 
arms from 1,008 former combatants, slightly above the target figure of 
1,000-- yielded a high proportion of effectively demobilised 
combatants: small farmers who had not seen active combat since the 
intervention against the Taliban in the northeast.\6\ Moreover, some 
troops ostensibly demobilised during the subsequent pilot project in 
Mazar-i Sharif were later re-recruited by their commanders. There is 
inherent risk in downsizing, rather than decommissioning militia 
units.\7\
---------------------------------------------------------------------------
    \6\ Mark Sedra (BICC/UNAMA), ``Disarmament, Demobilisation, and 
Reintegration of Ex-Combatants,'' in ``Securing Afghanistan's Future,'' 
op. cit.
    \7\ ICG interview with an ANBP official, 25 March 2004.
---------------------------------------------------------------------------
    A major impasse developed in early 2004 over ANBP implementation in 
the central region, encompassing the provinces of Kabul,\8\ Parwan, 
Kapisa, Wardak, and Logar, and including the key units directly 
accountable to Vice President and Defence Minister Mohammad Qasim 
Fahim. The main phase of DR there was originally slated for February 
but was stalled by the defence ministry. The Army Chief of Staff, 
General Bismillah Khan, insisted that all pilot projects should be 
completed before the main DR phase was launched in Kabul.\9\ Subsequent 
developments led some international observers to speculate that the 
ministry was attempting to stall those other pilot programs in order to 
protect the militia presence in Kabul. Getting the ministry to field 
its operational groups (the units assigned to the ANBP for 
registration, collection, and storage of weapons, and other tasks) has 
been a persistent problem, as has been delivery of vehicles for the 
operational group assigned to the Kandahar pilot project.\10\
---------------------------------------------------------------------------
    \8\ Conversely, provincial division commanders interviewed by ICG 
in Takhar and Khost, in July and August 2003, argued that DR should be 
implemented in Kabul prior to its roll out in the provinces. See ICG 
Asia Report, Disarmament and Reintegration in Afghanistan, op. cit.
    \9\ ICG interview with a diplomat in Kabul, 13 March 2004.
    \10\ ICG interview with a diplomat in Kabul, 25 March 2004. Weapons 
that are collected in the program are brought to Kabul and stored at 
the Afghan National Army base, under a dual key system that prevents 
the ministry of defence from having unilateral access to the storage 
containers.
---------------------------------------------------------------------------
    Defining the scope of the main phase of DR was contentious as well. 
The UN and Japan, the program's major donor, maintain that the 
objective should be the decommissioning of entire divisions, leading to 
a 40 per cent reduction prior to elections in the overall size of the 
Afghanistan Military Forces (AMF), as the militias are collectively 
known. The ministry proposed instead that the size of each militia be 
reduced by 40 per cent, leaving their structures intact and therefore 
the formal authority of each of their commanders. DR would thus become 
a cosmetic exercise in which militias currently enjoying the status of 
divisions would be downgraded to battalions, battalions would be 
downgraded to regiments, and so on.\11\
---------------------------------------------------------------------------
    \11\ Ibid.
---------------------------------------------------------------------------
    A compromise reached on 25 March 2004 by UNAMA, the ANBP, President 
Karzai, and Defence Minister Fahim, in the presence of U.S. Ambassador 
Zalmay Khalilzad, entailed only modest concessions by the minister. 
Under its terms, a 40 per cent reduction in the size of the AMF is to 
be achieved by decommissioning 20 per cent of the units and downsizing 
a further 20 percent by July 2004. The decommissioning is projected to 
include four Kabul-based units: Division 7, composed of Badakhshani and 
Panjshiri troops, linked respectively to former President Burhanuddin 
Rabbani and Fahim; Division 10, composed of troops from Paghman, linked 
to Ittihad i-Islami leader Abd al-Rabb Rasul Sayyaf; Division 31, 
composed of Hazara troops from the Harakat-i Islami faction led by 
Agriculture Minister Sayyid Hussain Anwari; and Regiment 42, a Pashtun 
unit. Of the units to be decommissioned, the most significant 
politically would be Division 10, based in West Kabul, near Sayyaf's 
stronghold of Paghman; neither Rabbani nor Anwari wield much authority 
in the capital.\12\
---------------------------------------------------------------------------
    \12\ ICG interviews with diplomats in Kabul, 26-28 March 2004.
---------------------------------------------------------------------------
    Two of the three units in Kabul directly linked to Fahim, Divisions 
1 and 8, composed largely of troops from Panjshir and Shamali, are 
slated only for downsizing.\13\ The failure to decommission these units 
ultimately reflects inadequate pressure on the defence minister from 
Coalition members, a result perhaps of the erroneous assumption that 
Fahim's present support for Karzai makes the disarmament of his forces 
less critical. Unless that pressure is brought to bear by July 2004, 
when the status of the three units will again be open to negotiation, 
however, Fahim will not only be able to project, but arguably even 
enhance his authority during the election campaign. Further progress on 
DR, as well as credible reforms in the defence ministry, would be 
compromised as a result.
---------------------------------------------------------------------------
    \13\ Ibid.
---------------------------------------------------------------------------
    Another potential set of hurdles for DR and political stability 
lies in a Coalition plan to re-equip and retrain militia units to 
support Special Forces units in counter-insurgency operations. First 
disclosed in January 2004, the plan originally entailed creating a 
Pashtun force for operations in the Pashtun-populated east and 
southeast. The prospect of a revamped force drawn from Pashtun militias 
was immediately seized upon by General Khan as a pretext to shelve DR 
in Kabul. His statements were echoed by other Tajik commanders as well 
as non-military personalities associated with the former United Front 
(Northern Alliance).
    ``The [DR] process is moving slowly because most people don't see 
it as a just and fair process,'' Mohiuddin Mahdi, a leader of the 
Nazhat-i Milli party, told ICG. ``In parts of Afghanistan, arms are 
being distributed, new militias are being created. In other parts, 
militias are being disarmed.'' \14\ The new Afghanistan Guard Force 
(AGF) is accordingly now being reconceived by the Coalition as a 
multiethnic force.
---------------------------------------------------------------------------
    \14\ ICG interview with Mohiuddin Mahdi, Nazhat-i Milli, Kabul, 13 
March 2004.
---------------------------------------------------------------------------
    The top-ranking U.S. military and political representatives in 
Afghanistan, Lieutenant General David Barno, who commands the Coalition 
forces, and Ambassador Zalmay Khalilzad, have publicly discussed the 
AGF in terms of a proposal.\15\ Members of the diplomatic community in 
Kabul, however, accord it much greater weight. One reason for the 
concept is that the U.S. military is simply overstretched in 
Afghanistan and will be hard pressed to meet its force requirements for 
a spring offensive without significant Afghan auxiliaries. Each of the 
Special Forces units deployed in Afghanistan, known as Operational 
Detachment Alphas (ODAs), is intended to have twelve members but the 
average is now down to eight.\16\ The delay in extending NATO/ISAF 
forces beyond Kabul in sufficient size adds to the current security 
vacuum.
---------------------------------------------------------------------------
    \15\ Referring to a question about ``a proposed national guard,'' 
General Barno was reported to have said it would number between 5,000 
and 6,000 troops selected from existing militias under the ministry of 
defence's control. ``Security Not Main Issue for Polls: U.S.,'' Dawn, 2 
March 2004. Ambassador Khalilzad said, ``We are considering building a 
5,000-man Afghan Guard Force to give increased security in the short 
term especially in the south and east.'' ``Remarks by U.S. Ambassador 
and Special Presidential Envoy Zalmay Khalilzad during Ghazni PRT 
Opening,'' 4 March 2004. Also, ICG interview, Tim Wilder, deputy 
director for Afghanistan, U.S. State Department, Washington, DC, 11 
February 2004.
    \16\ ICG interview, Kabul, 9 March 2004.
---------------------------------------------------------------------------
    The size, composition and relationship to the ministry of defence 
of the proposed AGF are still undetermined. In January 2004, when the 
Coalition linked its proposed mandate to election security, the goal 
was to have 3,000 troops trained by March and 5,000 by June--the date 
by which the Bonn Agreement of 2001 envisaged elections being held.\17\ 
According to an informed source, the current projected goal involves 
having 100 militiamen attached to each ODA. Vetting procedures remain 
undefined but the recruits are likely to be drawn from units that have 
been handpicked by the Special Forces, in other words, those with whom 
they already have field experience.\18\
---------------------------------------------------------------------------
    \17\ As noted in fn. 16 above, General Barno has recently spoken of 
a possible 5,000 to 6,000-man force, and Ambassador Khalilzad of a 
5,000-man force.
    \18\ ICG interview, Kabul, 9 March 2004.
---------------------------------------------------------------------------
    The AGF strategy is risky, not least for its impact on DR. Though 
the Coalition initially maintained that AGF troops would be paid less 
than their counterparts in the Afghan National Army, their wages plus 
food, clothing, and accommodation would far outstrip the flat rate of 
800 Afghanis per month that militiamen (AMF) receive from the defence 
ministry (and often those salaries arrive months late or are siphoned 
off by commanders). As a result, resistance to DR is reportedly growing 
among AMF troops in the south, who hope that they might instead find 
employment in the AGF.\19\
---------------------------------------------------------------------------
    \19\ Ibid. 
---------------------------------------------------------------------------
    Most problematic, however, is the absence of a DR strategy for the 
AGF itself. Rearmed, and in many cases remobilised, the AGF would 
likely entrench the power of their commanders at a time when donors 
expect the Karzai administration to demonstrate its authority in the 
provinces. If not included in a DR program, the AGF could pose a 
challenge to the new army once the Coalition presence is scaled back. 
There is also the problem of countering the predatory behaviour that 
Afghan militia forces have engaged in over the last twenty years. If 
this is not guarded against in the proposed AGF through careful vetting 
of personnel and adequate training, U.S. Special Forces in command 
responsibility could be held ultimately responsible for abuses.
III. ELECTION INSTITUTIONS AND SECURITY ARRANGEMENTS
    President Karzai announced on 28 March 2004 that simultaneous 
presidential and parliamentary elections would be held in September, 
three months later than envisioned in the Bonn agreement. The delay 
reflects concerns within UNAMA and among donor agencies assisting the 
election process about the low levels of voter and political party 
registration, as well as the absence of a firm security strategy for 
the elections. Much remains to be done in the interim to convince the 
Afghan public that the election process will be not only reasonably 
free and fair, but also meaningful.
    The legal framework for the elections remains unclear. A draft 
election law has been under revision by the Joint Election Management 
Board (JEMB), the mixed Afghan-UN commission the Afghan component of 
which was appointed by Karzai and which has the mandate of managing the 
electoral process. It has been anticipated that the law will be 
promulgated by the president prior to the Berlin conference. The draft 
does not address what is likely to be one of the most controversial 
issues: the provincial and district boundaries that will serve as 
electoral constituencies. This will instead be dealt with in a 
presidential decree, which must be issued at least 90 days before the 
election.\20\
---------------------------------------------------------------------------
    \20\ ICG interviews, Kabul, 13 March and 26 March 2004.
---------------------------------------------------------------------------
    Registration to date has been markedly uneven, with respect to both 
region and gender, according to data collected and analysed by JEMB. As 
of late February 2004, the multiethnic central region, including Kabul, 
had by far the highest share of registered voters, 42 per cent, 
followed by the mainly Pashtun east and the mainly Persian-speaking 
west, each at approximately 15 per cent. There were far lower rates in 
the Pashtun-majority south and south east, 5 per cent and 3 per cent 
respectively. The mainly Hazara central highlands had the highest 
proportion of registered women, 42 per cent of the total, followed 
closely by the West, at 37 per cent. The lowest proportions were 
recorded in the south and south east, where women made up less than 20 
per cent of the total.\21\ These disparities, if reflected in the 
election, are likely to yield results with a pronounced northern and 
central bias.
---------------------------------------------------------------------------
    \21\ Joint Electoral Management Board (JEMB), ``Voter Registration 
Analysis: Week Ending 26th February 2004.''
---------------------------------------------------------------------------
    The first phase of registration has been limited to the eight major 
urban centres and has included a civic education campaign supported by 
the International Foundation for Election Systems (IFES) and aimed at 
government employees. Plans to carry out an accelerated three-week 
registration drive during May, with a goal of registering 6.5 million 
voters, were shelved in late March due to delays in appointing 
qualified local staff and obtaining registration kits and to allow for 
prior civic education efforts in rural areas. Postponement of the 
elections to September will, according to election officers, compensate 
by allowing additional time for registration. To address regional 
disparities in both absolute numbers and women registered, an elections 
officer told ICG, there have been efforts to mobilise traditional 
elements, such as elders in Khost, and clerics. The latter issued a 
resolution in Kandahar that addressed in part the need to register 
women voters.\22\
---------------------------------------------------------------------------
    \22\ ICG interview, Kabul, 13 March 2004.
---------------------------------------------------------------------------
    Afghanistan's new constitution recognises the right to form 
political parties, but with certain qualifications. A welcome 
restriction, reflected as well in the law on political parties, 
prohibits the participation of parties that have ``military or 
paramilitary aims and structures.'' Other provisions, however, act as 
barriers to free association by barring the formation of parties whose 
charters are ``contrary to the principles of [the] sacred religion of 
Islam'' or that are based on ethnicity, language, religious sect or 
region.\23\ Some authorities have defined fundamental principles of 
Islam to include any principle agreed upon by the major schools of 
jurisprudence (fiqh); a party whose charter calls for full equality 
before the law of women and men could by this reasoning be defined as 
contrary to Islamic principles. Prohibiting the registration of ethnic 
parties could limit the ability of ethnic groups to seek redress for 
perceived injustice or discrimination through the electoral process or 
to articulate and advance the demands and interests of their 
communities.
---------------------------------------------------------------------------
    \23\ Constitution of Afghanistan, Article 35.
---------------------------------------------------------------------------
    To date, 27 political parties, including both mujahidin factions 
and non-militarised parties established after the collapse of the 
Taliban, have applied for registration at the justice ministry's Office 
for Coordination and Registration of Political Parties and Social 
Organisations. Five have been registered,\24\ while eight have 
completed the registration process and are awaiting screening for 
compliance with the constitution and the political parties law by the 
ministries of interior, defence, and finance, the National Security 
Directorate (NSD), and the Japanese Embassy, acting on behalf of the DR 
program. Many observers believe the registration process has been slow 
and may minimise the potential for non-militarised political parties to 
participate actively in the upcoming elections.
---------------------------------------------------------------------------
    \24\ The following political parties have been registered as of 25 
March 2004:
      <bullet> Republican Party of Afghanistan, led by Sebghatullah 
Sanjar, a 36-year-old former member of the Emergency Loya Jirga 
Commission with a degree in political science from Kabul University.
      <bullet> National Unity Movement, led by Sultan Mahmud Ghazi, a 
cousin of the former Afghan King Muhammad Zahir. The formerly royalist 
party has been supporting President Karzai since the Constitutional 
Loya Jirga.
      <bullet> Party of National Solidarity of Youth of Afghanistan, 
led by Muhammad Jamil Karzai.
      <bullet> Party of Islamic Independence of Afghanistan, led by 
Faruq Najrabi.
      <bullet> Party of National Unity of Afghanistan, led by 
Abdurrashid Jalili, a former member of the Khalq faction of the 
communist People's Democratic Party of Afghanistan. ICG interviews, 
Kabul, 25-26 March 2004.
---------------------------------------------------------------------------
    A ministry of justice official told ICG that most of the new 
political parties have been unable to meet the criteria specified in 
the law and that some have failed to furnish a list of 700 members, the 
minimum required to form a political party. Independent observers 
identified other bottlenecks, including administrative difficulties in 
getting the ministerial and NSD members of a review committee to 
convene. According to the official, a permanent committee is now being 
constituted with secondments from each of the concerned ministries and 
the NSD, in the hope of expediting the review process. USAID is helping 
to identify space for the registration office, which is currently very 
limited.
    The Kabul-based Republican Party of Afghanistan, led by a liberal 
former Emergency Loya Jirga commissioner, Sebghatullah Sanjar, was the 
first to be registered. Though the process took two months, Sanjar 
holds a benign view: ``They [the justice ministry] carefully assessed 
our applications and copies of the national ID cards of our members to 
make sure one person was not a member of more than one party at the 
same time. These types of inquiries are good and right indeed. We 
believe in both lawfulness and political pluralism.'' \25\
---------------------------------------------------------------------------
    \25\ ICG interview with Sebghatullah Sanjar, Republican Party of 
Afghanistan, 14 March 2004.
---------------------------------------------------------------------------
    The obstacles encountered by the United National Party (UNP), 
formed by former members of the Parcham faction of the communist 
People's Democratic Party of Afghanistan (PDPA), point to serious 
weaknesses in the registration process, however. According to a party 
member, the UNP was the first to submit a complete application but has 
yet to be registered. ``Apparently, the minister [Abdul Rahim Karimi] 
is under pressure by fundamentalist mujahidin such as Shinwari, Sayyaf, 
Rabbani and Asif Muhsini, not to register our party,'' the party member 
said. ``During a meeting with us the minister acknowledged that he is 
under pressure.'' \26\ These allegations, which have also been related 
to ICG by international observers, are significant not only because the 
former Parchamis have a large national constituency, particularly among 
the professional classes in urban areas, but also because the stigma of 
being former communists can and has been used against other socially 
liberal political actors.
---------------------------------------------------------------------------
    \26\ ICG interview with a United National Party member, 13 March 
2004.
---------------------------------------------------------------------------
    Though very few mujahidin parties have yet applied for 
registration,\27\ some are in the process of establishing front parties 
and nominating new leaders in an attempt to circumvent a prohibition in 
the law of parties that maintain armed forces. Sayyaf's Ittihad-I 
Islami faction, for example, has been recently reconstituted as Dawat-i 
Islami with his deputy, Ahmad Shah Ahmadzai, formally assuming 
leadership of the party. Enforcing the intent of the political parties 
law will, in the current security environment, pose a challenge for the 
registration office.\28\ The likely influence of powerful 
fundamentalists on the registration process, the relative vulnerability 
of Minister Karimi, an Islamic law professor from Takhar who lacks an 
independent power base, and the administrative obstacles would argue 
for including on the permanent review committee a member of the Afghan 
Independent Human Rights Commission and, for this election, UNAMA.
---------------------------------------------------------------------------
    \27\ Those that have applied include Jamiat-i Islami, led by former 
President Burhanuddin Rabbani.
    \28\ ICG interviews, Kabul, 25-26 March 2004.
---------------------------------------------------------------------------
    Likewise, maintaining the independence and effectiveness of the 
JEMB and the election secretariat is vital to the process. Both non-
militarised parties and international observers have questioned the 
effectiveness of the Afghans whom President Karzai appointed to the 
JEMB. ``The formation of the election commission [JEMB] has been 
entirely based on the relationship of the officials with different 
individuals,'' said the UNP member. ``They have not considered the 
qualifications and competencies of the people they have appointed 
there.'' \29\ That sentiment was echoed as well by Sanjar, who 
maintained, ``The election commission lacks adequate experienced and 
competent staff to carry out an effective registration process.'' \30\
---------------------------------------------------------------------------
    \29\ Ibid.
    \30\ ICG interview with Sebghatullah Sanjar, Republican Party of 
Afghanistan, 14 March 2004.
---------------------------------------------------------------------------
    The objectivity of a panel whose composition is determined or 
unduly influenced by the president, who is himself a candidate, will 
inevitably be disputed. The constitution mandates establishment of an 
independent electoral commission by the Transitional Administration; 
this should be treated as a priority, with criteria for membership 
defined beforehand and approval required by the cabinet and the Afghan 
Independent Human Rights Commission.
    The main obstacle faced by non-militarised parties and genuinely 
independent candidates, however, is the lack of adequate security 
assurances. ``Young parties like ours won't be able to take part in the 
election if ISAF is not expanded to ensure our security outside 
Kabul,'' Sanjar said. ``Obviously, we can't compete with provincial 
governors who have guns and all [other] resources under their 
control.''
    Current plans call for the creation of a security ring around voter 
registration sites, with successive zones of authority patrolled in 
turn by trained police, the Afghan National Army, and either a 
Coalition or ISAF quick-reaction force, with medevac, intelligence, and 
logistics capabilities.\31\ All three elements of this security 
arrangement are tenuous propositions, however. Training for police 
officers in the German-administered Police Academy in Kabul and 
constables in the seven U.S.-supported regional training centres 
established since November 2003 will not keep pace with the numbers 
required for election security. The interior ministry is accordingly 
attempting to expedite the deployment of 30,000 police for the 
elections through a ``train the trainers'' program,\32\ a task that 
should be measured against the three-year timetable intended for 
training 50,000 constables and 12,000 border guards in the regional 
training centres.\33\ The ANA, as mentioned earlier, has problems of 
attrition and is stretched by its current deployments as presidential 
guard, in counterinsurgency operations in the south east, and since 
mid-March, in Herat, following armed clashes between forces loyal to 
provincial governor Ismail Khan and the Kabul-backed 17th Division.
---------------------------------------------------------------------------
    \31\ ICG interview, Kabul, 9 March 2004.
    \32\ ICG interview with a diplomat in Kabul, 25 March 2004.
    \33\ See Mark Sedra, ``National Police and Law Enforcement: 
Technical Annex,'' in ``Securing Afghanistan's Future,'' op. cit.
---------------------------------------------------------------------------
    While the planned measures may well reduce the potential for 
interference during the voting itself, security during the campaign 
will be contingent on the extent to which DR has been carried out and 
international security arrangements extended beyond the capital. At 
present, NATO has command over both the ISAF contingent in Kabul and 
the German-led Provincial Reconstruction Team (PRT) in Kunduz. Its 
planners hope to complete the first of a four-phase NATO expansion 
across the country with new PRTs in Maimana and Faizabad by June 2004. 
This would be substantially later than conceived when NATO ministers 
approved ISAF expansion in October 2003.\34\ At this time, the British-
led PRT in Mazar-i Sharif and possibly the New Zealand-led PRT in 
Bamiyan would come under NATO authority.\35\
---------------------------------------------------------------------------
    \34\ ICG interview, November 2003.
    \35\ An alternative proposal is to establish satellite missions in 
Faizabad and Baghlan, linked to the PRT in Kunduz.
---------------------------------------------------------------------------
    Phase two of the NATO expansion should be concluded by September. 
This entails new PRTs in the towns of Chagcharan, Qala-i Nau, and Farah 
and assuming command over the existing PRT in Herat (currently U.S.-led 
but expected to be taken over by a European country, an arrangement 
that may be reviewed in light of the internal armed conflict in Herat 
in late March and the subsequent deployment there of 1,500 ANA troops). 
Current and planned PRTs across virtually the entire Pashtun belt, 
extending from Kunar province up to the border of Farah province, will 
be under the authority of the U.S.-led Coalition and be staffed by U.S. 
army personnel. Though these eastern and southern regions are due to be 
covered during phases three and four of the NATO expansion, target 
dates have not been identified.\36\
---------------------------------------------------------------------------
    \36\ Ibid.
---------------------------------------------------------------------------
    The approach taken by Britain in Mazar-i Sharif, and intended to be 
echoed by a joint Nordic PRT,\37\ involves an explicit focus on 
security, including patrols, support for security sector reform, and 
the maintaining of small detachments in neighbouring provinces. If 
additional PRTs along this model are established in the northern and 
north eastern provinces by June,\38\ they may indeed have a positive 
impact on security during the election campaign, even if their presence 
would be insufficient to guard against intimidation and election-
related violence in outlying areas. (Phase two of the PRT expansion is 
unlikely to have a comparable impact on election security unless it is 
completed well before September). However, the emphasis on 
reconstruction projects by the U.S.-led PRTs, together with the 
diminished staffing levels that are reportedly accompanying their 
expansion,\39\ will do little to promote security in the southern and 
eastern provinces during the run up to elections. ``It's a hearts and 
minds campaign for Americans, not for Afghans,'' a Kabul-based diplomat 
said of the Coalition PRTs.\40\
---------------------------------------------------------------------------
    \37\ ICG interviews with a diplomat in Kabul, 16 and 25 March 2004. 
See also Nahim Qadery, ``Scandinavians to send troops: Swedish 
ambassador visits northern Afghanistan ahead of expected troop 
deployment,'' Institute for War and Peace Reporting (IWPR), Afghan 
Recovery Report, No. 112, 26 March 2004. The report cites Swedish 
ambassador Ann Wilkens as saying that Norway and Sweden plan to 
contribute a combined force of 60 to 80 soldiers to the British-led PRT 
in Mazar-i Sharif, in May or June 2004.
    \38\ See comments by Gen. James Jones, NATO Supreme Allied 
Commander, in ``NATO ready to take wider role in Afghanistan Command 
Structure,'' Financial Times, 11 March 2004.
    \39\ As one international observer put it, ``the Coalition is 
doubling [the number of] PRTs by halving the number of people.'' ICG 
interview, March 2004.
    \40\ Ibid.
---------------------------------------------------------------------------
    UNAMA has defined a series of benchmarks that will have to be met 
prior to elections if they are to be considered free and fair. These 
have received the backing of the main diplomatic envoys to Afghanistan. 
Security figures prominently among these benchmarks, with stipulations 
that include:

        . . . a vigorous [DR] program aiming at the cantonment of 100 
        per cent of heavy weapons and the demobilisation and 
        reintegration of no less than 40 per cent of the AMF troop 
        strength, . . . [and] promoting the deployment by NATO and the 
        Coalition of international military forces, both static and 
        mobile, in numbers large enough to assist effectively domestic 
        security forces in the protection of the electoral process 
        against extremists' attacks and factional intimidation and 
        interference.\41\
---------------------------------------------------------------------------
    \41\ See UNAMA, ``Holding a Free and Fair Election in Afghanistan'' 
[undated].

    The international community should treat these recommendations as 
binding, and elections should be held only when the necessary measures 
have been implemented.
IV. EMERGING POLITICAL FAULT LINES
    The signal event during the Constitutional Loya Jirga was the 
consolidation of Pashtun delegates behind President Karzai, which 
ensured the retention in the draft of a strong presidency. Rather than 
representing a spontaneous development, this consolidation appears to 
have been the outcome of concerted lobbying by Karzai's principal 
advisers and allies, including his brothers Qayyum and Ahmad Wali 
Karzai and certain high-level Pashtun officials in the central 
government. The decision by the pro-Karzai camp to cultivate an ethnic 
support base had a profound impact upon the delegates, whose debates 
over such critical issues as the extent of presidential powers and the 
status of minority languages split decisively along Pashtun and non-
Pashtun lines. An alternative strategy, which would have required a 
greater willingness to limit presidential powers in the constitution 
and correspondingly strengthen those of parliament, could have avoided 
this polarisation and helped maintain the president's standing as a 
national figure.
    An important element of the pro-Karzai camp's strategy was to 
secure the support of Pashtun mujahidin, formerly associated with the 
Hizb-i Islami factions led by Gulbuddin Hikmatyar and Yunis Khalis, as 
well as Sayyaf's Ittihad-i Islami. The incorporation of former Hizb-i 
Islami personalities into the government has accelerated since the 
Constitutional Loya Jirga, an indication that the support extended to 
Karzai by the party's erstwhile members may be more than a short-term 
alliance.\42\ Sayyaf, while promoting a more radically Islamic agenda 
than that reflected in the draft constitution, was relatively muted in 
his protests when his party's proposals were rejected and is reported 
to have played a conciliatory role during disputes over the draft.
---------------------------------------------------------------------------
    \42\ In the weeks since the Constitutional Loya Jirga, the 
president has appointed a number of former Hizb-i Islami (Hikmatyar) 
commanders and political figures to high-level posts, including Bashir 
Baghlani as governor of Farah, Khyal Mohammad as governor of Zabul, and 
Sabawoon as minister-adviser in the Ministry of Border and Tribal 
Affairs.
---------------------------------------------------------------------------
    Simultaneously, most delegates from the royalist National Unity 
Movement, a mainly Pashtun party with considerable strength in southern 
and eastern Afghanistan, abandoned their support for a parliamentary 
system during the Constitutional Loya Jirga and threw their weight 
behind Karzai. This shift was due in part to pressure exerted upon them 
during the delegate elections. According to a royalist leader, party 
members in Oruzgan province were threatened with arbitrary detention by 
provincial officials if they did not support candidates favouring a 
presidential system. But the decisive factor appears to have been 
pragmatism. ``We want to support Karzai because he is the person the 
U.S. and the West have confidence in,'' the same leader said. ``Without 
the support of Western countries, we can't protect our [country's] 
independence.'' \43\
---------------------------------------------------------------------------
    \43\ ICG interview with a royalist party leader, Kabul, 11 January 
2004.
---------------------------------------------------------------------------
    That the President's camp chose to focus its attention on Pashtun 
delegates was not in and of itself surprising. Support for a 
centralised, presidential form of government is considerably weaker in 
the north, particularly among Hazaras and Uzbeks, who have rarely held 
positions of leadership at the centre. In addition, Pashtun delegates 
had felt themselves marginalised during the Emergency Loya Jirga in 
June 2002, when Tajiks associated with the dominant Shura-yi Nazar 
faction had leveraged their control of key security institutions to 
confirm their positions in the cabinet. The Constitutional Loya Jirga 
offered them an opportunity to redress those grievances, particularly 
with a dominant Pashtun presence in the Constitutional Commission's 
secretariat and the exclusion of the Panjshiri-dominated National 
Security Directorate from the Loya Jirga compound.
    Since the Emergency Loya Jirga, Shura-yi Nazar has succumbed to 
sharp internal rifts, with Vice President and Defence Minister Fahim 
now seen to be supporting Karzai, a decision likely informed by his 
expectation that the president will name him as his running mate during 
the presidential election. The mantle of challenging Karzai has been 
taken up Ahmad Wali Massoud, Afghan ambassador to the United Kingdom 
and brother of the late Panjshiri commander Ahmad Shah Massoud; Hafiz 
Mansour, the editor of the weekly newspaper, Payam-i Mujahid; Mohiuddin 
Mahdi of Nazhat-i Milli, and other non-military figures associated with 
the former United Front.
    They have approached Abdul Rashid Dostum's Junbish-i Milli-yi 
Islami, Herat governor Ismail Khan, the Shia parties Hizb-i Wahdat and 
Harakat-i Islami and a few minor parties in the hope of forming a 
``Front for Justice and Democracy'' that would field a common candidate 
during the presidential election. This front would campaign around a 
limited set of objectives: proportional representation in parliament 
based upon a new census, direct election of provincial governors, and 
repeal of all changes made to the text of the constitution following 
the conclusion of the Constitutional Loya Jirga.\44\
---------------------------------------------------------------------------
    \44\ ICG interview with Mohiuddin Mahdi, Nazhat-i Milli, Kabul, 13 
March 2004. The organisers of the front would object particularly to 
the current text of Article 64 (2). The Dari and Pashto texts approved 
by the Constitutional Loya Jirga stated that the president's power 
included ``determining basic policies of the state with the approval 
(taswib)'' of the parliament. The published Dari and Pashto texts of 
the constitution replaced taswib with taid, a word meaning 
``confirmation.'' According to Front organiser Hafiz Mansour, taid does 
not include the right to reject, and was introduced in the text to 
weaken the parliament further.
---------------------------------------------------------------------------
    The chief limitation facing its organisers at present is the lack 
of firm support from a major regional commander--a circumstance one 
ascribed to the militia leaders' opportunism. ``The commanders are 
supporting those who are supporting them, who have confirmed them in 
their posts, who are paying them,'' he said.\45\ Although the proposed 
front's leaders claim to be building a national alliance, their 
concerns and appeals are clearly regional and ethnic in nature. In 
early January, one privately speculated that the pro-Karzai camp's 
cultivation of Pashtun support during the Constitutional Loya Jirga 
reflected a ``strategic imperative for Karzai and those around him to 
restore Pashtun hegemony.'' \46\
---------------------------------------------------------------------------
    \45\ ICG interview, Kabul, March 2004.
    \46\ ICG interview, Kabul, 8 January.
---------------------------------------------------------------------------
    The removal on 7 March 2004 of Haji Mohammad Mohaqqeq, a 
presidential candidate and former leader of the Hizb-i Wahdat forces in 
northern Afghanistan, as planning minister illustrated the continued 
sensitivity of ethnic representation at the centre. In a press 
conference the following day, Mohaqqeq accused Karzai of firing him 
during a cabinet meeting for criticising a decision to transfer some of 
his ministry's powers to Finance Minister Ashraf Ghani, an ethnic 
Pashtun, and in retaliation for announcing his intention to run for 
president.\47\
---------------------------------------------------------------------------
    \47\ Karzai's spokesperson, Jawed Ludin, claimed that Mohaqqeq had 
resigned following a dispute with the president during a cabinet 
meeting. Amin Tarzi, ``Dispute Erupts Over Afghan Minister's Purported 
Resignation,'' Radio Free Europe/Radio Liberty, 11 March 2004.
---------------------------------------------------------------------------
    Although Mohaqqeq had been widely considered an ineffective 
minister, he frequently spoke in the name of the Hazara community. In 
announcing his presidential candidacy, he said he was doing so to 
demonstrate that a Hazara could run for the highest office.\48\ His 
dismissal less than two months after the declaration of that candidacy 
prompted Hizb-i Wahdat leaders in Mazar-i Sharif to organise a 2,000-
strong demonstration against Karzai on 12 March 2004.\49\ In informal 
conversations, ICG found that there was also great resentment among 
ordinary Hazaras in Kabul toward Karzai and his perceived ally, the 
Hazara Vice President Karim Khalili. The circumstances surrounding 
Mohaqqeq's dismissal are thus likely, in the short term at least, to 
enhance his standing among Hazaras and diminish Karzai's credibility.
---------------------------------------------------------------------------
    \48\ Hizb-e-Wahdat Islami Afghanistan Political Committee, ``Press 
Release: Ustad Mohaqiq will run for president of Afghanistan,'' 20 
January 2004.
    \49\ Nahim Qadery and Sayed Yaqub Ibrahimi, ``Street Protests After 
Minister's Removal: Demonstrators in northern city demand reinstatement 
of leading Hazara minister,'' Institute for War and Peace Reporting 
(IWPR), Afghan Recovery Report No. 110, 17 March 2004.
---------------------------------------------------------------------------
V. CONCLUSION
    Political reconstruction in Afghanistan has frequently been equated 
with the extension of the central government's authority. Less 
attention has been paid to the development of democratic norms. The 
country's long-term stability, however, rests on the ability of its 
institutions to accommodate the latter process and to provide channels 
through which the various components of Afghan society can find 
political expression. The debates during the Constitutional Loya Jirga 
on the relative powers of the president and parliament, as well as 
symbols of the state such as its national and official languages, 
underscore the imperative of accommodating these competing interests. 
But democratic institutions can only develop in an environment that 
allows open discussion about governance, something that continues to 
elude Afghanistan more than two years after the signing of the Bonn 
Agreement.
    Without a reinvigorated DR process, political and economic life in 
both the centre and the provinces will continue to be dominated by the 
gun or the shadow of the gun. Elections under the prevailing conditions 
will only confirm this reality--something that is understood by the 
commanders who control the ministry of defence and have steadfastly 
resisted efforts to dismantle their militias. The limits of the present 
DR process should now be evident: unless the authority responsible for 
DR, namely the ANBP, is backed by a credible deterrent, there will be 
no incentive for commanders to surrender the bases of their political 
and economic influence. That deterrent could be provided through NATO, 
the Coalition, or a combination of the two, but neither force is 
present in sufficient strength to project its authority over the larger 
part of the country or considers that it is presently mandated to take 
part in DR.
    NATO's planned four-phase expansion across Afghanistan provides a 
framework within which to create an interim security regime that would 
enable DR and facilitate the rebuilding of Afghanistan's own security 
institutions. But NATO's appeal to member states to contribute a modest 
three battalions in the north to cover the first two phases of that 
expansion has yet to result in a single firm commitment. This limited 
first step must be taken very quickly if the near-term objective of 
defensibly free and fair elections and the longer-term administrative 
and security sector reforms proposed by the central government are to 
be realised.\50\ The alternative would be continued accommodation of, 
and reliance upon, militia commanders by the central government and the 
surrendering of reforms.
---------------------------------------------------------------------------
    \50\ Early realisation of the NATO plan for two forward bases in 
Mazar and Herat with distinct 1,000-strong rapid reaction forces would 
also be highly desirable. ``NATO gets aggressive on forces for 
Afghanistan,'' Reuters, 10 March 2004. Also ICG interview, Washington 
DC, March 2004.
---------------------------------------------------------------------------
    The poor integration of Coalition counter-terrorism strategy with 
the Bonn political process needs to be replaced by far closer 
coordination between the two. The establishment of an Afghanistan Guard 
Force without a DR plan or apparently even consideration of its 
potential impact on the ANBP and on political stability is a glaring 
illustration of the extent to which military planning is proceeding in 
isolation from the Bonn process. Donor states, even as they commit with 
their checkbooks during the Berlin Conference to helping Afghanistan 
over the long haul, should make it an urgent priority to harmonise 
these disparate elements by promoting transparency and consultation 
between military and political planners. Kabul/Brussels, 30 March 2004

                               __________

 Additional Material Submitted by the United States Institute of Peace

                                 ______
                                 
              establishing the rule of law in afghanistan
                                briefly
  <bullet> In most of Afghanistan, the rule of law has never been 
        strong, but after 23 years of warfare it has been displaced 
        almost completely by the ``rule of the gun.'' In most of the 
        country, regional power-holders, whether they hold official 
        positions or not, effectively exercise political, police and 
        judicial authority through their control of militia forces.

  <bullet> The justice system and law enforcement suffer from a very 
        low level of human resource and physical infrastructure 
        capacity. In addition, the discontinuity of regimes over the 
        last quarter century has left a patchwork of differing and 
        overlapping laws, and an incoherent collection of security 
        structures. Rebuilding and reform will require the commitment 
        of Afghan authorities and foreign donors over a long haul.

  <bullet> No national civilian police force yet exists in Afghanistan. 
        The approximately 50,000 men working as police are generally 
        untrained, ill-equipped, poorly paid, and illiterate, and they 
        owe their allegiance to local warlords and militia commanders 
        rather than to the central government. U.S. and German police 
        training programs have begun efforts to shape a national force. 
        From July 2003 through 2005, the United States plans to conduct 
        in-service training for 50,000 police in Kabul and at regional 
        centers. Germany will train a much smaller number of officers 
        in a more comprehensive program at a reconstructed Police 
        Academy in Kabul. No efforts appear underway to reform the 
        parallel and secretive intelligence police under the control of 
        the National Security Directorate.

  <bullet> Though Afghan and international officials often refer to 
        rule of law development as a high priority, the necessary 
        measures are not being treated with urgency, except for police 
        training. In the justice sector, no strategy has been agreed 
        upon for the reform and rebuilding process. Donors have left 
        this task largely to ``lead nation'' Italy, whose performance 
        and approach is seen by other donors and Afghan officials and 
        observers as more narrowly focused. Fractious relations among 
        the Afghan stakeholder institutions and the inability of the 
        Judicial Reform Commission to play the coordinating and 
        facilitating role envisioned for it have hobbled the process.

  <bullet> Some progress has been made in law reform, some legal 
        training programs are underway, and a minimal amount of 
        infrastructure repair has been performed. Virtually nothing has 
        been done to update the court structure, establish and apply 
        qualifications for judicial personnel (Afghan legal experts 
        consider many judges to be unqualified), ensure widespread 
        access to legal texts for practitioners and students, develop 
        court administration, improve the poor quality of legal 
        education, or address deep-rooted corruption. Defense attorneys 
        are essentially unheard of. The vast needs for improvement in 
        the corrections system have been almost entirely ignored.

  <bullet> The burgeoning narcotics trade presents a fundamental 
        challenge to the future of Afghanistan, and specifically to 
        efforts to develop a culture of rule of law. The trade earns 
        Afghan traffickers an amount equal to half the country's 
        legitimate GDP and nearly five times the government's budget. 
        Nearly all elements of local and regional power structures use 
        the proceeds from trafficking to fund their activities and 
        maintain their independence from the central government. Though 
        important steps have been taken to create a legal and 
        institutional framework for counter-narcotics work, it will be 
        years before the Afghan government has an operational capacity 
        robust enough to put a dent in the narcotics trade. Unless 
        U.S.-led Coalition military forces become willing to undertake 
        at least some counter-narcotics actions, traffickers will 
        continue to operate with utter impunity, and the perceived 
        message of tolerance of this activity will continue to 
        undermine efforts to build the rule of law.

  <bullet> Warlordism--control of local populations through force and 
        intimidation by provincial governors, militia commanders, 
        police chiefs, and other power-holders--continues to 
        destabilize Afghanistan and impede reform of justice and law 
        enforcement institutions. The most powerful warlords continue 
        to exercise influence over key ministries and institutions 
        including the judiciary.

  <bullet> The slow pace of efforts to establish the rule of law has 
        resulted in part from the inherent difficulties of conducting a 
        post-conflict reconstruction operation in a country that has 
        suffered over two decades of modern warfare. But it is also a 
        consequence of the decision of the United States and United 
        Nations to limit the international presence and to place 
        primary responsibility upon the Afghans for providing their own 
        security and directing their own reconstruction--
        responsibilities they have had little capacity to execute.

  <bullet> A corollary to the UN's ``light footprint'' approach has 
        been to assign certain donors ``lead nation'' responsibility 
        for particular sectors. In the rule of law area, this has not 
        worked well. The United States already has significantly 
        augmented ``lead nation'' Germany's efforts in police training, 
        putting in place a much larger program. A similar recognition 
        is needed that greater international leadership and political 
        attention from a broader array of donors is required in the 
        justice sector. At the same time, Afghan authorities should 
        undertake to reform the judicial reform process, either 
        dissolving or significantly enhancing the stature and 
        capabilities of the Judicial Reform Commission.

  <bullet> An integrated, holistic approach to establishing the rule of 
        law is needed. Though significant funds are being put into 
        police training, even a well-trained force will not be able to 
        provide genuine law enforcement if there is no functioning 
        criminal justice system or corrections system in which to place 
        offenders. At best, such a force will be able to provide some 
        public order; at worst, the international community will have 
        enhanced the ability of power-holders to control and abuse the 
        population without creating mechanisms to protect the rights of 
        Afghans. A substantial investment in one area of rule of law 
        will not have a meaningful pay-off in terms of real democratic 
        governance and stability unless other pieces of the puzzle are 
        put in place as well.
                              introduction
    Two years after the fall of the Taliban, Afghanistan is at a 
defining moment concerning its future. The adoption of a new 
Constitution on January 4, 2003, delineated the permanent shape of 
national institutions and set the stage for holding national elections. 
At the same time, security remains an overwhelming concern of Afghans, 
and a desire to get out from under the control of warlords remains 
their primary aspiration. The country faces the combined challenges of 
resurgent terrorism, factional conflict, and rampant narcotics 
production. In the south, U.S.-led Coalition forces are engaged in a 
running fight against al Qaeda remnants along the border with Pakistan 
and against a reconstituted Taliban that retains support among the 
Pashtun majority. In the north, the Afghan government is challenged by 
recurrent armed conflict among regional warlords, and by the refusal of 
provincial governors to turn over revenues to the center. Throughout 
the country, there is a near-explosion in the cultivation of poppy. 
Traditional growing areas have been augmented by vast new areas brought 
under cultivation in the past year. In the absence of disincentives, 
production of opium has returned to record levels and the production of 
refined heroin has expanded, as has local drug consumption. With 
earnings from narcotics amounting to an about half of the country's 
gross domestic product, Afghanistan is in critical danger of becoming a 
``narco-state.''
    In most of Afghanistan, the rule of law has never been strong, but 
after 23 years of warfare, it has been displaced almost completely by 
the ``rule of the gun.'' Moreover, the discontinuity of regimes over 
the last quarter century has resulted in a patchwork of differing and 
overlapping laws, elements of different types of legal systems, and an 
incoherent collection of law enforcement and military structures. 
Provincial governors, militia commanders, police chiefs, and other 
power brokers now exercise control through fear and intimidation, and 
through manipulation of the traditional shuras (village councils). In 
most of the country, regional power holders--whether they hold official 
positions or not--exercise political, police, and judicial authority 
through their control of militia forces. Their activities are financed 
by profits from production and trafficking in opium, and through their 
control of roadblocks on transportation routes at which they exact 
``taxes'' on travelers and commodities.
    In the final days of his tenure, UN Special Representative of the 
Secretary General Lakhdar Brahimi stated at the closing ceremony of the 
Constitutional Loya Jirga (grand assembly) that, ``[t]he people of 
Afghanistan are afraid of the guns that are held by the wrong people 
and used not to defend them and not to wage a jihad, because the time 
for jihad is finished, but to terrorize people, to take advantage for 
their own and the people who are close to them.'' The current year will 
be critical in determining whether Afghanistan will continue its slow 
progress toward representative government, the rule of law, and a 
responsible role in the international community, or whether it will 
lose ground and slide back toward political and religious extremism and 
economic chaos.
                               background
The Transitional Islamic State of Afghanistan
    Following the U.S.-led military operation that ousted the Taliban 
regime in the fall of 2001, the starting point for rebuilding 
Afghanistan was the ``Agreement on Provisional Arrangements in 
Afghanistan Pending Re-establishment of Permanent Institutions''--the 
Bonn Agreement--signed by representatives of the Afghan people on 
December 5, 2001. The Agreement established an Interim Afghan 
Authority, and provided the basis for an interim system of law and 
governance, employing the 1964 Constitution as its foundation. The 
Agreement also laid out a timetable for further steps toward 
establishing a new government, constitution, and ultimately elections. 
The Emergency Loya Jirga of June 2002 installed a Transitional 
Administration, with Hamid Karzai as its president; Karzai later 
appointed a cabinet of four vice-presidents, four special advisors, and 
28 ministers. Karzai's government, through a constitutional commission, 
drafted a new constitution, which was released in early November 2003 
and adopted with amendments by a constitutional Loya Jirga on January 
4, 2004.
Foreign Military Forces
    Annex I of the Bonn Agreement called for the deployment of an 
international military force to maintain security in Kabul, with 
possible expansion to other areas of the country. In response, the UN 
Security Council authorized the creation of an International Security 
Assistance Force (ISAF). ISAF deployed in January 2002, and by summer 
had 5,000 troops from 19 countries. ISAF's responsibility was limited 
to providing security in the capital, where it conducted routine 
patrols with local police. ISAF's purpose was to provide ``breathing 
space'' during which the Afghans could create their own security 
forces. In October 2003, the UN Security Council, responding to 
requests from President Karzai, expanded ISAF's authorized area of 
operations to include all of Afghanistan, but did not further define 
ISAF's mandate. NATO, now in command of ISAF, so far has been unable to 
generate the forces needed for a significant expansion.
    ISAF operates separately from ``Operation Enduring Freedom'' (OEF), 
the U.S.-led military mission focused on destroying the remnants of the 
Taliban and al Qaeda. With 11,500 troops participating, OEF is the most 
potent military force in Afghanistan. While OEF does not conduct 
peacekeeping activities, it has occasionally engaged in settling 
disputes between warlords, usually by dispensing cash or issuing veiled 
threats of force. OEF forces have not taken action against narcotics 
traffickers or supported law enforcement.
    In Spring 2003, the Pentagon responded to the continuing 
deterioration of the security situation in Afghanistan by authorizing a 
somewhat greater involvement in civil affairs and reconstruction by 
U.S. military forces. American troops began providing humanitarian 
assistance and took on some road and school construction projects. The 
Defense Department initiated a program to deploy ``Provincial 
Reconstruction Teams'' (PRTs) near major cities throughout Afghanistan. 
The PRTs are designed to provide assistance in rebuilding local 
infrastructure and ensuring local security, but not to perform police 
functions. Of eight PRTs currently operational, one is under NATO 
command (the first NATO presence outside Kabul) and will have up to 240 
personnel, two are 100-person teams commanded by the United Kingdom and 
New Zealand, and the remainder are 30-person U.S. teams commanded by a 
senior U.S. officer and including personnel from Special Forces, Civil 
Affairs, Army engineers, the State Department, USAID, and the U.S. 
Department of Agriculture. The PRTs are the centerpiece of the 
international community's strategy for stabilizing areas outside of 
Kabul and enabling the central government to extend its reach, but 
given their limited number and sizes, some observers have questioned 
their real impact. In some areas, the central government has relied on 
the presence of the PRTs in beginning to remove problematic local 
officials, while not challenging the most powerful warlords.
United Nations Assistance Mission in Afghanistan (UNAMA)
    The UN model for its mission in Afghanistan is vastly different 
from that used in Kosovo and East Timor. In those missions, the UN 
established an interim authority that was responsible for civil 
administration and for guiding the local population toward democratic 
self-government. In Afghanistan, the UN has sought to limit its 
involvement and to encourage Afghans to assume responsibility for their 
own political reconciliation and economic reconstruction. As a 
consequence, the UN mission has limited material resources and no 
operational role with respect to the Afghan police, judicial, or 
corrections systems.
    Under the leadership of Special Representative of the Secretary 
General Brahimi, the UN advocated a ``light footprint,'' a euphemism 
for a minimalist UN mission. The light footprint was publicly advocated 
as a way to ensure space for Afghans to take the leading role in 
rebuilding their country, in contrast to the outsider-dominated 
approaches of the Kosovo and East Timor missions. The main underlying 
rationale, however, was that a light UN footprint would force donor 
nations to accept their responsibility for assisting Afghanistan, 
rather than putting responsibility on the UN and then underfunding the 
mission and blaming it for the resulting failure--as has occurred in 
other circumstances. As part of this approach, certain donors have 
taken on ``lead nation'' responsibility for assistance to particular 
sectors. The ``light footprint'' approach, however, has to some extent 
been reflected in the nature of the international community's 
involvement in Afghanistan more generally. Despite initial promises of 
billions of dollars in foreign largess and a rhetorical commitment not 
to neglect Afghanistan once again, international assistance has been 
characterized by a relatively light wallet. The ``peacekeeping-light'' 
mode is also seen in the international community's approach to ensuring 
internal security and assisting Afghan law enforcement--for example, 
the lack of peacekeeping forces outside of Kabul and the absence of a 
foreign police mission.
      development of the rule of law in post-taliban afghanistan:
                        overview and evaluation
The Justice System
    Afghanistan cannot be said to have a genuine system of justice at 
present. To be sure, there are many appointed judges and prosecutors in 
the country, there are laws on the books, and there are occasional 
trials, but there is no functioning system. Court management is archaic 
or non-existent, central judicial and prosecutorial authorities often 
have no technical means of communicating with colleagues in the 
provinces, and judicial appointments are routinely made on the basis of 
personal or political connections without regard to legal training or 
other qualifications. Moreover, the organization of the judicial 
apparatus fails to comply with existing law in important respects 
(e.g., both the 1964 Constitution--in force until recently--and the new 
Constitution call for a Supreme Court of nine members, but the current 
Chief Justice has added several more justices); judges routinely make 
decisions without reference to written law; there are effectively no 
means of enforcing decisions; and despite a theoretical right to 
counsel, there are virtually no defense lawyers in the country. To a 
great extent, the written law in Afghanistan is not applied--or even 
widely known, including by judges and lawyers. As one senior Afghan 
judicial official put it, Afghanistan ``has many laws, but no 
implementation.'' With apparent good reason, Afghans do not trust the 
judiciary, and avoid recourse to it as much as possible.
    Though Afghan and international officials often refer to rule of 
law development as one of the highest priorities in the reconstruction 
process, the necessary measures are not being treated with urgency 
(other than recently in the police sector). U.S. funding, for example, 
for rule of law activities other than police or counter-narcotics for 
FY 2004 is $10 million in State Department funds, plus some limited 
(but not yet decided) portion of USAID's $54 million in ``democracy and 
governance'' funds for Afghanistan, the majority of which will be used 
for elections support, compared to over $110 million for police 
training. In 2003, the U.S. spent about $13 million on rule of law 
activities other than police, including support for the Judicial 
Reform, Constitutional, and Independent Human Rights Commissions. (As 
insufficient as these amounts are relative to the needs of the Afghan 
justice sector, they make the U.S. the second largest donor to the 
sector.) Money aside, relatively little political attention is being 
paid to the justice sector; the field has been left largely to ``lead 
nation'' Italy, which is widely seen as focused mainly on 
implementation of its own projects, rather than coordination of broader 
efforts. As a consequence, and despite the presence of some Afghan 
officials who are committed to reform, since the fall of the Taliban 
little progress has been made toward building a functioning justice 
system.
    Key issues that need to be addressed in order to turn around this 
situation include a flawed reform process, inadequate international 
capacity and attention, and a desperately low level of Afghan capacity 
in terms of both physical and human resources. The latter--a result of 
23 years of war and a low level of development before that, and a 
limiting factor in every area of Afghanistan's reconstruction--can only 
be addressed over the long haul and through sustained international 
commitment. But the first two obstacles can be addressed in the near 
term.
Institutional Architecture and the Reform Process
    The justice sector in Afghanistan is administratively complex and 
highly factionalized. The three main permanent institutions--the 
Ministry of Justice, the Supreme Court, and the Attorney General's 
office (Saranwali)--are coequal in stature, and for a variety of 
political, personality, and turf-consciousness reasons have fractious 
relations with each other. While police perform a central role in 
criminal justice, the Ministry of Interior has not played an active 
role in the justice rebuilding process. The lack of clear legal 
guidelines regarding proper institutional roles, and the absence of 
steps to provide clarity, has allowed this fractiousness to persist. 
The Judicial Reform Commission (JRC) created under the Bonn Agreement 
to guide the reform and be a facilitator among the permanent 
institutions and between them and the donor community, has instead 
become a fourth faction in the sector. The Italian government operation 
in Kabul, which, as leader of the donor effort, will need to work to 
bridge the differences among the other players, has to an extent become 
a fifth faction, having very difficult relations with its natural 
partner, the JRC, in particular.
    In principle, the JRC should have become the driving force behind 
the reform and reconstruction process in the justice sector. In 
practice, partly as a result of lack of buy-in from the permanent 
institutions, this has not occurred. No consensus has been developed 
regarding the proper role of the JRC--whether it should be a policy 
body or a project implementer, whether it should take a leading role in 
setting the agenda or facilitate support for the priorities of others. 
Moreover, the JRC's efforts have been hampered by lack of resources and 
a sluggish pace of support from UNDP, the main conduit for the JRC's 
funding (of $6 million available for support to the justice sector, 
UNDP had expended only $500,000 as of November 2003). Regardless 
whether the JRC itself is at fault or whether it has been ill-served by 
its partners, it is apparent that the JRC is not performing as 
intended. Meanwhile, building the JRC from scratch has been a major 
task in a resource-poor situation, and has consumed resources and donor 
attention that otherwise could be devoted to building the capacity of 
the permanent institutions. Other than some limited provision of 
equipment and infrastructure repair in Kabul, the permanent 
institutions have received little direct support from foreign donors. A 
reform of the reform process is needed.
    Coupled with these difficulties, the international effort to 
support the justice sector suffers from a lack of strategy and a lack 
of capacity. Other donors have deferred to Italy to develop a strategy, 
but no clear strategy has been coordinated among donors and 
stakeholders. UNAMA in early February 2004 released a ``Proposal for a 
Long-Term Strategic Framework'' that offers its view on priorities for 
improving the justice system, highlighting the need to strengthen 
capacity in the permanent institutions; it remains to be seen whether 
the proposals will be adopted or funded. The Consultative Group (CG) 
for the justice sector--in which Afghan stakeholders and donors are 
supposed to meet to air and address priorities and obstacles--does not 
function, unlike the CGs for some other sectors. Furthermore, the 
justice sector--including infrastructure repair, institutional capacity 
building, training, law reform, and corrections--is relatively lightly 
funded. As of November 2003, according to official Afghan government 
figures, just over $19 million in assistance was ``disbursed'' during 
that year for the justice sector, but with $4.7 million of that amount 
unallocated to any projects (and some of the ``disbursements'' not 
clearly identified and therefore questionable). In addition, key posts 
such as the UNAMA senior rule of law advisor and the UNDP justice 
sector project director have been vacant for many months.
Courts, Judges and Prosecutors
    The nearly uniform view of observers inside and outside the justice 
system in Afghanistan is that the greatest need in building the system 
is to improve the quality of judicial personnel. To some extent, the 
lack of qualified personnel is part of the broad human resource 
capacity deficit plaguing Afghan reconstruction in general. But 
particular to the justice system, many judges appointed in the post-
Taliban period, including some on the Supreme Court, do not have a 
legal education (secular or Shari'a), and have been educated only in 
madrassas. Having little--and in some cases in the provinces no--access 
to legal texts, many judges are unfamiliar with the law and make 
decisions without reference to it. Moreover, corruption in the 
judiciary is considered to be rampant--not surprising in light of 
salaries of about $36 a month. Bribery aside, one senior judicial 
official commented that it is not possible at present to hold judges 
accountable for their conduct because they are under pressure from and 
control of ``commanders.'' Some judges and others report that judges 
assigned to the provinces are able to perform their duties only if they 
are personally in favor with the local power-holder. Corruption and 
pressure from local power-holders is similarly widespread among 
prosecutors.
    Assessing the actual level of activity among judges and prosecutors 
is difficult. Reliable data on caseloads appears to be unavailable. 
Some who have visited courts in the provinces have reported no apparent 
sign of legal proceedings at particular courthouses. According to the 
Attorney General's office, there are 3,274 prosecutors in the country, 
and they are actively prosecuting a variety of criminal cases--murder, 
adultery, rape, and, mostly, theft--with an 85% conviction rate. But, 
though there are 341 prosecutors in Kabul center and the districts of 
Kabul province, there are only 600 persons (``men, women, and 
infants,'' according to the Attorney General's office) in detention in 
Kabul--a small number for a city of over two million persons, and an 
apparently small caseload for the prosecutors.
    In addition to improving the human resource capacity of the 
judiciary, a tremendous need exists to begin the arduous process of 
determining a sound structure for the court system and developing basic 
court management techniques. No work has yet been done to analyze the 
number of judges and courts, and their locations, that makes sense for 
Afghanistan. The current organigram of the judiciary was developed 
haphazardly during the Najibullah and Mujahedeen periods (approximately 
1986-1996) in order to create jobs for people in particular places 
based on political exigencies. Similarly, no work has been done to 
develop a court management system suitable for conditions in the 
country. This should include establishing technical means of 
communication between the central justice authorities and the 
provinces; currently, days, months, or more are required to send or 
receive information.
    In some other post-conflict/transition situations (most notably 
East Germany, and more recently Bosnia and Herzegovina), the problem of 
corrupt and/or inefficient judicial personnel has been handled by 
serving notice to all, allowing them to re-apply, and re-hiring 
selectively. This approach probably is not feasible politically in 
Afghanistan.
    Under the country's current judicial appointment structure, 
improving the quality of judicial personnel will prove difficult. The 
Supreme Court is responsible for administering the entire judiciary, 
and the Chief Justice has authority (nominally as chair of a committee) 
to nominate all judges. The Supreme Court is headed by a Chief Justice 
who is a noted religious conservative originally appointed by the 
``mujahadeen'' government of President Burhanuddin Rabbani and 
reconfirmed by President Karzai. Notably, the Supreme Court has created 
within its administrative structure a ``Fatwa Council'' composed of 
clerics. The Council reviews questions of Islamic law, and has, on its 
own initiative, issued rulings even in matters not actually brought to 
the Supreme Court by any parties. Although the President has the final 
appointment power under the law, President Karzai reportedly has not 
rejected any of Chief Justice Shinwari's judicial nominees, many of 
whom do not meet the education and experience requirements of Afghan 
law. At a February 2003 U.S. Institute of Peace symposium on rule of 
law in Afghanistan, the Afghan participants (including the Minister of 
Justice, JRC chairman, two Supreme Court justices, and other senior 
legal officials) concluded that judicial appointments should be based 
on merit and education, and proposed new minimum qualifications that 
should be established; these recommendations have not been implemented. 
While there are some differences of opinion within the Supreme Court, 
the leadership of the institution is regarded as opposed to any 
consideration of enhancing judicial qualification requirements, purging 
the judiciary of unqualified personnel, or reforming the structure of 
the court system.
    As the centerpiece of their efforts to strengthen the justice 
sector, Italian officials have decided that the most urgent need is to 
extend the justice system to areas of the country where courts 
presently are not functioning. They plan to address this need through a 
focus on selected district (primary) courts. They have developed a new, 
streamlined interim code of criminal procedure, which was promulgated 
into law by Presidential decree in February 2004. This interim code has 
been the subject of some controversy, as it was prepared by Italian 
officials with help from U.S. military lawyers but relatively little 
input or support from the Afghan justice institutions, and was 
reportedly adopted under strong foreign political pressure. The interim 
code officially now replaces the pre-existing code of criminal 
procedure throughout the country.
    The Italian project will focus first on introducing the interim 
code in selected district courts, i.e., those located in provincial 
capital cities, which in theory could also hear cases from other 
districts in the province where courts are not functioning. They plan 
to train an initial corps of 20 judges and 20 prosecutors in this new 
code, after which these persons would be assigned to the selected 
districts. The Italian program will first be implemented in a pilot 
project in Gardez. The remaining districts in which they will pursue 
this effort remain to be identified, as does the number of districts 
they intend to target and over what time period. Italian and Afghan 
officials also need to determine clearly how they will amend or work 
around the existing procedure for appointment and assignment of 
district judges. Some Afghan and foreign observers have expressed 
skepticism regarding this plan, suggesting that an approach that 
focuses on use of a new code in a small number of district level courts 
could produce inconsistency and isolated pockets of administration of 
justice. An alternative strategy would focus on Kabul plus the five 
major provincial capitals (Mazar-i-Sharif, Herat, Jalalabad, Kandahar, 
and Kunduz), and outside of Kabul would focus on the provincial courts 
rather than district (primary) courts. (The provincial courts are 
appellate level, but have some first-instance jurisdiction.) An 
approach that is focused on provincial courts would have a wider 
potential impact than one focused on district courts. Outside of these 
urban centers the population generally relies on and has much greater 
trust in informal systems of dispute resolution (such as decisionmaking 
or mediation by shuras and tribal elders). Inside these centers, the 
traditional, informal systems tend not to function, and the need is 
therefore greater for access to a formal justice process that works. A 
soundly functioning provincial court could provide a check on 
unreformed district courts throughout its jurisdiction.
Defense Attorneys
    Though Afghans have a legal right to defense counsel, defense 
attorneys are virtually unknown in Afghanistan. Even in criminal 
proceedings, defendants are almost never represented by counsel. 
Traditionally, clients have used lawyers for commercial matters, but 
even these could be characterized better as brokers or agents, who, for 
example, handle payments of bribes to judicial officials. A legal aid 
department within the Supreme Court is supposed to provide assistance 
to indigent defendants, but according to multiple sources, the office 
exists in name only. Understanding of the role of defense counsel is 
lacking as well. For example, a senior prosecutorial official said that 
a lawyer is only necessary for a defendant who is not literate. 
Apparently the only work to build defense lawyering capacity is being 
undertaken by a U.S. NGO, the International Legal Foundation, which 
launched a small training program in Kabul in August 2003, and which 
also provides some training through other organizations.
Legal Reform
    Legal reform in Afghanistan has been complicated by lack of clarity 
regarding what laws exist in the country. The Bonn Agreement called for 
existing law, with some exceptions, to continue to apply, but this 
provision ignored the fact that there are significant overlaps and 
contradictions among different laws promulgated during different 
periods. In addition, all existing significant collections of legal 
texts were destroyed during the wars. The International Development Law 
Organization in October 2003 completed a digital chronological 
compilation of Afghan laws going back to the 1920s, but this has not 
yet been indexed or distributed. In 2002, the Institute together with 
the American Bar Association and International Resources Group, 
collected authenticated versions of several key legal codes, and with 
the cooperation of the Ministry of Justice and the U.S. Army, printed 
and distributed 1,000 copies. The U.S. Army delivered most of the 
copies to regional governors.
    While the lack of clarity regarding existing law is likely to 
persist for some time, some progress has meanwhile been made in 
revising laws and writing new ones. According to the Ministry of 
Justice, 12 amended or new laws have been approved by the government as 
of November 2003, and several others are in progress. Many of these are 
focused on commercial law, and other areas related to regulation of the 
economy. In current circumstances, law reform may be the easiest area 
of justice sector development; relatively few resources are required, 
there is no parliament to contend with (laws are adopted by 
Presidential decree after cabinet review), and results can be achieved 
just on paper. The real test of law reform, however, will be whether 
new and improved laws are actually implemented, and in that regard, 
there is so far little change. In order to create a possibility of 
implementation, a system will have to be devised for distributing, and 
providing training regarding, the new and revised laws to judges, 
prosecutors, and legal educators.
Legal Training and Education
    As already noted, improvement of the quality and professionalism of 
judges and prosecutors is the greatest need in the justice sector. 
Legal training and education is fundamental to meeting this need, 
particularly in the current situation where purging unqualified 
personnel is not politically feasible. Both short-term fixes and long-
term investments are needed. Some attention is being paid to the 
former, as several training programs are underway, but no attention is 
yet being paid to the latter, which requires taking steps to improve 
the currently dismal state of university law faculties. Short training 
programs can provide benefits, but major gains in the quality of 
administration of justice can only be achieved if investments are made 
in the preparation of the next generation of legal professionals.
    The largest training program underway for current judges and 
prosecutors is being conducted by the International Development Law 
Organization (IDLO). This program will provide 50 days (300 hours) of 
training to 450 persons over a 16-month period ending in September 
2004. There does not appear to have been any outside evaluation of the 
quality or impact of this training as yet. The professional skill level 
of the participants--even those with 25 or more years of experience--is 
very low. They have no experience in producing written opinions, no 
experience with defense advocates in the courtroom, and are accustomed 
to disposing of issues without any reference to legal texts. Working to 
impart the basic idea of making judicial decisions based on actual law 
has been an important element of the training. Separately, the Judicial 
Reform Commission has initiated a nine-month training program for new 
judges and prosecutors. The first class of 150 students began training 
in 2003 and is still in progress. A common understanding exists that 
responsibility for this program needs to be moved to a permanent 
institution, preferably with creation of a national judicial training 
center, but no concrete steps have yet been taken in this direction.
    The needs of the university law faculties, both secular and 
Shari'a, are huge. These include books (libraries were destroyed and 
students cannot afford their own texts, even when available), 
infrastructure repair, faculty training (most have no more than an 
undergraduate degree), curriculum development, and visiting professors 
from abroad. Virtually no assistance has yet been provided to law 
faculties in Kabul or in provincial capitals.
    One factor limiting opportunities to provide training and 
assistance for law faculties (as well as law reform and other efforts) 
is the lack of trained interpreters and translators who have knowledge 
of legal vocabulary. The dearth of qualified linguists in general is a 
challenge in Afghanistan's reconstruction process, but it is a 
particular problem in justice sector projects where precise use of 
legal terminology is essential. A program to train a cadre of 
individuals in the necessary skills could facilitate the execution of 
many projects.
Customary Law
    Outside of the major cities, village councils or tribal elders have 
for generations played the predominant role in resolving disputes and 
meting out justice. There are indications that this customary system of 
law--which varies in form and substance throughout Afghanistan--has 
been subverted and manipulated by local wartime and current power-
holders, but to what extent and effect has not yet been closely 
examined. Though the issue has not been greatly considered, there 
appears to be broad agreement that legal reform should include limiting 
the authority of customary law mechanisms, particularly in areas of 
criminal justice. Some also believe it will be important to design 
connections between the formal and informal systems, perhaps by 
crafting procedures for courts to confirm results of customary dispute 
settlements. In rural areas for the foreseeable future, fostering the 
informal system will be both more realistic and more sensible in the 
cultural context than trying to push the formal justice system into 
remote areas. In the near term, it will be constructive to study the 
nature and current state of customary law practices in order to provide 
an information base for future action. USIP is currently conducting one 
such study.
Police
    Historically, the police were organized as a quasi-military force 
on the Soviet model with a two-track system of career officers and 
conscripts who chose to serve for two years as police patrolmen rather 
than join the army. During the past decades of conflict there has been 
no national civilian police force in Afghanistan. Though figures are 
uncertain, there are estimated to be about 50,000 men working as 
police, but they are generally untrained, ill-equipped, illiterate (70-
90%), and owe their allegiance to local warlords and militia commanders 
and not to the central government. Many of those serving as police are 
former Mujahedeen who have experienced a lifetime of armed conflict and 
are accustomed to acting with impunity. A few professional police 
officers remain from the Afghan National Police of the Soviet period, 
but these officers have little understanding of the role of police in a 
democratic society. In Kandahar, for example, 120 officers out of 3,000 
police had received some police training, but it was more than a decade 
ago.
    The Bonn Agreement provided for the creation of an Interior 
Ministry responsible for police and corrections. The border police were 
transferred to the Ministry of Defense in January 2002, and 
responsibility for corrections was moved to the Ministry of Justice 
during 2003. The Kabul police have cooperated with ISAF and helped 
reduce the number of armed militia fighters in the city.
    In addition to a lack of training and questionable loyalty, the 
Afghan police suffer from a lack of uniforms, inadequate equipment and 
transportation, dilapidated facilities, and little or no pay. The UN-
administered Law and Order Trust Fund, established in 2002, has 
received only $11.2 million of the $65 million requested for two years. 
Failure of the international community to provide the required funding 
means that the central government lacks the resources to fund the 
police outside of the capital, and thus the ability to reduce the 
influence of regional leaders. Even within Kabul, as of November 2003, 
police had not been paid since May 2003. Low or no pay has resulted in 
widespread corruption, further undermining public confidence in police, 
who are generally regarded with a mixture of fear and disdain.
    For purposes of creating a capacity to handle internal security, 
Afghan authorities and the international community determined that it 
would be more cost-effective to focus on training and equipping a 
national police force than a national army. Given Afghanistan's size 
and population, creating a national police force represented a far 
greater challenge than any police-related program the international 
community has ever attempted. At the request of the UN and the Interim 
Authority, Germany assumed responsibility as ``lead nation'' for 
training and equipping the Afghan police. This request was based upon 
the Afghans' positive experiences with German police assistance 
programs prior to the Soviet intervention. Germany's goal was to create 
an ethnically balanced force that was familiar with human rights 
standards and modern police methods and capable of assisting with the 
country's transition to democracy.
    Germany developed an initial plan for police training and announced 
the commitment of $70 million toward renovating the police academy in 
Kabul, providing 11 police instructors, refurbishing Kabul police 
stations, and donating 50 police vehicles. The first team of 14 German 
police advisors arrived in Kabul on March 16 and the German 
Coordination Office was opened on March 18, 2002. The Coordination 
Office advised the Interim Authority on police training and reform and 
supervised the reconstruction of the Police Academy that formally 
reopened on August 22, 2002, with 1,500 cadets in residence. The 
Academy provides a five-year recruit training course for officers and a 
three-month recruit course for non-commissioned officers.
    In November 2003, the Academy had 1,000 officer cadets and 500 non-
commissioned officers in residence. Education requirements for 
admission were 12 years for officers and six years for non-commissioned 
officers. The student body was composed of 60 percent Pashtuns, 30 
percent Uzbeks and 10 percent others. Students came from 26 provinces, 
but most were from the Kabul area. Only 11 members of the officer class 
and 22 members of the non-commissioned officer class were women. 
Germany accepted responsibility for training an Afghan border patrol as 
well, but as of November 2003 had trained only 125 officers, who serve 
as guards and immigration inspectors at the Kabul international 
airport. The future of the new border police is dependent upon the 
central government's ability to remove the local commanders and heavily 
armed military forces that now control the border and the smuggling of 
drugs and other contraband across it.
    In 2003, the U.S. State Department established a police assistance 
program to provide in-service training for currently serving Afghan 
police in Kabul. There are three American and six international 
instructors, plus Afghan staff. When fully operational, the facility 
will graduate 700 police officers every eight weeks. The U.S. program 
aims to train 7,000 police, including 3,000 officers and 4,000 
patrolmen, for Kabul. Students in the U.S. program are selected by the 
Interior Ministry, and are not vetted by U.S. program administrators. 
The program offers the following basic courses that the U.S. has 
provided in other post-conflict situations, such as Kosovo and Bosnia:


  <bullet> Transitional Policing (policing in a democracy for officers) 
        2 weeks

  <bullet> Basic Police Skills (for NCOs and patrolmen) 8 weeks

  <bullet> Instructor Development 2-4 weeks

    The Kabul site will be a prototype for seven regional training 
centers that will be located around the country and staffed by 
international and Afghan instructors. The U.S. expects to train 50,000 
police by 2005. The regional sites will be co-located with the 
Provincial Reconstruction Teams, but will be larger in size, housing up 
to 500 students and trainers. The U.S. Congress has provided $110 
million in funding for this program.
Corrections
    Typical for a post-conflict reconstruction situation, the 
corrections system in Afghanistan is the neglected step-child of 
justice sector reform. Though corrections nominally falls within 
Italy's lead, it has paid limited attention to this area and other 
donors have paid none. Afghan authorities also have applied few 
resources to address the huge needs of the prison system.
    Except for a few limited NGO projects, the UN Office of Drugs and 
Crime (UNODC) is the only organization working on prison and jail 
improvement projects in Afghanistan. UNODC is currently spending $2 
million provided by the Italian government over two years on very basic 
renovation (e.g., water, sanitation, kitchens) of the male and female 
detention centers in Kabul and three cellblocks of the Pul-e-Charki 
prison outside Kabul, and limited training of administrative staff in 
the Ministry of Justice, to which responsibility for prisons was 
transferred during 2003 from the Ministry of Interior. The 
International Committee of the Red Cross has regularly visited prisons, 
and to some extent has provided food and water to detainees. Though 
information on the situation outside of Kabul is inconsistent, it 
appears that all or most actually functioning prisons and detention 
facilities (with an unknown number of detainees) are effectively 
controlled by commanders or other regional power-holders, rather than 
the central government. Prison conditions generally in Afghanistan have 
been harshly criticized by those who have examined them, but other than 
the work described above, no concrete measures are underway to address 
the situation.
Transitional Justice and the Human Rights Commission
    Transitional justice--the process of dealing with the legacy of 
atrocities and human rights abuses--has taken a backseat in post-
Taliban Afghanistan. Political support, both within and outside the 
country, for documenting such crimes and developing mechanisms to deal 
with them has been minimal. According to one senior Afghan official, a 
serious effort to pursue a war crimes agenda could implicate half the 
current cabinet. While the legacy of past atrocities and continuing 
human rights violations fail to be addressed, the culture of impunity 
will continue to undermine development of a culture of rule of law.
    Transitional justice is included within the broad human rights 
mandate of the Afghan Independent Human Rights Commission established 
under the Bonn Agreement. Recognizing the reality of the present 
environment--that it is difficult to envision a full-fledged 
transitional justice process while probable violators hold the reins of 
power--the Commission is undertaking two categories of activities to 
lay the groundwork for future efforts in this area. First, the 
Commission is beginning work on documentation of past crimes, and, 
second, the Commission is preparing to launch a ``national 
consultation'' on transitional justice that will consider what types of 
mechanisms should be adopted. The Commission does not see the Afghan 
judicial system as being capable of handling war crimes or other 
serious human rights matters any time soon, given that the judiciary is 
politicized, many judges are poorly qualified, and corruption is 
widespread.
    The documentation work has been slowed by security risks for 
witnesses and Commission staff, as well as, in the Commission's view, 
by the lack of political support, particularly from the United States, 
for investigations of past crimes at the current time. Nevertheless, 
the process has begun in select areas, where the security situation is 
satisfactory and where probable perpetrators are not in official local 
positions of power.
    The Commission is preparing for the national consultation process 
by consulting first with civil society groups. Commission staff hope to 
start the national consultation early in 2004. The consultation is 
expected to include a media campaign, public presentation of options, 
and use of civil society groups and shuras to organize discussions 
around the country. The Commission hopes to conclude the process by the 
time of elections--now slated for June 2004, but likely to slip until 
the late summer or fall. Commission staff predict the consultation will 
show popular interest in a combination of a limited number of trials 
for major perpetrators, and some form of truth and reconciliation 
process, probably using traditional shuras, for most perpetrators. Such 
conclusions would reflect the deep-rooted Afghan traditions of both 
revenge and forgiveness. This approach would also recognize the need to 
balance legal accountability for past abuses with the limitations of 
the criminal justice system and the imperative of dealing with the past 
through complementary processes that can move Afghan society forward in 
a constructive fashion.
                             key challenges
Narcotics and Organized Crime
    A fundamental challenge to the future of Afghanistan, and 
specifically to the effort to develop a culture of rule of law, is the 
growing domination of the economy by, and the dependence of most power-
holders on, the production of opium and the international traffic in 
narcotics. In a situation where there are no disincentives and no 
equally lucrative alternatives (opium provides farmers ten times the 
income of wheat or other crops), Afghanistan's rural population is 
turning increasingly to farming poppies and the production of opium and 
its derivatives. Opium production fuels the rural economy and provides 
livelihoods for seven percent of the population. At the same time, 
nearly all elements of local and regional power structures, who take 
most of the profits, use the proceeds from narcotics trafficking to 
fund their activities and maintain their independence from the central 
government.
    Afghanistan is the world's largest producer of illicit opium. The 
UN Office of Drugs and Crime reported in its ``Afghanistan Opium Survey 
2003'' that Afghanistan produced 3,600 metric tons of opium, or three-
fourths of the world's supply. This amount of opium earned Afghan 
traffickers, and to a lesser extent farmers, $2.3 billion, an amount 
equal to half the country's legitimate GDP and nearly five times the 
government's annual budget. Production was six percent greater than the 
previous year, despite poor weather, disease, and limited government 
efforts at eradication. In the past, cultivation was concentrated in 
only three provinces; by 2003, it had spread to 28 of Afghanistan's 32 
provinces. At present, 80 percent of Afghanistan's opium production is 
consumed in the region. Pakistan and Iran have an estimated two million 
addicts each, and there are growing addict populations in the former 
Soviet republics on the Afghan border. At the same time, Afghanistan 
supplies 70 percent of the heroin consumed in Western Europe. According 
to the UNODC, the international trade in Afghan opiates generates a 
total turnover of $30 billion worldwide.
    Expansion is fueled by a lack of restraints and the encouragement 
of provincial governors, warlords, corrupt officials, and even some 
Islamic clerics. In addition, the return to the countryside of large 
numbers of refugees with no employment opportunities other than 
laboring in poppy fields has contributed to increased production. As 
central government authority does not extend beyond Kabul, poppy 
growing is not subject to interference by law enforcement authorities. 
Experts uniformly agree that counter-narcotics efforts must combine 
``carrots'' and ``sticks,'' but essentially no sticks are now being 
wielded. While large-scale interdiction and eradication programs may 
not be feasible in present circumstances, close observers have said 
that even targeted, sporadic seizures and other enforcement measures 
would provide some deterrent.
    The opium economy also benefits from a well-organized 
``agricultural extension'' system sponsored by drug brokers and 
traffickers that provides farmers with seeds, fertilizer, advance 
credit, technical assistance, and an assured market. Credit may be used 
for production of legitimate crops as well as opium, but repayment must 
be in the form of opium. Drug brokers buy directly from farmers or from 
opium merchants in small towns and village markets. They resell to drug 
traffickers, who either supply refiners or exporters. Local refining of 
opium into morphine base and production of heroin is increasing.
    The U.S. Drug Enforcement Administration (DEA) has identified some 
ten major ethnic-Pashtun traffickers engaged in moving drugs over the 
traditional smuggling route between Kandahar and Quetta in Pakistan. 
Major traffickers from other ethnic groups are also involved and 
control the trade in areas where their kin live on both sides of the 
Afghan border. Transportation of narcotics frequently is carried out in 
police or military vehicles controlled by provincial governors, 
commanders, or other power-holders.
    Over the past two years, the Afghan government has put in place the 
legal and institutional framework to begin an effective counter-
narcotics program. In January 2002, President Karzai issued a 
Presidential decree outlawing the cultivation, production, trafficking, 
and abuse of narcotics. In October 2002, the Counter-Narcotics 
Directorate (CND) was created as part of the National Security Council. 
In May 2003, a National Drug Control Strategy was adopted. In October 
2003, a modern, national narcotics control law was enacted. Also in 
2003, an initial Afghan government enforcement program resulted in the 
claimed eradication of 21,000 hectares of opium in the major growing 
areas of Helmand, Kandahar, and Ningarhar provinces. As the central 
government had no capacity, the eradication effort was undertaken by 
provincial governors, but without independent verification. This raised 
suspicions that any poppies actually destroyed probably belonged to 
political rivals or farmers who refused to pay for protection.
    The government's program has been supported by the United Kingdom, 
which is the ``lead nation'' among international donors on counter-
narcotics efforts. The British have provided effective coordination of 
international and Afghan initiatives, and have contributed funding and 
political support for the government's eradication program. The UK has 
pledged $12 million over the next three years to create an anti-
narcotics task force. British customs agents are training a new police 
enforcement unit of the CND. They have also promised drug-related 
equipment for the Afghan border police.
    The UNODC has also played a valuable role in supporting the CND, 
particularly in the area of research and advising on strategies for 
creating alternative livelihoods. For the first time this year, the 
UN's annual report on opium production was produced in cooperation with 
the Afghan government. For its part, the U.S. government has promised 
to provide assistance for eradication, alternative crops, and effective 
law enforcement. Some U.S.-trained Afghan police will be assigned to 
controlling opium production, providing the missing ``shock troops'' 
for a local war on drugs. That said, a robust operational capacity on 
the part of the Afghan government is years away.
Taliban and al Qaeda Resurgence
    Nearly two years after their defeat by U.S. and allied Northern 
Alliance forces, the Taliban has re-emerged as a growing security 
threat along Afghanistan's southeastern border with Pakistan. Taliban 
forces have staged attacks and have tried to regain political influence 
in Pashtun areas. Similarly, al Qaeda's training camps in Afghanistan 
have been destroyed and a substantial proportion of its cadre 
eliminated, but it retains the capacity to conduct military operations. 
From sanctuaries in Pakistan's lawless tribal areas, bands of al Qaeda 
extremists have staged cross-border raids on U.S. bases. At the same 
time, forces loyal to renegade militia commander Gulbuddin Hekmatyar 
operate in the northern border provinces of Kunar and Nuristan, where 
they have declared their own jihad against the United States and 
Coalition forces. Taliban insurgents have also attacked and killed 
foreign aid workers, Afghan police, and road crews. These events have 
caused a dramatic scaling back by international agencies, and a 
consequent lack of capacity to provide assistance to a significant 
portion of the country.
Warlordism
    Other than in the southern and eastern areas, the blame for the 
lack of security in Afghanistan falls on a number of heavily armed 
regional warlords and their subordinate militia commanders. These local 
leaders also remain a major impediment to national unity. They have 
refused to disband their private armies, and routinely engage in armed 
clashes over control of territory, border crossings, and transportation 
routes. They also use intimidation and violence to control the local 
population, and rely upon criminal activities including narcotics 
trafficking and extortion to finance their activities. In many cases, 
the most senior warlords serve as provincial governors or hold other 
official positions, but refuse to accept direction from or provide 
revenue to the central government. The problem of regional warlords is 
particularly serious in the north, where ethnic divisions and personal 
rivalries among commanders persist. Conflicts among these leaders pose 
a problem for the United States, as the American military provided 
money and military support to these leaders in the battle against the 
Taliban. The United States continues to provide these regional 
commanders with financial support and to rely upon their forces to 
engage Taliban remnants. Observers note that many ordinary Afghans 
question the U.S. approach and have been disappointed that the 
Coalition has not taken a harder stand against the warlords, whom 
people consider to be their abusers.
    To help deal with the warlord problem, the UN, with Japan in the 
``lead nation'' role, has begun implementing a program to disarm, 
demobilize, and reintegrate as many as 100,000 soldiers and militia 
members. The program began by demobilizing a group of 1,200 fighters in 
Kunduz and Paktia provinces in October 2003. On December 9, two 
thousand former Northern Alliance soldiers surrendered their weapons in 
Kabul and agreed to participate in a job-training program to prepare 
for civilian life. Many regard disarmament to be of critical importance 
to the stabilization of Afghanistan; whether the efforts that have only 
recently been set underway will prove to be substantial and effective 
remains to be seen.
    As with many areas of the reconstruction process, the warlordism 
problem is a direct impediment to efforts to build the rule of law. 
Warlords, whether they hold official positions or not, currently 
subvert both formal and informal justice processes through intimidation 
and interference in areas from the capital to rural districts, and they 
largely control whatever law enforcement apparatus exists outside of 
Kabul. Even in Kabul, militia men are able to assert control on the 
streets, despite a semblance of central government police presence.
                            recommendations

  <bullet> Move beyond the ``lead nation'' approach for the rule of 
        law. After two years, it is clear that the ``lead nation'' 
        approach has not worked effectively in the rule of law area. 
        The significant and multiple challenges in restructuring and 
        rebuilding Afghanistan's justice sector requires the intensive 
        involvement of more than one foreign donor. ``Non-lead'' donors 
        need to engage more dynamically with Afghan institutions on 
        these issues, rather than leaving Italy to shoulder most of the 
        task. The lack of strong international leadership in energizing 
        reform, bridging differences among the Afghan institutions, and 
        coordinating donors has resulted in drift. Three steps should 
        be taken to introduce stronger leadership:

                --Donors other than the ``lead nation'' should work 
                more proactively with Afghan authorities and Italy to 
                help define and drive a reform strategy for the justice 
                sector and undertake initiatives where they are needed, 
                as the United States has done recently in police 
                training. Though the United States already has 
                significant commitments in other sectors and is already 
                the second largest donor in the justice sector, it also 
                has the most at stake and invested in Afghanistan's 
                reconstruction and the greatest political influence of 
                any international player in the country, and should not 
                wait for other donors to act in this area. Other donors 
                should also step up for particular aspects of the rule 
                of law portfolio, such as corrections.

                --UNAMA should immediately fill its vacant position of 
                a senior rule of law advisor. The institutional 
                weaknesses of UNAMA (e.g., its lack of operational 
                capacity) might limit the ability of such a person to 
                play a significant role, but a dynamic, highly 
                qualified individual could still make a difference in 
                working with the Afghan institutions to push reform, 
                and in stimulating donors' interest in key priorities.

                --The Ministry of Justice and donors should activate 
                the moribund Consultative Group (CG) for the justice 
                sector. Consideration might be given to putting a 
                revitalized Judicial Reform Commission in the chair of 
                the justice sector CG, instead of the Ministry of 
                Justice, in view of the persistent institutional 
                rivalries in the sector. Some criticize the CG process 
                as being a bureaucratic talk shop, and the usefulness 
                of Groups for different sectors appears to vary. But 
                the CG does provide a forum for a variety of donors' 
                voices to be heard, and for questions to be raised 
                about the lead nation's approach. It also provides a 
                mechanism for regular communication between Afghan 
                stakeholders and donors.


  <bullet> Devote greater resources to developing human resource 
        capacity through professional education and long-term training. 
        Realistically, it will be difficult to make significant headway 
        in improving the quality of law enforcement, judicial, and 
        legal personnel without extensive efforts to improve literacy 
        and provide basic education, including for adults. At present, 
        much of the training provided is wasted or lost on students who 
        lack the basic understanding and skills necessary to make the 
        best use of the training provided. There is a specific need to 
        improve the legal education system, which is being almost 
        entirely ignored. While quick-impact training has a useful 
        role, a long-term and deep impact will be achieved only by 
        preparing the next generation of legal professionals. In 
        addition, given the relatively short period of training most 
        police will receive through the U.S. program, regular follow-on 
        training will be necessary to ensure a lasting impact. Finally, 
        donors should initiate a program to train a cadre of high-
        quality translators/interpreters with knowledge of legal 
        terminology; the current lack of such capacity is a bottleneck 
        for all other capacity-building projects.

  <bullet> Work, where possible, to improve the quality of judicial and 
        law enforcement personnel through professionalized selection 
        procedures. While a comprehensive weeding-out process for 
        current personnel is not realistic at present, Afghan 
        authorities should take steps wherever possible to 
        professionalize judicial and prosecutorial selection procedures 
        in accordance with established standards. Any progress on this 
        front would begin the essential process of reducing the impact 
        of madrassa-educated personnel in the system, and would 
        complement short- and long-term training. Similarly, steps 
        should be taken to adopt a transparent and merit-based 
        recruiting and selection system for police, who are now mostly 
        converted militia members. This would include a mechanism for 
        vetting to ensure that human rights abusers and criminals are 
        rejected.

  <bullet> Focus the rule of law reform strategy on Kabul and the five 
        major provincial cities. Efforts toward improving law 
        enforcement and the judiciary should focus on the major cities 
        in Afghanistan because that is where the formal justice system 
        is most used and most needed. Bearing in mind the reality of 
        limited resources, judicial reform should be focused on the 
        provincial (rather than district) level courts in order to have 
        a broad impact in ensuring a reasonable quality of justice. An 
        improved provincial court could provide a check on as-yet 
        unreformed district courts throughout the province. The 
        strategy should include intensive training of police, judges, 
        prosecutors, and court administrators; enhanced salaries; 
        improvement of facilities; provision of equipment; improvement 
        of court management; and replacement of poorly qualified 
        personnel.

  <bullet> Require Coalition military forces to perform limited law 
        enforcement functions until Afghan police and law enforcement 
        capacities come on line. Unless the U.S.-led OEF is willing to 
        expand its mandate to include at least a minimum of counter-
        narcotics activities, it will be years before the Afghan police 
        are prepared to undertake on their own the kind of high-risk 
        operations that are required. At present, OEF forces rarely 
        interfere with narcotics trafficking or heroin production even 
        if they discover such activity in the performance of other 
        duties. A limited, but extremely useful, change in the military 
        mandate would involve intelligence sharing with civilian law 
        enforcement and a willingness to take action against drug 
        warehouses and heroin laboratories. This would help correct the 
        impression of most Afghans that the U.S. military purposefully 
        ignores the participation of the warlords in the drug trade. In 
        the absence of any enforcement actions against the narcotics 
        trade, the perceived message of tolerance of this activity will 
        continue to undermine the effort to develop a culture of rule 
        of law.

  <bullet> Reform the judicial reform process. In theory, the Judicial 
        Reform Commission (JRC) was a sensible idea, given that no 
        single Afghan institution has authority over all elements of 
        the justice sector; in practice, it has not been able 
        effectively to drive reform in the sector.

                --One option is to wind down the JRC and shift donor 
                resources to building capacity in the permanent 
                institutions. The persistent lack of consensus 
                regarding the proper role of the JRC, the JRC's having 
                become another faction in an already factionalized 
                sector, and the limited time remaining in its currently 
                defined lifespan militate in favor of beginning now to 
                wind down the JRC and spin off its activities. Donor 
                resources now being devoted to or earmarked for 
                building up the JRC could be redirected to building the 
                capacity of the permanent institutions directly, 
                including the Ministry of Justice, Saranwali, 
                Judiciary, and Ministry of Interior. In order to 
                provide a new umbrella body for driving reform and 
                coordinating with donors, creation of a joint body 
                composed of representatives of the permanent 
                institutions would seem to have the benefit--in 
                contrast to the JRC--of buy-in from the stakeholders. 
                However, such a body probably would mirror the 
                disputatious relations among the institutions rather 
                than bridging their differences. Consequently, if the 
                JRC is disbanded, a new expert advisory body attached 
                to the President's office is recommended instead, in 
                particular because the current posture of the Supreme 
                Court is a primary obstacle to reform, and only the 
                chief executive has the potential for influence over 
                that institution. This body should be composed in a way 
                that would give it greater political clout than the 
                current JRC, in order to enable it to bridge 
                differences among the permanent institutions and carry 
                weight with foreign donors.

                --A second option is to substantially enhance the JRC's 
                political stature and capacity in order to improve its 
                effectiveness. The continuing need for an umbrella over 
                and facilitator among the coequal permanent 
                institutions in the justice sector argues in favor of 
                maintaining, but enhancing, the JRC. This would entail 
                reorganizing the JRC to give it a more politically 
                powerful membership; forging a close relationship 
                between the Presidency and the JRC, so that the latter 
                becomes the President's agent in dealing with the 
                justice sector; and extending the life of the JRC 
                beyond the coming elections, while clarifying and 
                enhancing its somewhat ambiguous terms of reference in 
                a new decree. At the same time, donors would need to 
                speed the flow of resources to the JRC, supplement its 
                currently limited technical capacity, and provide 
                professional management capability. A revitalized JRC 
                could play a leading role in facilitating regular 
                dialogue and cooperation among the permanent 
                institutions, thus helping to ensure an integrated 
                approach to developing the rule of law.

                  In either scenario, it is imperative that 
                organizational arrangements ensure that Afghans, with 
                international assistance, decide how their judicial 
                system should look and function, by addressing such 
                issues as the role of Shari'a and tribal tradition and 
                the respective roles and authority of the various 
                institutional actors in the justice sector. Until such 
                issues are addressed, any new commission or advisory 
                body--in all likelihood involving personnel from the 
                various institutions--will continue to be fractious.

  <bullet> Establish a judicial monitoring program. As part of a 
        renewed engagement with justice sector rebuilding, UNAMA would 
        be best-placed to establish an independently managed judicial 
        monitoring arm. Without any systematic observation of how the 
        system functions in reality, measuring progress, applying 
        resources, and identifying specific issues to be addressed will 
        continue to be exceedingly challenging. Monitoring personnel 
        also could work to foster appropriate disciplinary systems in 
        Afghan institutions.

  <bullet> Significantly increase funding for corrections programs. 
        Except for one $2 million program and limited NGO activities, 
        the dire need to improve prisons and detention centers in 
        Afghanistan and ensure central government control over 
        facilities is being ignored. Lack of overhaul of the 
        corrections system has a direct negative impact on the 
        functioning of the entire criminal justice system. One or more 
        donors are needed to step forward and play a major role in this 
        area. Even if resources for implementation of prison 
        infrastructure projects are limited in the near term, it would 
        be possible with more modest resources to build capacity in the 
        Ministry of Justice for professional corrections planning and 
        management, and to train corrections personnel. At the same 
        time, the political and diplomatic work of disengaging warlords 
        from control over prison and detention facilities in the 
        provinces should proceed.
                            about the report
    Two years into the process of re-building Afghanistan, and in the 
wake of the adoption of a new Constitution in January 2004, this report 
evaluates the progress that has--and has not--been made in establishing 
the rule of law in Afghanistan. The report assesses efforts by Afghan 
institutions and international donors to develop the apparatus of law 
enforcement and administration of justice necessary to ensure that the 
rights and protections guaranteed to Afghans in their new Constitution 
can be meaningfully implemented. Both the reform process and priorities 
are analyzed with respect to police, courts, judges and lawyers, law 
reform, legal education, and corrections. Key cross-cutting challenges 
to rule of law development, such as narcotics and organized crime, are 
also addressed. The report is based principally on approximately 70 
interviews conducted by the authors in Kabul and Washington during 
October and November 2003. Interviewees included officials of the 
Afghan government, judiciary, and commissions created under the Bonn 
Agreement, the United Nations, the United States and other donor 
governments, and non-governmental organizations, as well as independent 
observers. This report was written by Laurel Miller and Robert Perito 
of the Institute's Rule of Law Program.
    The views expressed in this report do not necessarily reflect views 
of the United States Institute of Peace, which does not advocate 
specific policy positions.

                               __________

                                 <all>

      

</pre></body></html>
